You've Got OIG's Number

                            Call




                            To Report
                  Fraud, Waste
                       or
                     Abuse.
2021219-522711-8001347-3756




  Federal FWcycPng RoOrMI       W e d on Recycled Paper
Office of Inspector
Semiannual   Report General             _°"
                                        _"
U.S. Department of Labor
U.S. Departmentof Labor
LynnMartin,Secretary

Officeof InspectorGeneral
Julian W. De La Rosa,InspectorGeneral

April 1 - September 30, 1992
                      THE     INSPECTOR          GENERAL'S          MESSAGE



 This Semiannual Report, covering the period April 1 - September 30, 1992, marks the close of a very
productive fiscal year for the Office of Inspector General (OIG).

During Fiscal Year 1992, the OIG issued 500 audits of departmental programs, reporting questioned
costs of $86.3 million. An additional $42.2 million was recommended by the OIG to be put to better
use. During this period some $70.2 million of costs were disallowed by the Department as a result of
OIG audit recommendations.      Comparable achievements were attained through the OIG's criminal
investigations. Law enforcement activities produced 290 successful criminal prosecutions and 333
indictments; and generated almost $58 million in fines, penalties, restitutions, settlements, forfeitures,
and cost efficiencies.

Among the OIG's many noteworthy accomplishments in the past fiscal year is the major role the
OIG played in support of the enactment of the Job Training Partnership Act amendments.            The
passage of these amendments demonstrates the positive results that can be achieved through the input
and analysis provided by the OIG to the Congress.            This new law, complemented       with a
comprehensive regulatory program, is designed to address many of the systemic weaknesses documented
by OIG audits and investigations over the past several years.       The significant accomplishments
achieved by the OIG in identifying and combating fraudulent, employer-sponsored health insurance
plan schemes are also worthy of special note.

During this reporting period, I continued to appear before congressional committees to provide
testimony on matters related to Departmental programs and operations.      These committees have
always been receptive to my remarks and recommendations.  Their interest in OIG activities is greatly
appreciated.

I remain greatly concerned that the Department has not selected a Chief Financial Officer despite
the critical need to fill this position, as demonstrated by the findings of the OIG's numerous financial
management audits.

In addition to my responsibilities as Inspector General, I am honored to have been recently appointed
 to serve as Vice Chair of the President's Council on Integrity and Efficiency (PCIE). The PCIE was
established by the President to coordinate and enhance efforts to promote integrity and efficiency
 throughout Government. I have been especially granfied to have the opportunity to work closely with
Frank Hodsoll, Deputy Director for Management of the Office of Management and Budget, and my
fellow Inspectors General in this important activity.

In conclusion, I want to commend Secretary Lynn Main'n, Deputy Secretary Delbert Spurlock, and
the Department of Labor executive team for their sustained efforts to improve overall management.
I look forward to continuing to work closely with the Department to ensure that it continues to fulfill
its responsibilities to the American worker.

Sincerely,




Julian W. De La Rosa
Inspector General
                                    REPORTING    REQUIREMENTS    UNDER
                                   THE INSPECTOR    GENERAL   ACT OF 1978



The table below cross-references the reporting requirements prescribed by the Inspector General
Act of 1978, as amended, to the specific pages where they are addressed.         The information
requested by the Congress in Senate Report No. 96-829 relative to the 1980 Supplemental
Appropriations and Rescission Bill is also cross-referenced to the appropriate page of the report.



                                                                         Requirement



Inspector          General         Act                                                                                    Page

Section 4(a)(2)-Review of Legislation and Regulations                                    ..........................        90
Section 5(a)(1)-Significant           Problems, Abuses, and
  Deficiencies .......................................................                                                      9
Section 5(a)(2)-Recommendations                        With Respect to
  Significant Problems, Abuses, and Deficiencies ...............................                                            9
Section 5(a)(3)-Prior Recommendations                             Not Yet Completed ...................                 None
Section 5(a)(4)-Matters            Referred to Prosecutive
  Authorities   .......................................................                                                     5
Section 5(a)(5) and 6(b)(2)-Summary of Instances Where
  Information Was Refused ..........................................                                                    None
Section 5(a)(6)-List of Audit Reports                     ....................................                            126
Section 5(a)(8)-Statistical Tables on Management
  Decisions on Questioned Costs ....................................                                                  119, 120
Section 5(a)(9)-Statistical Tables on Management
  Decisions on Recommendations                   That Funds Be Put
  to Better Use ...................................................                                                       121
Section 5(a)(10)-Summary     of Each Audit Report Over 6 Months
  Old for Which No Management Decision Has Been Made ....................                                                 122
Section 5(a)(ll)-Description   and Explanation for
  Any Significant Revised Management Decision ..............................                                               43
Section 5(a)(12)-Information    on Any Significant Management
  Decisions .With Which the Inspector General Disagrees ......................                                          None

Senate        Report        No. 96-829

Resolution        of Audits ..............................................                                            119-121
Delinquent         Debts      ..................................................                                          113

                                                                                   ii
                           SIGNIFICANT       CONCERNS


The Department Needs to Make Pension Plan Audit and
Enforcement Amendments a Legislative Priority

Since 1984, through our semiannual reports and congressional testimony, the OIG
has reported its concerns that hundreds of billions of dollars in employee pension
funds are not being safeguarded by adequate audits. This results from the limited
scope provision of the Employee Retirement Income Security Act (ERISA) of 1974
that exempts funds invested in federally regulated entities from the audit
requirement.   This is based on the inaccurate assumption that these institutions
receive adequate audit coverage from other Federal agencies.

The OIG has long recommended         legislative changes to improve the quality of
pension plan audits and to increase the costs of unlawful behavior. Moreover, the
General Accounting Office, the American Institute of Certified Public Accountants,
and other organizations have expressed their support of the OIG's recommendation
that the limited scope provision of ERISA be eliminated.     The OIG is concerned
that, despite the Department's    agreement with most of our recommendations,
passage of these legislative changes has not been made a Departmental priority.
We urge the Department to rectify this situation.

Employer-Sponsored    Health Insurance    Still Subject to Abuse

OIG investigations      continue to reveal extensive fraud and abuse in Multiple
Employer Welfare Arrangements         (MEWAs).    With the rising cost of health care,
MEWAs have evolved into a usually legitimate,             commercial   alternative  to
traditional health insurance.      All too often, however, the MEWA concept has
provided     an avenue for egregious frauds.         Through bogus labor unions,
associations, and memberships, a new breed of white collar racketeers has bilked
thousands of American workers out of millions of dollars in paid premiums, leaving
them with millions in unpaid claims and the threat that they will never be insured
for their "pre-existing" conditions. Although numerous bills were introduced in the
Congress that attempted to address various facets of the problem, the Congress
adjourned before action was taken on any of them. The OIG encourages the
Department and the Congress to revisit this issue early in the next Congress.
The Chief Financial Officer Post Remains Vacant

The Chief Financial Officer (CFO), as established by the CFO Act, is the focal
point of the DePartment's financial management and accountability.     Although the
Office of Management and Budget approved the Department's         reorganization  of
financial management activities over a year ago and implementing guidance was
issued 6 months ago, a CFO for the Department            of Labor has yet to be
nominated.   As detailed throughout this report, OIG financial audits continue to
find major internal control weaknesses in the Department's  financial management.
A CFO is urgently needed to provide the leadership necessary to correct these
Departmentwide     problems.

The Department Must Capture the Promiise for Improved
Fiscal Accountability Provided by JTPA Amendments

The OIG is encouraged by the recently enacted amendments to the Job Training
Partnership   Act (JTPA) and is proud to have played an integral part in the
legislative process. The amendments are designed to alleviate some of the long-
standing problems that have thwarted the success of the program, as reported in
previous OIG reports. Key to the effectiveness of the new amendments, however,
will be developing,    promulgating, monitoring,  and enforcing   comprehensive
regulations that are needed to implement the law. The OIG is working closely
with the Employment and Training Administration to ensure that these regulations
are issued in a timely manner.

Inefficiencies   Still Plague Deputation Request Process

In our last report, we set forth the inefficiencies associated with the administrative
process used by the Department of Justice (DO J) to review and act on requests
for the deputation of Office of Investigations (OI) Special Agents as special deputy
U.S. Marshals. Despite meetings with DOJ officials and their agreement to handle
these matters in a more timely manner, we have experienced a significant increase
in the length of time required by DOJ to process these requests.         For example,
During the first 9 months of Calendar Year 1992, the DOJ approved almost 500
individual deputations     for OI agents.    These requests required an average of
almost 45 days for DOJ to process but, individually ranged up to 85 days to be
completed.      The delays associated with the DOJ review process are so significant
that they have an adverse impact on tile effectiveness          and efficiency of OI
investigations.




                                          2
                                 EXECUTIVE          SUMMARY



DOL Accounting Operations Need Improvement

A Departmentwide             OIG audit of the Consolidated Financial Statements for Fiscal
Year 1991 found that, although the consolidated principal statements presented fairly
the financial position of the Department, significant weaknesses still exist. The OIG
audit concluded that the Department                       of Labor needs to improve its accounting
operations   ............................................                                 page 14

JTPA Amendments        Address Systemic Program Weaknesses

The OIG played an integral role in the process of amending the Job                       Training
Partnership Act (JTPA) and urges the promulgation of comprehensive and                   effective
regulations to implement the recently enacted law. Audits and investigations             detailed
in this report, reveal the long-standing and systemic fiscal accountability             problems
that the amendments are designed to correct ...................                          page 25

An inadequate procurement system and other administrative deficiencies by the East
Texas Council of Governments led to almost $5.8 million being questioned by an OIG
audit. This amount was predominantly attributable to excessive profits generated by
subcontractors  ........................................                    page 27

The OIG continued to devote significant resources to conducting JTPA fraud
investigations. OIG efforts resulted in numerous convictions, indictments, and guilty
pleas. For example, four former account executives/placement   counselors of the New
York City-based Project Rebound and three others, pied guilty and were sentenced.
Their pleas and sentences stem from their involvement in a scheme that defrauded
the JTPA program of some $632,000 in on-the-job training funds . .....       page 97


Embezzlement by Health Insurance Consultants               Results in $8 Million in Unpaid
Medical Claims

An OIG Office of Labor Racketeering investigation of a Washington State insurance
consulting firm led to the indictment of its president and two of his associates on
charges that they cheated thousands of American workers out of about $8 million in
health insurance claims ..................................                  page 81




                                                3
Labor Racketeering   Sting Operation Nabs Organized Crime Figures

An undercover investigation, conducted jointly by the FBI and the Office of Labor
Racketeering, resulted in the indictment of three reputed Patriarca organized crime
family members and a Teamsters Union member on charges of conspiracy to bribe
labor union officers and racketeering   ........................            page 85


Audiologist Guilty in FECA Fraud Scheme

A New Hampshire      audiologist was found guilty on 130 counts of a 136-count
indictment which included charges of mail fraud and making false statements. The
conviction stems from his involvement in a scheme in which he billed OWCP and
Medicare   for the same services or for services not performed     .......    page 102


Significant OIG Audits Resolved With Program Agencies

Significant audit findings were resolved during this reporting period with various
Department of Labor program offices. These included previously reported audits on
various JTPA grantees and SDAs; OSHA's settlement of, and followup on, egregious
cases; the Solicitor's Office management       of their litigation function; and two
information resources management audits. For JTPA alone, audit resolutions resulted
in over $10 million in disallowed costs ..............          pages 37, 53, 58, 62, 64


Atlanta Couple Pleads Guilty to Multi-State Unemployment      Insurance Fraud Scheme

An Atlanta couple pied guilty to charges of conspiracy and fraud for their
involvement in an eight-state unemployment     insurance fraud scheme.     They had
previously been indicted on 142 counts of various Federal violations . . . page 100


Twenty Members of the Newspaper Mail Deliverers Union               and the Bonnano
Organized Crime Family Indicted for Racketeering Activities

Twenty individuals were indicted in New York for their involvement in a criminal
enterprise which allegedly controlled the systemic theft and sale of New York Post
papers and which was involved in organized crime activity. The individuals indicted
included members of the Newspaper Mail Deliverers Union and the Bonnano
Organized Crime Family .................................                   page 88

                                           4
                                                   SELECTED                  STATISTICS
                                                  April 1 - September 30, 1992


Office of Audit

Reports issued on DOL activities ..............................                                                        246
Total questioned costs ...............................                                                    $ 23.0   million
Funds recommended for better use ......................                                                   $ 42.1   million
Dollars resolved ...................................                                                      $ 70.5   million
    Allowed . . ..........                ..........................                                      $ 44.0   million
    Disallowed ..........                 ..........                 • ................                   $ 26.0   million
    Agreed funds be put to better use .....................                                                $ .5    million

Office of Investigations

Cases opened         ...........................................                                                      236
Cases closed ............................................                                                             362
Cases referred for prosecution                      ................................                                  154
Cases referred to DOL agencies for administrative action                                  .............               119
Indictments                                                                                                            86
Convictions.      .............................................                                                        94
Recoveries, cost efficiencies, restitutions,
    fines/penalties, civil monetary actions, forfeitures,
    and courtcosts*             ..................................                                          $ 5,174,901

Office of Labor• Racketeering                                             • ..

ca:ses opened          ................................................                                              110
Cases closed .............................................                                                             44
Indictments      ..............................................                                                        85
Convictions ....................................................                                                       62
Fines .............................................                                                        $ .4 million
Restitutions     .......................................                                                   $ 7.2 million
Forfeitures      .......................................                                                   $ 3.5 million



*For definitions of these categories and a breakdown of the total figure, please see
 the appendix to the Office of Investigations Section on page 106.


                                                                            5
                                                         TABLE             OF CONTENTS




The Inspector          General's Message                    ......................................                                       i


Inspector General Act Reporting Requirements                                            ...........................                     ii


Significant Concerns ..............................................                                                                      1


Executive Summary                  ..............................................                                                       3


Selected Statistics ................................................                                                                    5



Section I: Major Problems, Abuses, or Deficiencies, and
           Recommendations for Corrective Action

Financial Management       ...........................................                                                                 11
Employment and Training Administration                         ..............................                                          23
Employment Standards Administration                       ................................                                             45
Occupational Safety and Health Administration                              ..........................                                  51
Mine Safety and Health Administration                     ................................                                             55
Office of the Solicitor ............................................                                                                   58
Departmental           Management                ........................................                                               59


Section II:        Federal Managers' Financial Integrity Act Activities

FMFIA        High Risk Areas                  ...................                                    ......................             73


Section III:         Summary of Additional OIG Activities and Issues

Office     of   Labor Racketeering .......................................                                                              77
Office     of   Resource Management and Legislative Assessment                                                     .................    90
Office     of   Investigations      ...........................................                                                         96
Office     of   Audit ................................................                                                                 107




                                                                                    7
Section IV: Audit Schedules and Tables

Money owed to the Department of Labor ..............................                                                     113
Summary of Audit Activities of DOL Programs                              ..........................                      114
Summary of Audit Activities of ETA Programs                              ..........................                      115
Summary of Audits Performed under the Single Audit Act ..................                                                116
Summary of Audits Performed under the
  Single Audit Act/Multi-Agency           .....................................                                          117
Audits by Non-Federal Auditors .....................................                                                     118
Summary of Audit Resolution Activity/Questioned                             Costs ....................                   119
Summary of Audit Resolution ActivityAJnsupported                                Costs ...................                120
Summary of Audit Resolution Activity/Funds to Be
  Put to Better Use .............................................                                                        121
Unresolved Audits Over 6 Months ...................................                                                      122
Summary of Final Action Activity/Disallowed Costs ................                                          . . ......   124
Summary of Final Action Activity/Funds to Be
  Put to Better Use .............................................                                                        125
List of Final Reports           Issued ........................................                                          126


Abbreviations        Used in This Report ...................................                                             134




                                                                          8
                 Section I




Major Problems, Abuses, or Deficiencies, and
  Recommendations for Corrective Action




                     9
                            FINANCIAL       MANAGEMENT



The OIG has made a long-term commitment to improve financial management in the
Department     through audits of the Department    of Labor's (DOL) annual financial
statements and audits of financial and accomplishment data at the program level. Only
with reliable financial and program accomplishment   data, can management     make valid
comparisons of financial inputs and programmatic output, allowing for more informed and
effective decision-making.

In order to achieve full accountability, top-level program and fiscal managers need to
ensure that accurate and complete financial and program accomplishment         data are
maintained.  Audited  financial statements     are a vital mechanism    to demonstrate
management's    oversight and accountability over Federal funds. They serve as a focal point
for measuring   and managing the cost of Government.

The OIG audited the Department's consolidated financial statements for the first time in
1986 and continued to prepare and audit the reports for several years after. The 1986
audit found that financial operations were not integrated and controls over financial
reporting were very weak. Moreover, the audit found that the accounting system, which
was more than 15 years old, was barely functioning and was not meeting the needs of the
Department.    The audit also found that the Department    did not have sufficient staff
capable of preparing financial reports.

In the 6 years since that first audit, the Department has made progress toward improving
its financial operations and reporting.       The Department  has installed a new central
accounting system, established accounting practices that conform to the Standard General
Ledger, and begun integrating the previously separate accounting operations          of the
program      agencies.     However,    management    has to make substantial      additional
improvements      to achieve a fully integrated financial management    operation in which
program managers are held fully accountable for the resources allocated to them to carry
out the Department's      programs.

A year ago, the OIG reported that the Department           had still not nominated a Chief
Financial Officer (CFO).     The OIG also identified the following three critical actions
needed to improve the Department's financial management: (1) the Department needs to
complete the implementation     of an integrated financial management system, (2) it needs
to improve its financial and performance reporting, and (3) it needs to implement its CFO
organization. To date, progress in each of these areas has been slow. Recent audit reports
demonstrate the need for faster progress in each area.




                                             11
STATUS OF CRITICAL FINANCIAL MANAGEMENT NEEDS



Appointment of a Chief Financial Officer (CFO)

The Department's CFO, as provided by the CFO Act,, is intended to serve as a focal point
for financial management and accountability within the Department.      Although the Office
of Management      and Budget approved the Departme, nt's reorganization plan over a year
ago and departmental     implementation guidance was issued on March 11, 1992, a CFO for
the Department has never been nominated.       A permanent, strong CFO is critical to make
further-needed financial management progress and to improve management's accountability
for its financial resources and the program results that those resources achieve.

Integrated Financial Management      System

In 1986, the Department    began development of its new central accounting system, the
Department of Labor Accounting and Related Systems (DOLAR$).          The general ledger
is now fully operational and has resulted in major improvements in central accounting
operations.  However, this accomplishment     has highlighted the need for integration of
DOLAR$ with subsidiary accounting systems. It has also demonstrated          the need for
continued education of the Department's staff. The FY-91 financial audits disclosed major
weaknesses in how certain subsidiary systems interfaced and in the quality of the
information entered into the central accounting system.

Financial and Performance Reporting

Over the past several years, OIG audits have found that internal and external accounting
reports contain unreliable and misleading financial information.     With the implementation
of DOLAR$ and the changes in the Department's       financial staff, significant improvements
have been noted. Two efforts from the past year are particularly noteworthy.

First, DOL management prepared annual financial statements, for the first time, for the
entire Department.     While some contractor support was needed, DOL management was
responsible for directing the preparation of the financial statements. However, based on
OIG audits, the quality of the reports needs to be improved. FY-91 financial statements
required numerous adjustments because of a lack of understanding        of the makeup of
certain accounts, poor controls over interfaces with subsidiary systems, and inadequate
controls over data entry.

Second, the Department       included program performance measures and accomplishments
as part of its financial report. The Department identified performance measures for each
program, with financial information also presented for each program agency. The CFO
Act recognizes the importance of performance measures and the need to correlate them

                                              12
with financial    information.       Benefits    received   from   the resources   invested   are best
determined    by correlating     meaningful     program accomplishments     with the financial inputs.

The Department      now needs to refine these performance measures to ensure that all
significant measures are included and all insignificant measures are excluded; thus, to
emphasize only significant accomplishments, products, and activities. More importantly,
the Department    must continue to refine and improve the analysis of these measures to
correlate them better with financial information and to use the results to inform its
program     and budget decision-making.

CFO Organization

The Department has made progress toward implementing its CFO organization, although
it still lacks a CFO. In the past year, additional staff have been hired and have been
trained by the Department as it has sought to increase its financial management skills.
These positive steps fall short of the intent of the CFO Act, however, because of the
Department's    continued reluctance to designate a CFO. Only a designated CFO, working
effectively with the Assistant Secretaries of DOL's major programs, will ensure the
integration of financial and program management       and improve financial management
throughout the Department.


FISCAL YEAR 1991 FINANCIAL AUDITS



The Department of Labor is a designated pilot agency under the CFO Act. In addition
to the required audit of the FY-91 Consolidated Financial Statements of the Department,
the OIG compiled and audited the financial statements of the four largest program
agencies and all trust and revolving funds of the Department.     These sub-departmental
audits are essential to focusing management accountability at the program level. The nine
bureau/fund-level   components audited were:

       1)        Employment and Training Administration
       2)        Employment Standards Administration
       3)        Occupational Safety and Health Administration
       4)        Mine Safety and Health Administration
       5)        Unemployment     Trust Fund
       6)        Black Lung Disability Trust Fund
       7)        Longshore and Harbor Workers' Compensation               Special Fund
       8)        District of Columbia Workmen's Compensation              Special Fund
       9)        Working Capital Fund




                                                     13
The results of the consolidated audit are presented below. The audits of the individual
components are discussed in the program agency or departmental   management sections
of this report.

FY 1991 and FY 1990 Consolidated       Department   of lL_bor
Financial Statements Audit
Report   No. 12-92-002-07-001;   issued August 2,8, 1992

The consolidated     financial statements audit provides an overall assessment       of the
Department's   financial management.     It highlights significant Departmentwide problems
and specific program or fund management problems that impact on the overall financial
operations of the Department.

The OIG audited the Department's principal financial statements for Fiscal Years 1991
and 1990. The objectives of the audit were to report on (1) whether the financial
statements presented fairly the Department's financial position, (2) the adequacy of the
Department's internal accounting control structure, and (3) the Department's compliance
with applicable laws and regulations.

The Department's     financial statements for FY-91 reflect $38.8 billion in expenses and
$33.2 billion in revenues.    Nearly 90 percent of these amounts are "pass-through" funds,
most of which represent State funds for unemployment          insurance benefit payments
administered by State government agencies ($27.3 billion in expenses).       Another large
portion of the Department's resources are delivered to recipients under the authority of
the Job Training Partnership Act (JTPA) grant programs ($4.3 billion in expenses). The
JTPA program delivery system includes State and local government entities that provide
employment services and contract for training and related services with the private sector.
The balance of the Department's expenses of $7.2 billion relate to benefit payments and
services provided directly by the Department.

Financial Statement Opinion.      In the OIG's opinion, the consolidated principal statements
presented fairly, in all material respects, the financial position of the Department, as of
September 30, 1991 and 1990. The audit also found that, for the two years, the results
of the Department's   operations, changes in financial position, and reconciliation to budget
reports were presented fairly in accordance with departmental accounting policies and
procedures.

The OIG's overall opinion on these statements, however, was restricted by the following:
First, the OIG was unable to ascertain precisely the fairness of the amounts recorded for
coal tax revenue for the FY-91 and FY-90 financial statements. This is because, although
periodic reports are provided by the Treasury on this revenue, the DOL does not have
access to the detailed accounting records, nor does it receive any audit assurance on the
accuracy of Treasury reporting.  Second, the principal financial statements for FY-90 had

                                              14
to be qualified because   they lacked   adequate   supporting   documentation   for monetary
advances to grantees.

Report on Internal Control Structure. The OIG evaluated the Department's            internal
control structure and identified the following six reportable conditions, the first four of
which are considered to be material in relation to the financial statements:

       1)     The Department's accounting operations require improvement.
       2)     The Department's   accounting and reporting for grants are inadequate.
       3)     The Unemployment     Trust Fund lacks an accounting system.
       4)     Federal tax revenue data provided by the Treasury are not adequate for
              program management.
       5)     Supporting data for administrative assessments to the Unemployment     Trust
              Fund are needed.
       6)     Improvements   are needed in the Working Capital Fund's financial controls.

We have made recommendations         to correct the six weaknesses.    Departmental
management    has generally concurred   with our recommendations    and is currently
developing a corrective action plan.

Report on Compliance. The results of our tests for compliance disclosed two potential
noncompliance issues. First, the report identified an accounting practice related to the Job
Training Partnership Act that may result in a noncompliance activity. The Department's
practice of charging reported JTPA costs to the earliest appropriation      did not provide
adequate assurance of effective compliance with the Anti-Deficiency Act and the Federal
Managers' Financial Integrity Act.       The OIG has requested       an opinion from the
Comptroller General of the United States on the requirements for proper appropriation
fund control. The recent enactment of the JTPA amendments, which include financial
reporting specifications, may resolve this issue.

Second, the Working Capital Fund (WCF) is budgeting for, and charging DOL agencies
for, activities that are not authorized by the enabling legislation. In the OIG's opinion,
the WCF charged participating agencies $7,209,194 in FY-91 for activities and services
not authorized      by the enabling legislation.  Although the types of expenses were
reasonable for the Department, they should not have been charged to the WCF.


FINANCIAL MANAGEMENT WEAKNESSES

The Report on Internal Control Structure identifies the most significant weaknesses and
improvements needed in the management of the Department's      finances. As listed above,
six reportable conditions were identified. The nature of the problems is as follows.



                                             15
Departmental Financial Accounting Operations. In FY-90, the Department implemented
DOLAR$.      The OIG found that the core general ledger system of DOLAR$ operates
as intended and has adequate accounting controls built into its automated          system.
However, improvements are needed in the interfaces with subsidiary systems and manual
processes. Also needed are improved controls over the input of data, the use of DOLAR$
reporting capabilities, and manual procedures. Primarily, these weaknesses reduced control
over the following areas: funds with the U.S. Treasury, property, accounts payable and
undelivered orders, payroll, and financial reporting.

For funds with the U.S. Treasury, the OIG found that regular comparisons were
performed on amounts recorded in DOLAR$ to payments and receipts reported to them
by the U.S. Treasury.     However, differences were not always analyzed for significant
variances and unrecorded     payments and receipts.     For example, OSHA reported in
DOLAR$ that $52.2 million in penalty collections had been received from employers and
deposited in the U.S. Treasury. However, the area offices responsible for processing the
penalty collections posted $59.1 million to the OSI--b_, tracking system.

The Departmental     Property Management System (DPMS) was the Department's      official
property system during FY-91. In prior audits, DPMS has been criticized because of lack
of integration   with DOLAR$,      incomplete  property listings, and lack of property
accountability.   These conditions continue to exist. DPMS is no longer the official
property system, however, and new property systems are still being implemented.
Consequently,   the audit concluded that the Department    continues to have incomplete
property management.

The audit found numerous problems with accounts payable and undelivered orders.            It
estimated that accounts payable were understated by $25 million and undelivered orders
were overstated by $37 million. It also found that accounting staff were using transaction
codes that did not edit against prior obligations to speed data entry, that they were not
always deobligating account balances timely, and that they had poor filing systems for
transaction documentation.

The payroll amounts reported by the payroll system and those reported by DOLAR$ did
not agree. Differences were identified, but not fully analyzed to determine the reason for
the difference.  While the differences were not significant, this situation was symptomatic
of a general lack of adequate reconciliation procedures in the Department.

Although the Department has made substantial progress to improve its financial reporting
capabilities, further refinements are needed. For example, because of a lack of adequate
reconciliations    to subsidiary systems or source documentation,   inaccurate reports are
produced.       Also, manual processes were prone to breakdowns.      For instance, OSHA
overstated its penalty receivables by $15.3 miillion on a Treasury report. MSHA also


                                             16
misstated its penalty receivables.    Moreover,   over $100 million   in reported   grantee
advances were unsupported.

The causes of these financial operations problems include insufficient financial staff and
inadequate reconciliation procedures, supervisory reviews, record keeping systems, and
communication among financial staff. The Department has not agreed with the scope of
the conditions identified by the audit. The Department, however, has agreed with the
audit recommendations    for corrective action and is developing a corrective action plan.

Grant Accounting and Reporting.       This area has been a long-standing weakness of the
Department.     Reconciliations of grant source documentation/subsidiary    ledgers and the
DOLAR$ general ledger control accounts were incomplete or were not performed.
Additionally, timely recording of grant information was not always accomplished. The OIG
also found problems with improper matching of expenses, inadequate enforcement of fund
control and grantee financial reporting requirements, inaccurate accruals, inadequate cash
management, and improper offsetting of receivable and payable balances.

The Employment and Training Administration (ETA) is the largest grant-awarding agency
in the Department of Labor. In FY-91, ETA incurred $7.1 billion in grant expenses out
of a total of $7.3 billion. The largest of the Department's grant programs, the JTPA, had
$4.2 billion in training grant expenses for FY-91. ETA also issues grants for employment
service and Unemployment       Insurance (UI) activities in the States. During FY-91, ETA
utilized the Regional Automation System (RAS) as its subsidiary grant accounting system.

A new grant management system is being developed by ETA. Although ETA has devoted
much effort to developing computer software for a new grant and contract management
system, the OIG remains concerned that fundamental internal control weaknesses that
remained unaddressed    under the old system could, likewise, significantly hamper the
success of the new system.

The testing of records during the course of our audits revealed that both the RAS and
DOLAR$ accounting records were unreliable and contained material misstatements.   For
example, a net adjustment of $240 million was made to employment and training grants
because of inadequate cost estimations.  Another $184 million in adjustments was made
to correct accounting errors.

Expenses were not being properly matched with appropriations. Since inception, ETA has
administered the JTPA program using one grant agreement per State, with a separate
appropriation established for each fiscal year. Because each State reports JTPA costs on
a cumulative basis and a separate grant number is not established for each appropriation,
the system does not track reported costs by appropriation.       ETA utilizes a First-In,
First-Out (FIFO) methodology, whereby costs are applied to the oldest appropriation with

                                            17
unexpended funds before costs are applied against subsequent years. As a result, the OIG
believes that appropriate fund control is not being exercised over the JTPA program.
These accounting procedures fail to:

       •      identify when    appropriations        lapse   and   are   no    longer       available   for
              expenditure;

       °      prevent recording of grantee-reported    JTPA expenditures           against obligations
              after the available 3-year time :for liquidating obligations         has lapsed; and

       •      reduce amounts    obligated   when unliquidated       obligations    have lapsed.

The Department has disagreed with the OIG',; position. As a result, the OIG has formally
requested an opinion from the Comptroller General of the United States regarding the
requirements of fund control over appropriations authorized by Public Law 97-300, the Job
Training Partnership Act. While the recent amendments to the JTPA may make this issue
moot for future appropriations,  the Comptroller General's decision is still needed, since
it would apply to all past JTPA appropriations.

Accruals of grantee costs were inaccurate.   JTPA grants made to State governments are
only required to report on a semiannual basis. Reports due under JTPA's provisions cover
6-month periods that do not coincide with the Federal fiscal year. Consequently, these
statutory provisions require ETA to estimate and accrue cost for financial reporting
purposes.

To compensate for JTPA reporting difference:; and olLhergrantee and contractor reporting
delays, ETA established a cost estimation model. The model, however, does not result
in accurate cost accruals. For the year ended September 30, 1991:

       •     ETA's practice of recording JTPA costs against the oldest available obligation
             authority resulted in a $22 million underestimated   accrual.

       °     Untimely input of cost         reports      in RAS     resulted      in    a   $53    million
             underestimated accrual.

       °     The model's assumption that grantees expend funds evenly over the year
             resulted in a $157 million underestimated accrual.

Cash management also could be improved. ETA did not have formal, uniform procedures
for preventing grantees and contractors from drawing down excess cash. For example, one
grantee drew clown $12.8 million in one quarter.     Expenses for the quarter were $2.6
million, resulting in an excess cash draw of $10.2 million.


                                                18
Finally, with respect to ETA, our analysis of the receivable and liability accounts used to
record grantee and contractor advances activity revealed that the balances applicable to
the various grantees and contractors were offset and not separately recorded.      In effect,
the amounts receivable from some grantees were offset against the amounts payable to
others. This practice understated ETA's receivables and liabilities by $167 million each
as of September 30, 1991

Four other agencies of the Department also make grants, although their grant programs
are much smaller than the ETA programs.         These agencies: OSHA, MSHA, BLS and
VETS, had similar problems to those experienced by ETA, except on a smaller scale.
Problems identified included lack of timely receipt of grantee information, untimely input
into DOLAR$,      ineffective filing systems, inadequate  reconciliations  of DOLAR$ to
supporting data, and inadequate fund control and cash management.

The Department    has agreed with most of our recommendations     and is planning corrective
actions.

Unemployment Trust Fund (UTF) Accounting System.         Past reports have called for
integration of the UTF into DOL's general ledger (DOLAR$).    Minimal progress to this
end has been made. Although recording year-end, summary financial data in DOLAR$
has been initiated, ETA has not developed a comprehensive system of financial control
over this $50 billion fund for which DOL has program and CFO financial statement
responsibility.

The Federal-State unemployment insurance (UI) program is the largest single         program
administered by the Department of Labor. The UI program was created as a           means to
alleviate personal hardship due to involuntary unemployment and to stabilize the   economy.
Benefits are available to unemployed workers who meet State qualifying and         eligibility
requirements.

The UTF accounts for the receipts of Federal and State unemployment taxes that are held
in trust and used to carry out the Federal-State UI program. The Department of Labor
and the Department of the Treasury (Treasury) are jointly responsible for the operations
of the UTF.      Treasury acts as custodian for the monies held by the UTF and is
responsible for their deposit, investment, and disbursement.      The DOL has budget
authority over the monies held in the UTF and is responsible for the administrative
oversight and policy direction of the UI system and for including the UTF in its annual
CFO financial statements.

The OIG audit determined that ETA had not established accounting system control over
the UTF.      Rather, to fulfill the Secretary's responsibilities over the UTF (including
financial reporting under the CFO Act), ETA has relied on the fact that the Treasury



                                             19
maintains certain cash-basis accounts for the UTF. ETA has historically converted the
UTF cash-basis financial statements, prepared by the', Treasury, to accrual-basis statements.

ETA's lack of     an accounting system for the       UTF prevents ETA officials from properly
reviewing UTF     financial data and could result    in financial statements that contain material
misstatements.       More importantly,    errors     or omissions in recording all UTF cash
transactions by   Treasury could occur and not      be detected by ETA management during the
normal course     of operations.

The Department has acknowledged that meaningful reports cannot be prepared without
timely information from Treasury.        It has further stated that, during periods of high
unemployment     and economic hardship, it is critical that the Unemployment       Insurance
Service be able to closely monitor account balances :in the UTF since the entire UI system
depends on the solvency of these accounts.         The OIG believes that the solvency of the
UTF cannot be adequately determined or monitored without timely and comprehensive
accrual-basis financial information. While the Department generally agrees with the need
to integrate UTF accounting into DOLAR$, ETA strongly disagreed with our conclusions
and recommendations,     stating that accrual-basis accounting would provide no information
of value to UI program managers.         The OIG, to the contrary, remains convinced that
management     decisions should be based on the most complete, accurate, and current
financial information available.      The OIG beliewes that comprehensive,      accrual-basis
accounting of the $50 billion UTF is vital to the operation of this program and to the
proper discharge of the Department's       management responsibility for the fund.

Federal Tax Revenue Data. The Internal Revenue Service (IRS) collects unemployment
and coal production taxes for the UTF and the Black Lung Disability Trust Fund
(BLDTF), respectively.   The IRS remits Federal Unemployment       Tax Act (FUTA) taxes
to the UTF based on estimates of FUTA taxes collected. The Social Security Act requires
the Treasury to adjust, as appropriate, estimated tax transfers to actual tax receipts.

The OIG found that ETA does not have the necessary information, nor the procedures,
to monitor IRS transfers of FUTA taxes to the UTF.        During FY-89, the Treasury
transferred approximately $1 billion from the UTF back to the General Fund of the
Treasury for adjustments to estimated tax revenue transfers for Calendar Years 1983
through 1988. However, ETA had no evidence that any such adjustments had been made,
or were due, for Calendar Years 1989 through 1991.

For the BLDTF, the Treasury maintains the accounting records and provides periodic
reports on tax collections from coal mine operators to the Employment        Standards
Administration (ESA). ESA does not have access to the detailed accounting records or
reports that would provide better, more timely information for evaluating the financial
health of the BLDTF and to forecast future revenues for program management.


                                               2(?
The Department,   ETA, and ESA agreed with the OIG's recommendations       about the
need for more information from the Treasury and that FUTA tax collections need to be
monitored.

Unemployment Trust Fund Administrative Assessments. Within certain limits, the Social
Security Act provides for payments from the UTF for the reimbursement of administrative
costs that DOL and the Treasury incur while carrying out their responsibilities under the
Act.    The Act also allows for payment of Treasury's estimated administrative       costs.
Subsequently, these estimated payments are to be adjusted to demonstrate actual costs.

The OIG review found that ETA did not have procedures in place to review these
administrative charges to ensure that they were proper, reasonable, and in accordance with
the Social Security Act. Detailed information to support administrative charges to the
UTF were not provided to ETA on a regular basis nor did ETA request such
documentation.   Without adequate documentation to monitor administrative charges, ETA
cannot be assured that UTF assets are being used as intended.

There is disagreement between the Department's and ETA's responses to this condition.
The Department concurred with the report's recommendations.        ETA, however, proposed
that the annual budget process and reliance on periodic DOL-OIG and Treasury-OIG
audits would be sufficient to document the appropriateness    of administrative assessments
to the UTF.     The OIG believesthat     management    is responsible for establishing and
maintaining a system to ensure the appropriateness  and integrity of accounting data rather
than relying solely on the budget process and after-the-fact audits. The OIG is awaiting
ETA's response to the final report.

Working Capital Fund Financial Controls. The WCF is an intra-governmental         revolving
fund established to provide certain goods and services to DOL agencies which can be
provided more efficiently and economically through centralized coordination and direction.
On the basis of its audit work this reporting period, the OIG concluded that inadequate
accounting procedures resulted in unreliable balances of major accounts and overbilling
of agencies. Further, cost recovery from program agencies for services provided through
the WCF was not accomplished according to established departmental        policy.

The audit also found that poor accounting procedures particularly affected property,
accounts payable, and expense accounts. Property accounts were materially misstated by
at least $4.5 million because of poor record keeping. The lack of adequate procedures
in WCF service organizations for recording accounts payable transactions as well as the
related liquidating of undelivered orders, resulted in an audit adjustment of almost $1
million. Due to a lack of reconciliation between expended appropriation     and related
expense accounts, program agencies were overbilled in FY-91 by $623,000 for WCF
services.



                                            21
In addition, departmental WCF management policies were not followed in recovering WCF
costs from program agencies. Costs that should have been charged directly, according to
the Department's    pricing strategy, were being charged as overhead expenses. The OIG
analysis concluded that the use of modified overhead allocation tables resulted in
inequitable charges, excessive overhead, and large budget variances.

While the Department      disagreed that inequitable charges resulted from chargeback
methods it is employing, it plans to take corrective action on each audit recommendation.




In conclusion, since the first OIG audit in FY-86, the Department       has made significant
improvements in financial management.     However, much still remains to be accomplished.
The financial management weaknesses identified in the FY-91 audit are serious. They
indicate the need to improve financial systems at all levels in the Department.   The central
accounting system can meet management's      needs and the various reporting requirements
that the Department    places on it. However, the information generated will only be as
good as the data entered into the system. System discipline must be enforced at all levels
of the Department.      In responding to our audit recommendations,         management    has
expressed   a willingness to take needed       action..s.  An efficient, effective financial
management system is dependent on this action.




                                             22
            EMPLOYMENT            AND    TRAINING       ADMINISTRATION

The Employment and Training Administration (ETA) administers a number of statutes
related to employment and training services for the unemployed and underemployed,
employment security for workers, and other programs that are directed to the employment
needs of the nation. One of ETA's major responsibilities is administering the Job Training
Partnership Act (JTPA).    The JTPA authorizes a decentralized structure for the delivery
of services funded through grants and administered predominantly by the States. Other
major ETA programs include the Unemployment        Insurance Service (UIS) and the U.S.
Employment Service (USES) which administer the employment security function of ETA.
The UIS manages a nationwide unemployment compensation system operated by the State
Employment     Security Agencies (SESAs).     The USES manages the operation of a
nationwide public employment service system, also through the SESAs.

In this reporting period, audit reports were issued in each of the major ETA program
areas, on the ETA Fiscal Year 1991 Financial Statements, and on the Unemployment
Trust Fund Fiscal Year 1991 Financial Statements.      The OIG issued several reports on
JTPA Title II and Title IV program activities, an audit related to UI program automation,
and two audits of programs administered by the SESAs. Significant resolution activities
also occurred.

In addition to audit work, the OIG continued to devote significant resources on JTPA and
Unemployment     Insurance fraud investigations. The OIG also worked closely with ETA
and the Congress to amend the JTPA to improve targeting, financial reporting, and fiscal
accountability.




ETA FINANCIAL MANAGEMENT

For FY-91, the OIG audited the financial statements for the Employment and Training
Administration (ETA) and the Unemployment Trust Fund (UTF). ETA had expenses of
$34.5 billion in FY-91, including $28.0 billion in unemployment benefits. Employment and
training programs cost $5.2 billion. ETA was accountable for $60 billion in assets, out of
the $71 billion in assets for the r',,_,-,_,-t_,,,
                                   _'_e-_-,-'-_,_ of Labor as a whole. The UTF accounted
for $53.6 billion in assets, with $47.6 billion in investments in various Treasury securities.
The UTF had liabilities of $25.5 billion, primarily for accrued unemployment benefits, and
a fund balance of $28.1 billion.




                                             23
ETA Fiscal Year 1991 Financial Statements
Report No. 12-92-022-03-001;      issued August 25, 1992

The financial statement opinion was unqualified for the first time since the OIG began
auditing ETA's financial statements in FY-86. Previous opinions were qualified because
of the inability to obtain sufficient evidence to satist_ the auditors of the fair presentation
of accounts receivable from, and advances to, the public, grantees, and contractors.

Although the OIG was able to remove the qualification from the financial statement
opinion this year, the report on internal control structure noted certain matters that were
considered to be "reportable conditions," or deficiencies in the design or operation of the
internal control structure that could adversely affect the ability to record, process,
summarize, and report financial data. Of the eight reportable conditions, three were
considered by the auditors to be conditions that could materially affect the fair
presentation of the financial statements. They are as follows:

       ,      The lack of an accounting system for the UTF. This condition was also
              disclosed in the separately issued report on the UTF financial statements
              (Report No. 12-92-021-03-001; issued August 25, 1992).

       o      The need for actual Federal Unemployment Tax Act (FUTA) revenue data
              from the Internal Revenue Service (IRS). This condition was also disclosed
              in the separately issued report on the UTF financial statements (Report No.
              12-92-021-03-001; issued August 25, 1992).

       o      The unreliability   of the grant and contract management     system.

These weaknesses also were material to the Department          as a whole. For a complete
discussion of these issues, see the Financial Management      section of this report.

The five remaining reportable conditions involve: the lack of accounting for property,
plant, and equipment; the need for supporting data for administrative assessments to the
UTF; the fair statement of UTF equity on Treasury reports by showing distribution of
equity between the Federal and State leve,ls; the use of the Single Audit reports for
monitoring UTF activity; and accounting for ETA's interest in SESA real property.

In response to this report, ETA disagreed that DOL should establish an accounting system
for the UTF. ETA maintains that, while Title IX of the Social Security Act charges the
ETA with overseeing the UI program, the Secretary of the Treasury is charged with total
responsibility for all fiduciary aspects of the UTF. DOL's Acting Chief Financial Officer,
however, did not disagree with the need for appropriate accounting data to support the
Department's inclusion of the UTF in its financial statements.


                                              24
ETA and DOL agreed with the finding that actual FUTA revenue data are needed from
the IRS on a timely basis. The Department     of Labor met with the Department  of
Treasury on this issue.

Regarding the unreliability of the grant and contract management system, ETA and the
DOL disagreed with a key recommendation      aimed at alleviating this problem--increase the
authority of ETA's comptroller to ensure that regional personnel adhere to prescribed
accounting policies and procedures.    Currently, the ETA comptroller has no direct-line
authority over ETA regional office accounting personnel.

Management      generally agreed with the recommendations       concerning the remaining
reportable conditions.    However, they have not yet responded to the recommendations
related to property and equipment and SESA real property. Concerning the administrative
assessments    to the UTF,       departmental   management     has concurred   with our
recommendations,     while ETA did not fully concur. We subsequently have clarified our
recommendations     and are awaiting a response to the final report.

UTF FY 1991 Financial Statements Audit
Report No. 12-92-021-03-001; issued August 25, 1992

An unqualified opinion was given on the UTF financial statements for FY-91. The report
on internal control structure contained five reportable conditions, with two conditions
considered material. These conditions also were reported at the ETA level. The material
reportable conditions involved: the lack of an accounting system for the UTF and the
need for actual FUTA revenue data from the IRS. The three remaining reportable
conditions were: the need for supporting data for administrative assessments to the UTF;
the fair statement of UTF equity, by identifying Federal and State balances, on Treasury
reports; and the use of Single Audit reports for monitoring UTF activity.


JOB TRAINING PARTNERSHIP             ACT (JTPA)


JTPA Amendments

The Job       Training Reform Amendments (P.L. 102-367) were signed into law by the
President     on September 7, 1992. ETA is currently writing regulations to implement the
amended      law. It is important that ETA properly implement the provisions of the new law
that call   for increased program accountability, namely:




                                              25
Fiscal Controls.

       Accounting Principles - Section 164 of the Act now requires that "all financial
       transactions are conducted and records maintained in accordance with generally
       accepted accounting principles applicable in each State."

       Uniform Cost Principles - Section 164 also requires the Secretary to "prescribe
       regulations establishing uniform cost principles .... " The cost principles are to be
       substantially equivalent to Federal cost principles generally applicable to other
       Federal grants.

       Procurement       Section   164 requires   the Secretary   to establish  minimum
       requirements for Governors to use in establishing procurement standards. The Act
       further specifies that all procurement      standards must include requirements
       concerning such areas as free and open competition, minimal sole source, analysis
       of costs and prices, and reasonable program income and profits.

       Financial Reports - Section 165 of the,,Act re,quires quarterly financial reports and
       states that "such reports shall include information identifying all program costs by
       cost category in accordance with generally accepted accounting principles and by
       year of the appropriation." Further, records must be maintained which identify any
       program income, or profits earned, and any other allowable costs, such as stand-
       in costs.

General Program Requirements.

       Single Unit Charging - Section 141 allows charging of all costs to a single cost
       category only in cases of training purchased from commercially available training
       packages and for specified tuition charges that are not more than charges to the
       general public.

       On-the-Job Training (OJT) - Section 141 specifies criteria governing OJT including
       limitations on duration and controls on brokering of OJT contracts.

       Program Income - Section 141 also places stricter requirements on program income
       by including receipts from conferences, funds provided in excess of costs, and
       interest income.

       Targeting - Sections 203 (adults)   and 263 (youth) require   increased   targeting   of
       hard-to-serve participants.




                                            26
The OIG anticipates a more fiscally responsible and effective job training program
dedicated to serving those most in need as a result of these amendments.   After many
years of auditing the JTPA program and reporting its problems to the Congress in
semiannual reports, the OIG views the 1992 amendments as a new beginning. Included
in this section are summary descriptions of JTPA audits performed and resolved during
this reporting period.    Hopefully, the amended JTPA will go a long way towards
eliminating the types of problems reported below.


JTPA Criminal Investigations

The OIG continued to devote significant resources to JTPA investigations. Typical JTPA
investigations involve fraud by individuals or entities administering the program at the State
and local levels or by service providers or contractors that operate on-the-job or classroom
training and related services. During this reporting period, the Office of Investigations
(OI) had 294 JTPA cases under criminal investigation.             Our JTPA-related statistical
accomplishments for this period included 19 indictments and 31 convictions for this
program. For detailed case narratives, see page 97 in the Office of Investigations section
of this report.


JTPA Audits

During this reporting period, the OIG issued several important audit reports, the majority
of which represent conditions the recent JTPA amendments were designed to correct. The
OIG also issued a report that produced, for the first time, prototype JTPA program results
statements.



JTPA Title H Programs

Title II of JTPA authorizes employment and training services for eligible adults and youth
and is funded through grants and administered by the States.


East Texas Council of Governments Service Delivery Area
Report No. 06-92-010-03-340; issued September 25, 1992

The OIG issued an interim audit report (Report No. 06-92-004-03-340) in March 1992 that
questioned substantial profits generated by two nonprofit subcontractors of the East Texas
Council of Governments (ETCOG). The findings and recommendations contained in the
interim report are superseded by the findings of the current final report. This report
questions $5,780,925 as follows:

                                              27
       Profits                            $3,682,531
       Interest income on profits         $ 842,499
       Employment generating activities   $ 780,234
       Unreported program income          $ 124,077
       Interest costs                     $ 116,177
       Overpayments                       $ 235,407

The audit found that subcontractors    generated profits of over $3.6 million primarily
because of ETCOG's inadequate procurement system, subcontractor-manipulated      contract
payment schedules, the indifference of the Private Industry Council and the ETCOG to
subcontractor  profits, and improperly classified costs. Further, the two subcontractors
invested the profits and earned $842,499 in interest :income.

The ETCOG used JTPA funds to finance three entities whose primary function was the
economic development of the 14-county service delivery area (SDAs). These entities, and
a contract awarded to create a comprehensiw_ economic development plan for ETCOG,
were funded under the label of JTPA emplo)anent l_;enerating activities (EGA) at a cost
of $780,234. However, the OIG was unable to identify any JTPA-eligible individuals that
had been served, and the funding agreements did not contain any JTPA performance
requirements.     One of these entities generated    income of $124,077 (by processing
applications for small business loans) which should have been reported as JTPA program
income.

The ETCOG charged the JTPA program interest costs of $116,177 related to the purchase
of its headquarters   building.  These interest costs were included as part of ETCOG's
indirect costs that were prorated to each ETCOG program. State of Texas policy requires
ETCOG to obtain prior State approval for interest costs to be allowable. Although
ETCOG requested State approval, it was never granted. ETCOG's approved indirect cost
rate was based on ETCOG's certification that all costs included in the indirect costs pool
were allowable. Since the State had not approved the interest costs, the OIG questions
the $116,177 in interest costs paid with JTPA funds.

The OIG also identified $235,407 of ETCOG overpayments to its subcontractors.    These
resulted primarily from payments based on the use of the incorrect contract payment
schedule, participants who did not reach contract perfbrmance benchmarks, and payments
for a participant not enrolled in the JTPA program.

The OIG recommended       the disallowance of $1,131,818 in questioned expenditures,   and
the recovery of $4,649,107 in profits, program income, and interest income.




                                            28
Use of JTPA OJT Funds in West Virginia in Violation of the Act
Report No. 03-92-044-03-340; issued April 23, 1992

This review was initiated from a congressional request concerning possible violations of
Sections 141(c) and 143(b)(3) of the JTPA. These sections place restrictions on the use
of JTPA funds in cases involving relocation of establishments and the hiring of JTPA
participants by establishments who have laid off certain employees.      The complaint
concerned the alleged misuse of JTPA funds in the relocation of jobs from Checker
Motors Corporation in Kalamazoo, Michigan, to a subsidiary, South Charleston Stamping
and Manufacturing (SCSM) Company, in South Charleston, West Virginia.

The OIG found evidence to support the complaint.        Three specific operations initially
located with Checker Motors Corporation in Kalamazoo were moved to SCSM in South
Charleston.    The relocation of one of these operations resulted in an increase in
unemployment at Checker Motors Corporation's Kalamazoo, Michigan plant (at least 65
employees were laid off as a direct result of the move). SCSM then employed JTPA
participants at Charleston in positions substantially equivalent to those reduced and/or
eliminated by Checker Motors Corporation.        Since SCSM is a subsidiary of Checker
Motors Corporation, this use of JTPA funds violated Sections 141(c) and 143(b)(3) of the
JTPA.

The OIG recommended that ETA determine appropriate remedies for the cited violation.
ETA stated that they have advised the State of West Virginia to provide additional
information on the operation at SCSM and will advise the OIG of the final disposition of
this matter.

Dennis and Associates, Incorporated, JTPA Contractor to Various SDAs in South Carolina
Report No. 04-92-030-03-340; issued September 1, 1992

Dennis and Associates, Inc. (Dennis) was a large private-for-profit contractor that acted
as a "middleman" or broker between several South Carolina Service Delivery Areas
(SDAs) and private employers. Dennis received fixed fees from SDAs to recruit JTPA
participants and arrange on-the-job training. Dennis also received funds from the SDAs
to reimburse employers 50 percent of the participants' wages for specified training periods.
The OIG audited Dennis' operations from July 1990 to May 1991. The audit was a
followup to an earlier OIG audit (Report No. 04-92,014-03-340; issued March 31, 1992).


The audit resulted in questioned costs of $120,491 and identified numerous     problems   in
Dennis' operations.  Specifically, the OIG questioned:




                                            29
       •     $87,688 in fixed fees and employer wage reimbursements    claimed by Dennis
             for 80 participants who, before JTPA enrollment, had already been hired and
             whose costs were questioned in an earlier OIG audit report;

       o     $73,760 in OJT wage reimbursements     that were due to employers   but not
             paid by Dennis; and

       °     $3,974 relating to seven OJT participants who were not working "full-time."
             These participants averaged fewer hours of work per week than was required
             by provisions of the contracts between Dennis and the SDAs.

Dennis underclaimed reimbursable costs of $44,931 on invoices submitted to the SDAs,
which reduced total questioned costs to a net amount of $120,491. All contracts with
Dennis have been terminated and Dennis is no longer in business.

Kentucky Literacy Commission
Report No. 04-92-045-03-340; issued September   29, 1992

The OIG examined four contracts between the Kentucky Cabinet for Human Resources
and the Kentucky Literacy Commission to provide literacy instruction. About 28 percent
of the persons served by the Commission were JTPA participants.    During Program Years
1988 through 1990, however, the JTPA program paid $207,077 more than its fair share of
the Commission's costs.

The OIG questioned approximately 72 percent of administrative expenses and publication
costs charged to the JTPA. For example, the costs for three of the Commission's staff,
which should have been prorated among the Commission's JTPA program and its other
programs, were charged entirely to JTPA. In another example, JTPA was charged the full
cost for publishing a "text" for use in all of Kentucky's literacy programs.

Also, while theaverage    cost of providing literacy training to each student was $261
(according to State computations), the JTPA program was charged fixed fees ranging from
$271 to $500 for each participant.     Consequently, the Commission charged the JTPA
program more than it cost to provide the services.

Kentucky officials disagreed with the OIG. However, they did not provide any additional
information   that   would cause     the OIG to change      its original findings   and
recommendations.




                                          30
Kentucky JTPA Counseling Contracts
Report No. 04-92-046-03-340; issued September 29, 1992

The OIG found that State administrators circumvented established procurement controls
in awarding a contract for JTPA participant counseling services. Language used in the
advertisements   for bids was misleading and appeared to solicit applications for State
employment,    not contractors'  proposals.    Further,  the education   and experience
requirements contained in the advertisements were obtained from the eventual contractor's
resume which had been submitted prior to the solicitation.         As a result, only this
contractor responded to the solicitations.   The OIG also found a potential conflict of
interest in that the contractor was married to a member of the State Job Training
Coordination Council which had oversight responsibility for the JTPA program. The OIG
has questioned $146,590 of JTPA funds expended by the State for these contracts.

In justifying the need for counseling services, Kentucky JTPA administrators told the State
agency responsible for procurement oversight that the contract was necessary to assist
dislocated workers with alcohol and drug problems.       However, the OIG could find no
convincing evidence that either alcohol or drugs were significant barriers to program
participants' employment.    Data for over 500 persons counseled indicated only 11 (about
2 percent) had alcohol or drug problems.

The contractor was paid $50 per hour for services that could have been provided by State
employees at a cost of no more than $30 per hour. Also, some of the services for which
the contractor billed were either outside the scope of the contract or violated the terms
of the contract. Although the improper charges had been questioned by State monitoring
staff, Kentucky program officials allowed the charges.

Kentucky declined to provide comments on the draft report.       Therefore,   OIG findings and
recommendations   remain unchanged.

State of Pennsylvania JTPA Program Results Statements
Report No. 03-92-037-03-340; issued September 28, 1992

The CFO Act requires an annual audited report on the Department's        financial results; the
status of internal controls and management systems; and program measures of success in
achieving critical missions, goals and objectives. To assist this effort, the OIG began an
initiative to compile and audit annual program results and costs of JTPA State grantee
program operations.

The State of Pennsylvania, because of its large size and centralized automated records,
provided the opportunity for the OIG to test the development (compilation) of JTPA
program results. The OIG did not audit the statements and, accordingly, does not express


                                              31
an opinion or provide any other assurances. The consolidated program results statements
developed for the Pennsylvania Program Year 1990 Job Training Partnership Act are:

              •      Statement   of Human Resources
              •      Statement   of Outcomes
              °      Statement   of   Training Activities
              •      Statement   of   Training Received
              •      Statement   of   Supportive Services
              °      Statement   of   Performance Standards

The OIG will develop (1) a cost allocation methodology to allocate ETA, State, and JTPA
SDA costs to the statements; (2) Human Resource and Invested Cost statements; and (3)
a return on investment computation.     The statements will also be used as prototypes for
developing program results reports for other State JTPA programs and review guides to
audit information presented in the statements and the CFO report.


Federally Administered JTPA Title IV Programs

JTPA Title IV authorizes employment and training (E&T) programs for the Job Corps,
Veterans' Employment, Native Americans, Seasonal Farmworkers, and other E&T activities
and programs collectively known as "National Activities."

In reporting this period, the OIG audited certain Job Corps centers and contractors as well
as Native American, Seasonal Farmworker,        and National Activities programs.    Three
grantees who received over $2 million annually did not receive renewals of funding by
ETA, primarily as a result of OIG audit and resolution activities.

Job Coros

The Job Corps is a JTPA program designed to assist economically disadvantaged,
unemployed, and out-of-school youth (ages 16-21) in obtaining employability skills by
offering basic education, vocational training, work experience, health care and other
supportive services in a residential setting. The program is nationally administered by
ETA, and training centers are operated by both private vendors and Federal agencies.
In this reporting period, the OIG performed audits of both training center operations and
contractors who provide services to the Job Corps.

Detroit Job Corps Center (Program Year 1990)
Report No. 05-92-013-03-370; issued September 28, 1.992

The OIG audit found that quality education and training was not taking place at the
Detroit Job Corps Center (DJCC) from the period July 1990 through June 1991. The

                                              32
DJCC lacked the overall control environment to accomplish its learning objectives.
Specifically, student absenteeism from class ranged on average between 23 and 48 percent,
student discipline was a problem, and 7 of 20 teachers were not certified to teach their
assigned classes.    These combined factors contributed to the students' overall lack of
student learning gains and program completion.      In many cases, no learning gains were
achieved in reading and mathematics, as evidenced by the academic records.

Certain key statistics reported by DJCC were overstated.    For example, of 53 students
reported to have received GED certificates during Program Year 1990, the OIG could
confirm only 20. Similarly, DJCC reported 272 placements in employment or school. Of
190 confirmation letters returned to OIG, employers and educational institutions denied
employment or enrollment in schools for approximately 116 students. In addition, DJCC
overstated its on-board strength and average length of stay for students by retroactively
changing AWOL students' status to administrative leave and reporting absent students as
present.

Detroit Job Corps Center officials agreed only with the OIG findings that absenteeism was
high and that some reported placements were invalid, however, not to the extent reported
by the OIG. DJCC officials also believe that practices used to report on-board strength
and student average length of stay were proper.          Except for the issue of GED
completions, the Job Corps' response to the draft report expressed general concurrence
with the OIG findings.

National Maritime Union of America
Report No, 18-92-034-03-370; issued September    4, 1992

The National Maritime Union of America (NMU) provides two advanced training
programs for Job Corps members by offering a Seamanship Program at Tongue Point,
Oregon, and a Culinary Arts Program at Treasure Island, California. The OIG evaluated
the success of these programs relative to their costs and the adequacy of internal controls
to prevent program abuse.

Overall, NMU operated a successful training program as measured by achieving its overall
minimum performance      standards (Tongue Point and Treasure Island combined), and
appeared to have adequate internal controls to prevent program abuse. The OIG found,
however, that the Seamanship Program reported a very low placement rate into training-
related employment and that the Culinary Arts program is not significantly increasing
trainees' wage rates upon termination and placement into training-related   employment.
Also, for both programs, based on employer confirmations received, the average reported
wage rate appears to be overstated by NMU. Further, there has been a large decrease
in the average employment period of trainees placed into training-related employment.




                                            33
NMU disagreed with all but one of the OIG's findings by claiming that they failed to take
credit for all of the training-related placements. NMU did not provide documentation    to
support their position.

Technical Assistance Group
Report No. 18-92-026-07-735;   issued August 24, 1992

The Technical Assistance Group (TAG), a small privately owned business, had been a
prime contractor for Job Corps real estate management support services from 1983 until
September 1990. This audit is a followup to OIG Audit Report Nos. 18-90-022-07-735
(Sept. 28, 1990) and 18-91-007-07-735 (March 28, 1!)91).

The OIG audited the direct costs claimed for reimbursement       by TAG for the period
September 1989 to September 1990 ($398,032), as well as TAG's indirect cost submission
for 1990. The OIG questioned $116,013 in claimed direct costs and $15,131 in claimed
indirect costs because they were not in conformance with either the terms of the contract
or the Federal Acquisition Regulation (FAR) cost principles.

The audit identified several situations which, taken collectively, constitute substantial
evidence of a pattern of program abuse.      Examples of this include charging excessive
and/or unauthorized   salaries paid to family members, double-billing salary costs to the
Department   and to another Federal agency, and continued failure to recognize non-Job
Corps real estate activities as a final cost objective in its indirect cost allocation base.
Although provided the opportunity, TAG did not respond to the draft report.

National Plastering Industry's Joint Apprenticeship Trust Fund
Report No. 18-92-032-03-370; issued September 29, 1992

The National Plastering Industry's Joint Apprenticeship    Trust Fund (the Fund) is a
nonprofit organization established by construction industry groups to provide plastering
apprenticeship training. Under the umbrella of a DOL contract, the Fund also administers
subcontracts to provide vocational training at Job Corps Centers.

An earlier OIG audit (Report No. 18-89-011-03-370, issued September 29, 1989) found
that the Fund overcharged contracts and subcontracts it administers by $605,618, with a
DOL impact of $336,029. The Fund appealed these findings and the OIG performed
further audit work to validate additional documentation provided by the Fund. The OIG
determined that the original audit overstated certain questioned costs by $94,250 (profit
on the sale of materials and supplies), but found additional unallowable salaries and fringe
benefits and travel costs of $9,766. The net adjustment, therefore, decreases the original
audit exceptions by $84,484 and results in final total questioned costs of $521,134, with a
DOL impact of $298,245.


                                            34
Native American Programs

Through JTPA Title IV grants awarded to Native American groups, these programs are
designed to imi_i-ove the economic well-being of Native Americans (Indians, Eskimos,
Aleuts, and NatiVe Hawaiians) by providing job training and employment-related services
to eligible individuals.

Grand Rapids Inter-Tribal Council
Report No. 18-92-029-03-355; issued August 13, 1992

At the request of ETA, the OIG performed a financial and performance audit of grant
funds awarded to the Grand Rapids Inter-Tribal Council (GRITC) for the 2-year period
ended June 30, 1991. The audit revealed serious deficiencies in GRITC's administration
of its grant. In addition to questioning 93 percent of the program's reported costs
($219,195 of $235,328), the OIG issued an adverse opinion on GRITC's JTPA Financial
Status Reports for Program Years 1989 and 1990. The audit found that GRITC's financial
management system was inadequate, services provided to participants did not justify grant
funds expended, GRITC did not ensure that services provided to participants were in
accordance with grant requirements and applicable regulations, and GRITC's system for
participant enrollment did not ensure that only eligible participants were enrolled.

Based on these audit findings, ETA determined            that GRITC no longer met the
responsibility qualifications and conditions to serve as a JTPA grantee, and did not award
funds for the program year that began July 1, 1992.

Seasonal Farmworker Programs

JTPA Title IV also authorizes employment and training programs designed to meet the
special needs of seasonal farmworkers.      The following OIG audits resulted in an ETA
decision not to refund the grant recipient.

Rural Alabama Development      Corp.
Report No. 18-92-017-03-365;   issued April 9, 1992
Report No. 18-92-030-03-365;   issued August 20, 1992

The Rural Alabama Development Council (RADC), a nonprofit corporation, was funded
by JTPA Title IV grants for the purpose of providing employment and training services
to migrant and seasonal farmworkers.   At the request of ETA, the OIG performed a
review of RADC's cash management operations and a financial and performance audit of
RADC's grant administration for the 2½-year period ended December 31, 1991.




                                            35
The OIG review of RADC's operations disclosed a serious cash management problem.
Prompt corrective actions by ETA resulted in an effective cash outlay avoidance of
$280,826, which included a cash refund to ETA of $27,699.

The OIG issued an adverse opinion on RADC's JTPA Financial Status Reports for the
2V2 year period ending December 31, 1992. The audit report questions $788,808 (about
40 percent) of reported costs for this period. The OIG also found irregularities in the
operation of RADC's OJT program, inadequate verification of eligibility of program
participants, and inaccurate program statistics which had the effect of enhancing reported
program performance.      Based on OIG findings, ETA did not invite RADC to apply for
continued funding commencing July 1, 1992.

National Activities

JTPA Title IV also authorizes funds for national activities such as training and technical
assistance programs, research and evaluation projects, and pilot and demonstration
projects. FY-92 funding for these activities is budgeted for $78 million. The OIG audited
one grantee in this category.

SER-Jobs for Progress, Inc.
Report No. 18-92-025-03-340;   issued June 25, 1992

SER-Jobs for Progress, Inc. (SER) is a national, nonprofit community-based organization,
whose major objective is to improve the education and employability of traditionally
underserved groups. SER's primary target group for training and employment services are
Hispanic youth above the age of compulsory school attendance who are in need of basic
and vocational education and employability skills.

The OIG audited SER's direct costs charged to JTPA Title IV grants covering the period
July 1987 through June 1989, as well as SER's final indirect cost proposal for the year
ended June 1988. The audit resulted in questioned direct costs of $344,134 and with no
questioned costs relating to the audit of the indirect cost proposal.

Almost two-thirds of the questioned direct costs ($215,711) resulted because SER charged
the Department   actual indirect costs instead of those based on an approved indirect cost
rate. The remaining questioned costs resulted from inadequate or lack of documentation
to support grant charges, overcharging for goods and services, and exceeding grant budget
line items.

SER officials generally concurred with the audit findings; however, they are requesting
"offset" of $157,781 of the questioned indirect costs because, for certain grants, actual
indirect costs claimed were less than the mecdmum allowable.



                                            36
JTPA Audit Resolution -

An audit     recommendation    is resolved when the OIG and the DOL funding agency (in
this case    ETA) agree on the action(s) that will correct the problem or deficiency that
produced      the recommendation.     For most ETA programs, this occurs when ETA issues
a "final    determination"  and the OIG accepts the conditions of the determination    as
adequate     to correct the problem or deficiency.

In this reporting period, ETA issued final determinations on several important OIG audits
of JTPA programs.      For the most part, ETA and the OIG have agreed on appropriate
actions for resolution; however, there are two areas where agreement has yet to be
reached.


National Alliance of Business
Report No. 06-91-013-03o340; issued March 29, 1991 (Resolution)

In May 1992, ETA responded to the remaining unresolved issue in this report, i.e., that
a portion of the National Alliance of Business (NAB) revenues from contributions and
membership fees should be considered JTPA program income and should be used to
further program goals.

The ETA response      stated:

                "...    NAB's performance     under the ETA grants probably
                contributes    to NAB's growth, expertise, and success and
                probably enhances its ability to acquire corporate memberships
                and contributions.    The acquisition of corporate membership
                dues and contributions is, however, a result of NAB's success
                and these dues and Contributions are not direct earnings from
                specific activities." (Emphasis added.)

The OIG position is that DOL funding of NAB's activities contributed to NAB's ability
to generate approximately 18 percent of its total Program Years 1988 and 1989 revenue
from membership fees and contributions.   The Department provided 71 percent of NAB's
total Program Years 1988 and 1989 revenues; and 88 percent of its revenues excluding
membership fees, contributions, and investment interest income.

If 88 percent of NAB's revenues were eliminated, the OIG does not believe that NAB
would be able to generate over $4 million in membership fees and contributions over 2
program years. Consequently, it is OIG's position that membership fees and contributions
relate to direct activities under NAB'S core grant and should be considered program
income. This finding remains unresolved.

                                              37
Audit of Compliance with Federal and State JTPA Requirements
Denver Service Delivery Area
Report No. 06-91-019-03-340; issued September 27,, 1991 (Resolution)

This report questioned   approximately   $1.1 million :in JTPA expenditures   because:

       •      Administrative costs, including employment generating activities, were
              misclassified as training and participant support costs. Reclassification
              of these costs resulted in the SDA exceeding the JTPA 15 percent
              administrative cost limit.

       •      JTPA funds were expended on a Job Link program that served both
              program participants and ineligible individuals.

       .      JTPA Title III funds were expended for a new airport        employment
              office which served ineligible individuals.

ETA has disallowed approximately $.8 million and allowed $.3 million of the questioned
costs. The OIG disagrees with approximately $47,000 of the $.3 million allowed because
ETA's acceptance of certain stand-in costs resulted in the SDA exceeding the JTPA 15
percent administrative cost limitation.

New Orleans Service Delivery Area
Report No. 06-91-009-03-340; issued February 19, 1991 (Resolution)

This final audit report questioned approximately $7.3 million in JTPA program costs and
recommended      major changes in the service provider procurement   system and internal
control systems for the New Orleans SDA. Consequently, the State required the New
Orleans SDA to undergo a major reorganization and change the SDA's administrative
entity.

In April 1992, ETA disallowed $3.6 million of the $7.3 million questioned and deferred
resolution action on an additional $1 million. The State has subsequently responded to
the deferred $1 million, and ETA is in the process of ruling on these questioned costs.

Kentucky Industrial Incentives Funded by JTPA
Report No. 04-92-023-03-340; issued March 26, 1992 (Resolution)

The OIG questioned $6.9 million of JTPA funds expended by the State of Kentucky to
subsidize its industrial development   program.   From July 1986 through June 1991,
Kentucky reimbursed a portion of two large manufacturers' recruiting, training, and payroll
costs with JTPA funds. These expenditures were used to recruit and train highly qualified
individuals who, as previously reported, were not in need of JTPA assistance.          The

                                             38
reimbursements   were merely inducements     for the manufacturers   to build new plants in
Kentucky.

ETA agreed with the audit findings and disallowed the entire $6.9 million questioned by
the OIG.      It stated that while the Act allows payments to compensate employers for
"extraordinary" costs of training JTPA participants, it prohibits subsidization of employers'
normal costs of doing business. ETA also agreed with the OIG that a bona-fide JTPA
program was not part of the relationship between the State and the companies.           Costs
paid with JTPA funds were normal start up expenditures that Kentucky should have paid
with State funds. Consequently, none of the reimbursements        should have been charged
to the JTPA program.

Fixed-Unit Price Contracting in Florida
Report No. 04-92-027-03-340; issued March 17, 1992 (Resolution)

The OIG questioned $847,515 in unwarranted profits charged to various Florida JTPA and
Wagner-Peyser     Act (WPA) programs through a series of layered fixed-unit price,
performance-based     contracts. The profits were accumulated by intermediary contractors
who provided no participant services and passed the responsibility of training and placing
participants  to other subcontractors.      Had the Florida Department       of Labor and
Employment     Security properly negotiated contracts directly with the entities which
ultimately provided participant services, unnecessary costs would have been eliminated.
The OIG also questioned $364,934 in unsupported        administrative costs charged to the
WPA program by a Florida nonprofit organization.

ETA's final determination supported the OIG audit findings and disallowed all questioned
costs ($1,212,449). ETA also required Florida to ensure that its policies and procedures
for fixed-unit price, performance-based      contracts comply with Federal      and State
requirements.    In addition, the State must demonstrate that proper contracting methods
are being used to obtain administrative services.

JTPA OJT Performance-Based Contracts: Los Angeles City Service Delivery Area
Report No. 05-91-046-03-340; issued August 23, 1991 (Resolution)

The report questioned $1,226,175 because sufficient documentation was not maintained to
support the rates and periods of employment of the OJT participants, and certain claims
were overstated or inflated. ETA has disallowed $284,322 and allowed $57,077 of these
questioned costs; resolution of $884,777 has been deferred pending the completion of an
investigation by the OIG's Office of Investigations.




                                             39
STATE EMPLOYMENT          SECURITY AGENCIES



Trade Adjustment Assistance

The Trade Adjustment Assistance (TAA) program, authorized by the Trade Act of 1974
and administered by the State Employment Security Agencies (SESAs), is designed to
assist individuals whose jobs are adversely affected by increased imports to return to
suitable employment.    The 1988 amendments to the Act, which authorizes the program
through FY-93, emphasize job training as a means to achieve this objective.

Wisconsin Trade Adjustment Assistance Program
Report No. 05-92-016-03-330; issued September 28, 1992

The OIG audited Wisconsin's Department       of Industry, Labor, and Human Relations
SESA program accomplishments      for partMpants   which terminated the program from
October 1988 to mid-August 1991. The O1(3 examined whether TAA participants found
suitable employment, the extent to which subsequent employment was related to TAA
training, and whether the SESA's reports of TAA :program activities were accurate.

ETA does not require followup on TAA participants and sufficient data were not
gathered by the SESA to adequately assess program outcomes. The OIG, therefore, used
several sources of information to determine program outcomes for its sample of 200
terminees.   In the OIQ's opinion, the Wisconsin SESA's TAA program fell short of
reaching the objectives of the Act. Specifically:

       o     Seventy percent   of the participants  in our sample found subsequent
             employment.     Of these, 26 percent found suitable employment    (which
             includes a wage of at least 80% of their former average weekly wage), 32
             percent found employment that was not suitable as compared to former
             wages, and 12 percent accepted recall to their former employment.

       o     Sixty-nine percent of the participants in our sample enrolled into TAA-
             approved training.    However, just 40 percent of those participants who
             terminated training completed their training programs and 11 percent found
             suitable employment in an occupation related to the training received.

       °     The Wisconsin SESA did not adequately document services provided to
             TAA participants, and portions of the quarterly reports submitted to ETA
             were inaccurate.

The Wisconsin SESA's response to the OIG findings was constructive and raised several
issues that OIG believes should be addressed in cooperation with ETA.       Both the

                                          40
Wisconsin SESA and the OIG believe that program objectives should be more clearly
stated and that, to measure adequately the program's success, data collected and reported
on program outcomes needs to be improved.

Wisconsin also questioned the OIG's use of the definition of "suitable employment" found
in Section 236(e) of the Act as a critical measure of the program's success. The OIG
believes, however, that the definition is sufficient to provide a means for measuring
success consistent with the intent of the Act.



Targeted Jobs Tax Credit

The Targeted Jobs Tax Credit (TJTC) provides for a Federal income tax credit for
employers who hire and retain individuals from target groups needing special employment
assistance.  First authorized by the Revenue Act of 1978, it has been extended and
amended several times and is administered by ETA through SESAs. The Congress is
currently considering legislation to extend the program or to make it permanent.

Tennessee Targeted Jobs Tax Credit Survey
Report No. 04-92-043-03-320; issued September 30, 1992

The OIG examined TJTC program         activities that occurred in Tennessee during the period
October 1990 through December         1991. The purpose of the survey was to determine
whether the internal controls over    program operations were sufficient to prevent fraud,
waste, and abuse; and to determine     the effectiveness of the program in assisting targeted
groups.

Documentation supporting eligibility certifications for a sample of TJTC participants
identified 5 percent as ineligible. Additionally, 33 percent of the certifications in our
sample did not adequately document individuals' eligibility. The Tennessee Department
of ]Employment Security (TDES) did not complete sufficient quality control reviews or
audits to test the validity of eligibility determinations, which contributed to the certification
of ineligible: individuals and insufficient documentation of eligibility.

The OIG audit found that Tennessee did not aggressively plan for, or operate, the
program, nor did it sufficiently evaluate its effectiveness. Only one cooperative agreement
with another State agency, for recruiting and vouchering eligible participants, had been
obtained. TDES' contact with employers consisted almost entirely of employer-initiated
requests. No allocation of staff time for TJTC activities was budgeted for TDES' local
offices and certification goals were not established. A State monitoring guide for program
reviews had not been developed and on-site local office reviews had not been formally
scheduled. The audit also found that TJTC participants experienced low employment
retention rates. TDES' data indicate only 23 percent of TJTC participants were still

                                               41
working for the same employer 1 year following the quarter in which they were certified.
Most TJTC participants obtained jobs with low skill requirements, high turnover rates, and
little significant long-term career impact.

Tennessee generally disagreed with the OIG findings regarding its operation of the
program and cited differences in its interpretations of eligibility and other program
requirements. The OIG is awaiting ETA's response.


Unemployment Insurance Program

The Social Security Act of 1935 authorizes the Unemployment     Insurance (UI) Program,
a Federal-State    partnership   based on Federal law, which is implemented       through
individual State legislation and administered by SES,_s. ETA's Unemployment     Insurance
Service (UIS) is charged with ensuring proper and efficient administration of the overall
UI program.

Review of the Virgin Islands U.I. Automation Grant
Report No. 02-92-249-03-315; issued May 21, 1992

The UIS has made grant awards to several state-level agencies to upgrade automation
related to the provision of unemployment insurance services. At the request of ETA, staff
from the OIG and ETA reviewed the contract awarded to XEBEC SYSTEMS, Ltd.
(XEBEC) by the Virgin Islands to install an unemployment insurance automated benefit
payment system and an employer tax system. The services, which were to be performed
under the XEBEC contract, covered the major requirements          of the Unemployment
Insurance Automation Grant totalling $1.1.2 million awarded by ETA to the Virgin Islands.

The review found that the contract   awarded      to XEBEC was not obtained   at the most
favorable price possible. Although XEBEC, the highest bidder, was technically rated as
the most qualified, the overall technical ratings were very close and did not justify
awarding the contract to XEBEC for $1.34 million when the initial proposals of four other
comparably qualified vendors ranged from about $950,000 to $1.26 million. Moreover, in
violation of Virgin Islands law, the contract amount exceeded the available funding.
Finally, the Virgin Islands Department     of Property and Procurement  (VIDPP) did not
exercise sufficient control over the procurement process.

ETA suspended activities related to the UI automation grant until the Virgin Islands could
demonstrate  that a contract providing a fair and reasonable price could be negotiated
under the authority of VIDPP and in compliance with all applicable laws and regulations
of the Virgin Islands. The Virgin Islands subsequently renegotiated     the contract with
XEBEC for $970,950. ETA is restricting payments to the Virgin Islands until each phase
prescribed under the contract is successfully completed.

                                            42;
Unemployment     Insurance Criminal Investigations

In addition to our audit work, the OIG continued to devote significant resources to
Unemployment       Insurance (UI) fraud investigations.   These investigations frequently
involve schemes by individuals who conspire to submit false claims for unemployment
benefits.    These schemes may involve establishing bogus companies          and fictitious
employees for whom benefits are filed, sometimes in multiple States.           During this
reporting period, the OI had under criminal investigation 116 UI fraud cases. Our UI-
related statistical accomplishments    for this period included 21 indictments      and 27
convictions.   For detailed case narratives, see page 100 in the Office of Investigations
section of this report.


REVISED MANAGEMENT DECISIONS

The term "management decision" means the evaluation by DOL program management
of the findings and recommendations    included in an audit report and the issuance of a
final decision concerning its response to such findings and recommendations,    including
actions determined to be necessary.

The OIG is required by the Inspector General Act Amendments of 1988 to provide a
description and explanation of the reasons for any significant revised management decision
made by departmental     agencies during the reporting period. The OIG is also required to
report on any significant management decision with which it disagrees.

During this reporting    period, revised management decisions were issued for 10 ETA-
related audit reports.   A synopsis of the more significant revised management decisions
follows.

State of Iowa
Report No. 05-91-048-50-598;   issued February 20, 1991

ETA had disallowed $394,014 of Iowa's FY-89 Employment Service expenditures because
this amount was transferred to the State's UI program with no documentation to support
the appropriateness of the transfer.

Subsequently, the State of Iowa provided ETA with sufficient documentation      to support
the fact that the funds associated with the disallowed costs were State funds, transferred
in apparent violation of State, rather than Federal, law. Based on this, ETA concluded
that there is no basis for the disallowance and has issued a Post-Final Determination
Review which reverses the disallowance of $394,014.




                                            43
DMJT/HBT Joint Venture
Report No. 18-92-001-03-370;   issued October 8, 1991

ETA disallowed $103,616 questioned by the OIG primarily because a consultant
overcharged the contractor (Joint Venture) by using billing rates in excess of actual labor
costs and by incorrectly applying a 10 percent profit rate to lab fee charges. Subsequent
to ETA's Final Determination,     the contractor satisfactorily demonstrated  to ETA that
adjustments were made to reduce, by $99,412, the amount of these costs charged to the
Department.    Combined with other documentation submitted by the contractor supporting
$1,528 of disallowed costs, ETA issued a Revised Final Decision allowing $100,940 of the
disallowed costs.




                                            44
              EMPLOYMENT            STANDARDS         ADMINISTRATION



The Employment Standards Administration         (ESA) administers and enforces a variety of
statutes prescribing certain standards of employment that must be met by covered
employers. These standards are primarily concerned with wages and working conditions,
workers' compensation benefits for certain workers, and compliance by Federal contractors
with the conditions of nondiscrimination     and affirmative action programs for employees
of Government      contractors.    Within ESA, to carry out these tasks, are the Office of
Workers' Compensation         Programs, the Wage and Hour Division, and the Office of
Federal Contract Compliance Programs.

During this reporting period, OIG activities focused on various ESA financial management
functions; on Federal Employees' Compensation Act (FECA), Black Lung, and Wage and
Hour investigations; and on legislative issues related to FECA and the Fair Labor
Standards Act (FLSA).




ESA FINANCIAL MANAGEMENT

For FY-91, the OIG audited the financial statements for the Employment Standards
Administration (ESA), the Black Lung Disability Trust Fund (BLDTF), the disbursements
under the Federal Employees' Compensation Act (FECA), and the Longshore and District
of Columbia Special Funds.     FY-91 marks the first year that the OIG has issued an
opinion on the financial statements of the BLDTF. FECA disbursements were audited
because they represent 65 percent of ESA's total expenses.    The audit reports on the
Longshore and Harbor Workers' Special Fund (Report No. 03-92-026-04-432) and the
District of Columbia Workmen's Compensation Fund (Report No. 03-92-028-02-432) were
issued on December 23, 1991, and contained unqualified opinions.

ESA had expenses of $2.4 billion in FY-91, with $2.2 billion spent on its various workers'
compensation programs. Other expenses included: $92 million for employment standards
enforcement,   $50 million for Federal contract compliance with nondiscrimination         and
affirmative action laws and regulations, and $12 million for executive direction.         The
agency had assets of $10.4 billion, but $7.3 billion were future financing sources -- funds
that need to be provided from taxes, assessments, or appropriations       for liabilities that
have been incurred.      Liabilities totaled $10 billion. The liability for future workers'
compensation    benefits for injuries that have already occurred was $6.6 billion.        The
BLDTF had outstanding loans totaling $3.3 billion from the U.S. Treasury.


                                              45
ESA F'g 1991 Financial Skatement Audit
Report No. 03-92-052-tM-001; issued June 30,. 1992

The OIG's opinion on the financial statements was qualified because sufficient evidence
could not be obtained to determine the fairness of the recorded amounts in coal tax
revenue remitted to the BLDTF by the Treasury. Periodic reports are provided by the
Treasury on this revenue. However, the Department of Labor does not have access to
the detailed accounting records, nor does it receive any audit assurance on the accuracy
of the Treasury reporting.

In addition to the lack of support for the accuracy of coal tax revenue, two other matters
that were considered material weaknesses were noted in the report on ESA's internal
control structure. These two conditions were common throughout the Department.       First,
the Department's and ESA's accounting practices and procedures were not adequate to
provide accurate and complete information for accounts payable and undelivered orders.
The total amount of ESA accounts payable and undelivered orders (together known as
unliquidated   obligations) in question is approximately $20 million.    Second, property
management weaknesses cited in prior years' reports have continued.       The Department
and ESA have not maintained adequate records of property and equipment costs and
related depreciation expenses. ESA has agreed to take corrective actions in conjunction
with Departmentwide      plans.

Black Lung Disability Trust Fund Financial Statement Audit
Report No. 03-92-053-04-433; issued June 30, 1992

Because we were unable to obtain sufficient evidence from the Department of Treasury
to determine the fairness of the recorded amounts of coal tax revenue stated as of
September 30, 1991 and 1990 ($651,863,000 and $663,348,000, respectively),     the BLDTF
FY-91 financial statement opinion was qualified.

The report on internal control structure contained two reportable conditions. Accounts
receivable amounts were not recorded and properly classified and compensation and
medical payments were inaccurate. These conditions were not considered material to the
financial statements.

FECA FY 1991 Disbursement      Audit
Report No. 03-92-047-04-431;   issued September 10, 1992

The OIG audit of FECA's $1.2 billion of compensation and $390 million of medical
payments for FY-91 resulted in an unqualified opinion on the compensation and medical
disbursements.




                                            46
However, in reviewing operations at FECA district offices, certain matters were noted that
were considered reportable conditions.     They included that (1) wage information was
missing in 27 percent of the case files for claimants on the periodic roll for 3 or more
years, (2) payment batch cover sheets were not approved by appropriate       bill examiner
supervisors or fiscal officers at one of the district offices, and (3) monthly audits of
medical bills were not being performed and required reports were not being provided to
appropriate   levels of management   at three district offices. These conditions are not
considered material. ESA plans appropriate corrective actions.


OFFICE OF WORKERS' COMPENSATION                  PROGRAMS (OWCP)

The OWCP is responsible for the administration of three basic Federal compensation
laws: the Federal Employees' Compensation Act, the Longshore and Harbor Workers'
Compensation Act, and the Black Lung Benefits Act.


Federal Employees' Compensation Act (FECA) Program

FECA is the sole form of workers' compensation available for Federal employees who
suffer on-the-job injury or occupational disease. The Department of Labor is responsible
for administering the Act, but actions by all Federal employing agencies, the Office of
Personnel    Management,    and the Office of Management       and Budget influence its
administration.

In previous semiannual reports, the OIG has recommended that Federal agencies need to
be aggressive in monitoring the status of employees receiving FECA benefits. The OIG
has emphasized that, consistent with medical opinion, it is line management that can best
identify and provide for light-duty assignments that may encourage an earlier return to the
workplace of employees who have been out on disability. In this regard, the OIG has
developed a FECA audit guide for use by the Inspector General community when
reviewing the administration of their respective FECA programs.

During this reporting period, the OIG transmitted to the Congress the results of a study
titled "Assessment of Actions Taken Against FECA Claimants Convicted of Defrauding
the Program in Fiscal Years 1990 and 1991." This study, conducted by the OIG's Office
of Investigations,   revealed that over 50 percent of FECA claimants convicted of
defrauding the program continued to receive FECA benefits because the Department does
not have the statutory authority to terminate benefits solely on the basis of a criminal
conviction. The OIG has advocated legislative changes to address this situation. These
recommendations     are discussed in detail later in this section.




                                            47
FECA Criminal Investigations

The OIG continued to devote significant investigative resources to FECA fraud committed
by claimants and medical providers.       Often, 'these investigations are conducted with the
assistance of other criminal investigative organizations.    During this reporting period, the
OI had 442 ongoing FECA°related criminal investigations which resulted in 33 indictments
and 26 convictions. For detailed narratives of selected FECA criminal investigations, see
page 101 in the Office of Investigations section of this report.


President's Council on Integrity and Efficiency, (PCIE)/Employing Agency Review of FECA
Program

In addition to our audit and investigative work on the FECA program, the DOL-OIG is
leading a Governmentwide      review to determine whether Federal employing agencies are
efficiently and effectively managing their responsibilities under the FECA. This review is
being conducted under the auspices of the PCIE.

Offices of Inspectors General from 13 agencies (which accounted for $457 million [about
30 percent] of the $1.5 billion expended for FECA during the year ended June 30, 1991)
are participating in the PCIE project. Fieldwork is currently in process in most of these
agencies. We anticipate issuing a consolidated report on the Governmentwide     results by
June 1993.



FECA Legislative Recommendations

Under current Federal law, the maximum penalty for a violation of 18 USC §1920 (false
statement to obtain Federal employees' compensation) is a fine of not more than $2,000
or imprisonment of not more than 1 year, or both. While this and other criminal statutes
(18 U.S.C §§1001 [false statement] and 1341 [mail fraud] in particular) are routinely used
to prosecute claimants alleged to have committed FECA fraud, §1920 has had very little
deterrent value because it is a misdemeanor.  Moreover, an individual may be convicted
of a violation of 18 USC §1920 and, yet, continue to receive benefits from the very
program he or she defrauded.

Therefore, the OIG proposes amending that section to elevate a §1920 violation to a
felony and to reword §1920 so that it is applicable to any false statement made in
connection with a claim for FECA compensation.        This would make it clear that false
statements made by individuals claiming total disability as well as those claiming partial
disability are covered by §1920.




                                             48
The OIG further recommends that §1920 include language that would automatically
terminate the FECA benefits of any person convicted of violating §1920 or committing
any other fraud involving the application for and/or receipt of FECA benefits and that
such termination would affect the subject claim or any prior FECA claim.

The OIG believes that such amendments would greatly        enhance the deterrent value of the
statute and provide the DOL with a valuable tool for       dealing with those who attempt to
defraud the FECA program.        Individuals committing     FECA fraud would not only risk
going to jail, but would also jeopardize their benefits   by engaging in criminal fraud.


Black Lung (BL) Program

The Black Lung Program pays monthly compensation payments and medical diagnostic
and treatment costs to coal miners who are totally disabled from pneumoconiosis (black
lung) arising from their coal mine employment.

Black Lung Criminal Investigations

Fraud in the Black Lung program is typically committed by claimants, their beneficiaries,
or by providers of medical equipment and services. During this reporting period, the OI
had 41 ongoing Black Lung-related criminal investigations which, to date, have resulted in
7 indictments and 5 convictions.      For detailed narratives on selected Black Lung
investigations, see page 103 in the Office of Investigations section of this report.


WAGE AND HOUR DIVISION            (WHD)

The Wage and Hour Division is responsible for the administration of a wide range of
labor standards laws, including the Fair Labor Standards Act (FLSA), the country's
principal minimum wage and overtime law.

Legislative Activities

In September 1991, the OIG issued an audit report reviewing the effectiveness of the
WHD's enforcement of the FLSA. In particular, this review was concerned with FLSA's
minimum wage and overtime provisions.        The audit included a review of back wage
collections where there was not yet complete agreement as to the employer's responsibility
for the payment of back wages. The audit found that employers had failed to pay back
wages to 510 out of 2,876 employees who were owed back wages.              The audit also
disclosed that 98 percent of the employers were repeat violators. These statistics point
to flaws in WHD's ability to enforce FLSA. As a result of work in this area by the
General Accounting Office (GAO), as well as the OIG audit, the House Government

                                            49
Operations Committee held two hearings in the last several months to review the WHD's
enforcement of minimum and overtime provisions of FLSA. Moreover, in June 1992, the
Inspector    General    (IG) testified before   the Senate      Appropriations  Committee,
Subcommittee on Labor, Health, and Human Services, Education, and Related Agencies
about the September       1991 audit.  The IG testified that WHD's detection of FLSA
violations and its management information system need to be improved.          The IG also
recommended amending the FLSA to (1) provide for civil money penalties for employers
who do not maintain accurate payroll records, (2) require that unclaimed back wages
resulting from an administrative settlement be deposited into the U.S. Treasury, (3)
require increased criminal penalties for repeat violations of the FLSA, and (4) change the
statute of limitations to prevent the amount of back wages owed from being eroded as a
result of DOL inactivity or employer stalling tactics.

The Department is considering the need for an amendment requiring civil money penalties
for violations of the FLSA's record-keeping provisions. The OIG supports the need for
such legislation and encourages its introduction in the 103rd Congress. In January 1992,
the Department     transmitted to the Office of Management and Budget, for review and
clearance, regulations establishing penalties for repeat violations of FLSA. However, the
regulations have been delayed as a result of the President's           moratorium on new
regulations.   The OIG strongly recommends the clearance and implementation       of these
new regulations.

Wage and Hour Criminal Investigations

During this reporting period, the OIG continued to devote resources to investigations
involving the Wage and Hour program. These investigations typically involve employers
who falsely certify wage records that claim the employer is paying employees the
prevailing wage rates, when, in fact, employees are being paid less. During this reporting
period the OI had 27 ongoing criminal investigations into Wage and Hour matters which,
to date, have resulted in 3 indictments and 3 convictions. For a narrative illustrating our
criminal investigations, see page 104 in the Office of Investigations section of this report.




                                             50
      OCCUPATIONAL           SAFETY     AND      HEALTH     ADMINISTRATION



The Occupational Safety and Health Administration      (OSHA) provides leadership in
providing protections for the health and safety of 90 million American workers by
administering the provisions of the Occupational Safety and Health Act of 1970. The
purpose of this Act was "to assure so far as possible...safe and healthful working
conditions for every working man and woman in the Nation."

To carry out its responsibilities under the law, OSHA develops and promulgates Federal
safety and health standards, operates a compliance program based on both voluntary
compliance and physical inspection of workplaces, provides grant programs to State-
operated safety and health programs, provides technical assistance, and collects and
publishes statistics in support of safety and health programs.

In this reporting period, the OIG audited the OSHA financial statements for FY-91,
performed a financial review of North Carolina's state plan operations, and resolved (with
OSHA) the audit findings reported in the prior semiannual period on egregious case
settlement and followup. Additionally, the OIG testified before the Congress on the need
for criminal penalties for willful violations of OSHA rules that result in death or serious
bodily injury.




OSHA FINANCIAL MANAGEMENT

During this reporting period, the OIG audited OSHA's FY-91 financial statements and
presented comparable unaudited information for FY-90.         In FY-91, OSHA had expenses
of $261.7 million. They were incurred as follows: Federal enforcement program, $112.1
million; State enforcement       programs,    $61.1 million; safety and health standards
development, $6.9 million; technical support, $1.5.5 million; compliance assistance, $35.1
million; statistical reporting and analysis, $22.4 million; and other, $8.6 million.


OSHA FY 1991 Financial Statement Audit
Report No. 05-92-014-10-001; issued September 29, 1992

The OIG's opinion on the FY-91 financial statements was qualified because the OIG was
unable to ascertain that penalty revenue and grantee advances were fairly stated and
because records supporting property and equipment were not complete. More specifically:


                                            51
.      Penalty revenue could not be substantiated by the OIG because of inadequacies in
       OSHA's accounting system related to lack of reconciliation      of cash receipts,
       inadequate financial reporting, and unrecorded and untimely entry of transactions.

o      OSHA's subsidiary grant records were not reconciled to the total advances recorded
       in the Department's   general ledger, resulting in a significant overstatement    of
       advances to grantees.

°      Because OSHA records documenting the cost and accumulated depreciation       of
       property were incomplete, the OIG could not determine the amounts at which
       property, equipment, and related accumulated depreciation should be recorded in
       the agency's financial statements.

An examination was made of OSHA's internal control structure, the status of prior years'
reported     material weaknesses,  and OSHA's compliance      with applicable      laws and
regulations.     The report on internal control structure identified material weaknesses
related to penalties receivable and grant advances, which resulted in qualifications in the
financial statement opinion. The findings included the following:

o      Internal controls over the penalty collection process were inadequate      in that
       insufficient reconciliations  were performed      between    OSHA's  management
       information systems and collections deposite.d into the Treasury.   A $6.9 million
       unreconciled difference existed for FY-91 collection activity.

o      Penalties   receivable,   as reported   to Treasury, were overstated   by $15.3 million.

°      OSHA did not reconcile the subsidiary grant records to the general           ledger, which
       reported grant advances at $19.4 million.

Moreover,    although OSHA has made significant progress in correcting reportable
conditions noted in prior reports, certain conditions remained uncorrected at the time of
our review.      These conditions related to penalties receivable and revenue, grants
management, property management, and accounts payable and undelivered orders. The
report on compliance disclosed that, with respect to the items tested, OSHA complied in
all material respects with applicable laws and regulations.   OSHA's response to the draft
report adequately addressed the OIG recommendations         and are now resolved.

Special Review of North Carolina OSHA Grants
Report No. 04-92-050-10-101; issued September 30, 1992

The OIG performed       a limited scope examination of the FY-91 OSHA grants to the State
of North Carolina.      OSHA requested the OIG audit because initial year-end financial


                                                 52
reports submitted by the State made it appear that Federal funds, exceeding $600,000, had
been obligated and spent after the close of the FY-91 grant.

Weaknesses in accounting and administrative controls contributed to material errors in the
State's financial reports submitted to OSHA. For example, unliquidated obligations were
overstated by more than $236,000 on both the September and December 1991 financial
reports, which resulted in an understatement  of the amount of unspent Federal funds.
The OIG questioned $246,025 in personal and non-personal        service costs which were
incurred after September 30, 1991, but charged as Federal costs to the FY-91 grants;
$9,980 of equipment and maintenance contract charges which were incurred outside the
grant period; and $53,807 spent on an office automation system without OSHA's prior
approval.

North Carolina disagreed with most of the OIG findings related to expenditures outside
of the grant period, and also stated "cash" accounting rather than "accrual" accounting was
responsible for errors in the financial reports.      The OIG recommended        that OSHA
recover questioned costs of $309,486 ($326 in questioned costs were withdrawn by OIG);
obtain separate audits of North Carolina's FY-92 grants; and ensure that North Carolina
verify the accuracy of its reported financial information, including the use of independent
review procedures.

Review of How OSHA Settled and Followed Up On Its Egregious Cases
Report No. 05-92-008-10-001; issued March 31, 1992 (Resolution)

In this report the OIG examined the effectiveness of OSHA policies for pursuing flagrant
violations of Federal safety and health standards.      The OIG concluded that OSHA's
strategy for dealing with flagrant violations was effective in most cases and that OSHA
could do more to maximize the deterrent effects of its enforcement program. OSHA has
taken actions in response to OIG recommendations      to improve its enforcement program.
Specifically, OSHA is:

•      Implementing procedures to enforce the safety and health provisions of the Walsh-
       Healey Public Contracts Act and MacNamara-O'Hara      Service Contract Act. Such
       procedures  include referrals to contracting agencies and instituting debarment
       proceedings where appropriate.

•      Clarifying the policy regarding enforcement through the courts and referring cases
       to the Solicitor of Labor when employers have failed to meet the terms of final
       orders of the Occupational Safety and Health Review Commission.

•      Promulgating a regulation requiring    employers   to submit   a certified   report   of
       actions taken to abate hazards.



                                             53
o      Improving coordination with State plan administrators to encourage      more effective
       enforcement of OSHA's corporatewide settlement agreements.

o      Implementing  a system to track the status of corrective actions required by
       corporatewide agreements that go beyond the' scope of the originating inspection.
       OSHA has already stepped up its monitoring of corporatewide            settlement
       agreements.

°      Improving internal controls over the accuracy        and timeliness   of management
       information on egregious cases.

These OSHA actions are sufficient to resolve the OIG audit recommendations.



OSHA Legislative Recommendation

The OIG continues to be concerned with the Department's    minimal reliance on criminal
enforcement of worker safety and health laws. Accordingly, during FY-92, the Inspector
General testified before the House Subcommittee on Crime and Criminal Justice on the
need for legislation that criminalizes willful violation,; of OSHA rules that result in death
or serious bodily injury. The Inspector General testified that

       "Strengthening the criminal enforcement provisions of the OSH Act would
       be the first step towards greater worker protection...employers...engaging   in
       willful and repeated conduct which violates the safety standards promulgated
       pursuant to the OSH Act...should be subject to both civil fines and criminal
       incarceration, since such incarceration may send a strong message to other
       employers contemplating the same type of willful activity...willful or knowing
       violations of the OSH Act resulting in a worker's             death [currently
       misdemeanors]     need to be upgraded to felonies...I also support legislation
       which would provide for criminal penalties under the OSH Act, for willful
       or knowing violations resulting in serious bodily injury."

Legislation introduced   in both the House and the Senate, which contained criminal
enforcement provisions, died in the 102nd Congress. The OIG urges the Department and
the Congress to revisit this issue early in the next congressional session to ensure that the
American worker is better protected from occupational hazards.




                                             54
               MINE     SAFETY     AND   HEALTH      ADMINISTRATION



The Mine Safety and Health Administration (MSHA) administers the provisions of the
Mine Safety and Health Act of 1977 (Act). The Act was established to provide a means
for improving working conditions and practices in the Nation's mines and for promoting
a safe and healthful environment for the nation's miners. MSHA's major activities are the
development    and enforcement    of health and safety standards; the development and
implementation    of educational policy; technical support in the approval and certification
of mine equipment; and the collection, analysis, and publication of information pertinent
to the mining industry.

In this reporting   period, the OIG audited the MSHA financial statements for FY-91 and
the performance     of MSHA's Special Investigations Program, which the Act authorizes as
part of MSHA's      overall enforcement program.




MSHA FINANCIAL MANAGEMENT



The OIG audited MSHA's financial statements for FY-91. During FY-91, MSHA had
expenses of $139.5 million, which were incurred as follows: enforcement of coal mine
standards, $70 million; enforcement      of metal/nonmetal  mine standards, $28.1 million;
assessment collections, $1.8 million; standards development, $1 million; technical support,
$16.1 million; education, $11.7 million; and administrationl $10.8 million.


FY 1991 MSHA Financial Statements Audit
Report No. 12-92-001-06-001; issued June 30, 1992

A qualified opinion was issued on MSHA's FY-91 financial statements. The opinion was
qualified because (1) inadequate accounting records precluded verification of the beginning
accounts payable balances and (2) property held for resale was stated at cost net of
accumulated depreciation rather than at "lower of cost or market" as required by
departmental accounting policies.

The report on internal control structure noted three reportable conditions. Two of the
reportable conditions are material weaknesses involving inadequate reconciliation
procedures and inadequate accounting policies and procedures.


                                             55
The audit found that MSHA did        not perform regular reconciliations of several general
ledger account balances. In those    cases where reconc, iliations were performed, there were
inadequate supervision and review    procedures to ensure the accuracy and timeliness of the
account reconciliations.  Affected    accounts included funds with U.S. Treasury, accounts
receivable, and advances.

The audit concluded that MSHA did not have adequate                 accounting policies and
procedures to ensure that transactions were recorded properly. OIG testing of accounts
payable showed that approximately 30 percent of the outstanding balance should be shown
as undelivered orders or, in some cases, be de-obligated.    Based on testing of undelivered
orders, the OIG noted that approximately 50 percent of the outstanding balance should
be reclassified as accounts payable or, in some, cases,, be de-obligated.   Year-end physical
inventories did not include procedures to identify items no longer in use. Transactions
were not reviewed to ensure proper capitalization.      Also, miscellaneous receipts for the
MSHA Academy were recorded as reductions of expenses instead of revenue.

The remaining reportable condition involved inadequate financial reporting policies and
procedures.   MSHA did not have year-end close-out policies and procedures designed to
produce their annual financial reports. One result was that accounts receivable balances
for fines and penalties did not include all FY-91 transactions.

The report on compliance noted exceptions for noncompliance with appropriation law for
collection of miscellaneous receipts and noncompliance with laws and regulations for State
grantee reporting.      MSHA treats sales of audiovisual materials and publications as
reimbursements    to their appropriation.    In the absence of authority to treat these items
as reimbursable,    this is not in compliance with appropriation       law. MSHA has not
enforced legal requirements     for its State grantees 1:o submit required reports.    MSHA
cannot ensure that grantees are spending their funds in accordance with the Federal Mine
Safety and Health Act of 1977, Section 503, and other applicable Federal regulations.

MSHA agreed with the OIG's findings and recommendations           and is initiating corrective
action.

Improvements Can Be Made in MSHA'S Special Investigations           Program
Report No. 03-92-042-06.610; issued September 30, 1992

Section 103(a) of the Mine Safety and Health Act authorizes MSHA to conduct special
investigations as an integral part of the Agency's inspection and enforcement program.
Authorized special investigations are resolution of complaints of discrimination filed by
miners and other protected persons [Section 105(c)] and assessment of civil or criminal
penalties pertaining to a serious and significant violation of a mandatory health and safety
standard where the mine operator or agent of the operator knowingly allowed the
violation to occur [Sections 110(c) and 110(d)].

                                              56
The OIG reviewed MSHA's      Coal and Metal/Nonmetal     Divisions' Special Investigations
Programs, and found that:

       •     MSHA district offices are in compliance    with national   office policies and
             procedures.

       •     MSHA needs to develop a comprehensive      management      information     system
             and consistent reports.

       •     MSHA needs to establish procedures to close special investigation cases that
             warrant no further action. (This recommendation    remains unresolved.)

       •     Implementation      of a training tracking system and planned    criminal
             investigations training would improve enforcement efforts in MSHA.

With the exception noted, MSHA has implemented            actions to address      the     OIG
recommendations  to improve operation of its special investigations program.




                                           57
                           OFFICE     OF THE      SOLICITOR



The Office of the Solicitor (SOL) is the legal arm of the Department of Labor. The SOL
plays a key role in enforcing the provisions of over 180 labor-related statutes that protect
the rights of over 90 million individuals and impact a regulated community of 10 million
entities. In this reporting period, the OIG (with SOL) resolved audit findings that will
assist SOL in applying its litigation resources in the most effective manner.




Managing the Effectiveness of SOL
Report No. 17-92-005-08-001; issued March 31, 1992 (Resolution)

In the past the SOL did not make formal internal assessments of its litigation function
and, as a result, had not developed the pragmatic elements essential for assessing the
effectiveness of this activity. The SOL accepted the following OIG recommendations         to
improve its litigation function: (1) develop formal priorities for litigation activities; (2)
implement a system to track and report the costs of litigation, including attorney time and
litigation outcomes; and (3) periodically review and evaluate its litigation policies and
procedures.

The SOL is currently working toward a requirements-based            budget using priorities
established from the Secretary's goals and defined by SOL's client agencies.       Further
actions that SOL plans to take to define its priorities include publishing SOL's defined
priorities, allocating resources among programs to best meet the client agencies' goals in
the overall context of Secretarial goals and priorities, and identifying work that will be
accomplished and the work that probably will not be addressed.

The SOL has acknowledged the need to have accurate and timely data on cases, including
the amount of time legal staff spend on them. SOL is currently working on revisions to
its legal activity record-keeping system (SOL_R) and the development and integration of
a time distribution system. SOL has formed a work group to oversee the development
of a time distribution system and plans to have the new system completed by the end of
1993.     The SOL has also begun to review and evaluate its litigation policies and
procedures, and has made changes to certain procedures.




                                             58
                         DEPARTMENTAL              MANAGEMENT



Departmental     Management (DM) refers to those activities and functions that implement
and formalize    policy, procedures, systems, and standards to ensure efficient and effective
operations of   administrative and managerial programs. DM includes both those activities
and functions   that are applicable to all agencies of the Department, and a small number
of operating     programs and activities for which incorporation      in an existing DOL
component is    not suitable.

In this reporting period, the OIG audited the financial statements of the Department and
certain financial activities that support the statements, selected components         of DM,
indirect costs for certain departmental contractors, and resolved indirect cost audits issued
in prior periods. Additionally, the OIG was very active in the Department's      information
resources management (IRM) activities.




Department of Labor Fiscal Year 1991 Consolidated Financial Statements
Report No. 12-92-002-07-001; issued August 28, 1992

The findings for this report are included in the Financial Management       section.

Audit of Accounts Payable, Undelivered Orders, and Disbursements
Report No. 12-92-029-07-711; issued September 1, 1992

As an adjunct to the audit of the Department's FY-91 consolidated financial statements,
a separate audit of accounts payable and undelivered orders was undertaken to determine
if they were fairly stated for vendor payments.

The OIG found the accounts payable and undelivered orders were materially misstated
because of misclassification of accounts payable and undelivered orders and the failure to
accrue expenses as of September 30, 1991. The OIG estimated that accounts payable in
the FY-91 general ledger were understated by 84 percent or $24.6 million. Reported
accounts payable were $29.2 million. The estimated accounts payable per audit were
$53.8 million.     The undelivered orders     in the general ledger were overstated     by
approximately 29 percent or $36.8 million. Reported undelivered orders were $127.7
million.   The estimated undelivered      orders per audit were $90.9 million.      FY-91
disbursements were reported at $407.6 million for vendor payments.      The amount was
determined    reasonable    per audit.     However,  some problems     were noted with
documentation    supporting transactions.

                                              59
The basic accounts payable and DOLAR$ modules generally were properly designed;
however, the Department's   understanding and utilization of these automated systems were
not always proper.   Weaknesses were noted in filing and retention of accounting and
procurement records, absence of receiving reports, missing obligating documents, miscoded
transactions, and missing files. Because of these problems, program managers did not
have accurate obligation status information available.     Also, the lack of receipt and
payment information and other documentation hinders the proper management of goods
and services procured by the Department, including the price paid for them.

The Department generally    concurred with the OIG's recommendations   to correct       these
problems. They disagreed,   however, with the scope of the problems presented.

FY 1991 Working Capital Fund Audit
Report No. 12-92-030-07-710; issued August 19_ 1992

This is the first time the Working Capital Fund's (WCF) financial statements have been
audited. These financial statements were compiled by the OIG from the supplemental
financial schedules included with the Department's  consolidated financial statements and
related financial records.  The WCF had expenses of $69.8 million in FY-91. Assets of
$16.5 million were reported for the WCF as of September 30, 1991, including $13.9 million
in funds with the U.S. Treasury.

An adverse opinion was issued on the financial statements of the WCF because of poor
property accounting.     Three factors contributed to our conclusion.   First, depreciation
expense was recorded for assets that were not capitalized. Second, computer software of
at least $4.5 million had not been capitalized.    Moreover, sufficient evidence was not
available to support management's contention that the amount not capitalized was $7.9
million.   Third, WCF billings were overstated by $622,769 due to calculation errors. An
audit adjustment was made for this amount; however,, the adjustment does not reflect the
effect of the understatement   of the property accounts.

In the report on the internal control structure, the OIG        identified seven reportable
conditions, with four conditions considered to be material      in relation to the financial
statements.  The four material weaknesses were as follows:

(1)   WCF capitalized property records     were not reconciled to the general ledger control
      accounts.   Fragmented property      systems, ineffective policies and procedures for
      recording property transactions,     poor communication       among procurement     and
      accounting offices, and a lack of    reconciliation and depreciation procedures have
      resulted in 1) unreliable property   and equipment account balances, including ADP
      software and 2) departures from      established departmental    accounting policy.




                                             60
(2)    WCF service agency procedures were not adequate to provide accurate accounts
       payable and undelivered orders account balances. The financial statements included
       an adjustment to decrease accounts payable and expenditures in the amount of
       $954,293.

(3)    WCF billings exceeded billable expenses due to improper billing procedures and a
       lack of reconciliation between expended appropriations and billable expenses. For
       the year ended September 30, 1991, billings in excess of billable expenses were
       $622,769.

(4)    Agencies were not charged on the basis of actual costs or appropriate prices/rates
       for certain sensitive services in accordance with departmental policy, resulting in
       unfair charges, excessive overhead, and large agency budget variances.

The remaining reportable conditions relate to inappropriate      and excessive cost centers,
incomplete   written    operating    procedures,  and inadequate       supervisory  reviews.
Management    has responded to the above findings, indicating basic agreement with the
recommendations.     They disagreed, however, that unfair charges resulted from their billing
practices.

The results of OIG tests of compliance disclosed one material instance of noncompliance.
The WCF is budgeting for and charging Department of Labor agencies for activities not
authorized by the WCF enabling legislation.

In the OIG's opinion, the WCF charged participating agencies $7,209,194 for activities and
services not authorized the by WCF-enabling legislation in FY-91. Though the expenses
were reasonable for the Department, they should not have been charged to the WCF.
We recommended         that the Acting Chief Financial Officer either charge agencies only for
legislatively authorized WCF activities or initiate an amendment to the enabling legislation
authorizing an expanded revolving-fund operation.

Management has responded indicating basic agreement with the finding; however, they
have disagreed with some items listed as unauthorized.       Management is preparing a
legislative proposal to address the scope of WCF activities.


INFORMATION       RESOURCES       MANAGEMENT (IRM)


Information Resources Management refers to those activities associated with the collection,
use, dissemination, and management of information and related resources.      The term is
commonly used in connection with the utilization of computers and other information
processing equipment.

                                              61
During this reporting period, the OIG continued to play an active role in efforts to
improve the efficiency and effectiveness of the Department's    overall IRM environment.
In reporting this period, the OIG and the Department       resolved important OIG audit
findings from a prior period. In addition, the OIG prepared a blueprint for future audits
of departmental  IRM activities and performed other IRM-related audits.


Problems With Departmental       System Development Efforts Persist
Report No. 19-92-003-07-001;    issued March 31, 1992 (Resolution)

In this audit report, the OIG informed the Department's Designated Senior Official (DSO)
of another major information system project failure within the Department;     namely, the
Pension and Welfare Benefits Administration's (PWBA) failure to successfully develop the
final phase of the Field Office Information System (see page 64). The report also noted
that OIG system development project audits since 1984 could not identify a single large
systems development project in the Department        that had met each of three important
criteria: satisfying user needs, meeting the development schedule, and reasonably meeting
the original cost estimates.

The DSO agreed with the OIG's recommendations         to improve the results of departmental
system development efforts by developing:

       o      an improved level of oversight and technical assistance for high risk projects
              at key decision points that include; careful evaluation of agency actions by the
              OIG and the Deputy Secretary;

       o      a new policy requiring DOL agencies to undergo stringent assessment in the
              use of Interagency Agreements to procure Federal Information Processing
              resources; and

       .      an updated   System Engineering     Concepts   and Procedures   Manual.

As a result of these actions, the OIG and the Department                    have resolved all
recommendations.      In addition, the Department's   Directorate of Information Resources
Management (DIRM) and the OIG have coordinated several initiatives to improve IRM
activities in the Department.      This includes (1) collaboration on drafting a Secretary's
Order to establish a Secretarial Priority System Advisory Board, (2) agreement on the
need for both DIRM and OIG oversight of complex II?M system development efforts, and
(3) recognition    of the need to establish performance         measures for evaluating the
Department's     IRM activities.    The OIG and the Department         will continue to work
cooperatively to improve overall IRM activities.




                                             62
The OIG Strategic Plan for Auditing IRM in the Department of Labor: Fiscal Year 1993
through Fiscal Year 1995

In the last semiannual report, the OIG described the most important results of auditing
the Department's     and individual agencies' IRM activities over the past 8 years. During
this 8-year period, the OIG's planning process for IRM audits was driven by high visibility,
risk, and co[st of system development; the impact of introducing new technology (local and
wide area networks); and compliance with IRM statutes.            Audit work planned and
conducted under this approach usually resulted only in individual agency improvements.
However, to meet the growing challenge of managing information technology in the future,
a new focus is necessary.

Based on this experience, the OIG has developed a strategic IRM audit plan for Fiscal
Years 1993-1995 to address systematically IRM problems identified by the audit process.
This plan provides the framework for affected agencies and the OIG to develop logical
solutions to identified problems.      In the future, the OIG's IRM audit work will be
Increasingly crosscutting and concerned simultaneously with functions in departmental and
agency environments.      This necessarily will direct audit efforts more to the underlying
causes of recurring problems.

Consistent with this focus, the OIG has developed six strategic        issues (overall   audit
objectives) to drive future IRM audit work. They are as follows:

       1)     Strategic Planning - a focus on departmental and agency visions and abilities
              to achieve the mission, goals, and objectives through effective use of
              technology.

       2)     Design and Acquisition - a concentration on whether agencies' major system
              development and modernization      efforts are adequately justified, feasible
              (economically and technically), and meet users' needs.

       3)     Systemic Barriers - an evaluation of the success of implementing new
              technology by avoiding problems in areas such as software development,
              information management, requirements, organizational structure, acquisition
              strategies, and information and system sharing.

       4)     Operations and Maintenance      - methods that agencies can use to reduce
              and account for operational      and maintenance  costs, and enhance the
              reliability of equipment.

       5)     Recruitment,     Education, and Training - a focus on the agency's
              identification, recruitment, and retention of qualified IRM personnel, and
              management of programs to teach, refine, and evaluate technical skills.

                                             63
       6)     Fraud, Waste, and Abuse - a ff_cus on the agency's use of technology to
              improve internal controls that prevent/detect fraudulent activities and provide
              feedback to management to reduce waste and abuse.

This strategic plan will be supplemented    by the development of individual agency IRM
profiles and a tactical agency-by-agency   IRM audit plan for Fiscal Years 1993 through
1995.

Host Computer Resources Utilization
Report No. 19-92-011-07-720; issued September      30, 1992

DIRM has oversight responsibilities for the provision of host computer services to other
departmental   agencies. The Boeing Computer Services (BCS) provided host computer
processing services for the Department from 1986 to 1992, at which time a new service
provider (SunGard Computer Services, Inc.) began to provide these services.    The OIG
audited the effectiveness of host computer services delivered to the Department by BCS
and SunGard.

The audit found that no one individual or agency in the Department was designated to
coordinate and exchange information for either service provider. More specifically, the
Department does not have:

       o      formal policies and procedures     for the efficient and effective   use of host
              computer processing services;

       o      a mechanism to promote the exchange of solutions to common problems,
              cost-savings measures and technological advances identified by the agencies;
              and

       o      procedures to ensure all users received adequate     training to effectively use
              the host computer services.

The OIG recommended       that DIRM establish a users' group, effective over the life of the
SunGard contract, to exchange information on problems encountered in system use and
to find solutions to these problems.   DIRM concurred with the recommendations          and
agreed to implement them.

PWBA'S ERISA Information System: Developnnient Problems Delay FOIS Implementation
Report No. 19-92-002-12-001; issued March 31, 1992 (Resolution)

In the prior semiannual report, the OIG reported audit findings related to a major PWBA
system development effort. During the current period, the OIG and PWBA have resolved
these findings.   The OIG found that the failure of the final phase of PWBA's new

                                            64
management     information system (FOIS) was attributable to unsatisfactory contractor
performance,   ineffective project management, and inadequate consideration     of critical
technical issues. The OIG recommended that PWBA take specific steps to improve the
development effort. This included developing an action plan that included protecting the
Government's     interests from contractor    claims and restarting    the FOIS system
development, adopting the Department's     quality assurance procedures and standards for
development    projects, and simplifying parts of the FOIS design to reduce system
complexities.

In advance of the OIG's final report, PWBA undertook          a replacement          system
development effort and has agreed to provide the OIG with the replacement           system's
completed system design documentation for review and comments.

The OIG is monitoring departmental        efforts to terminate the GSA contract with the
original system development     contractor and resolve about $2.2 million in contested
contractor billings and claims. These efforts have yet to produce results. The OIG has
informed the Department's Audit Followup Official about the lack of progress in resolving
these issues.


OTHER DEPARTMENTAL MANAGEMENT ACTIVITIES

The Department's   Enforcement Programs

During the past 18 months, the OIG has reviewed the efforts of both the Department and
individual agencies to improve the overall effectiveness of departmental    enforcement
programs. Status reports on these efforts were issued in September 1991 and March 1992,
and reported in the Inspector General's Semiannual Report.

During the past 6 months, continued monitoring has been focused on assisting the
Department's     program agencies in improving their overall enforcement programs.       The
OIG found that:        (1) the Office of the Assistant Secretary for Policy (OASP) has
continued its efforts to design and implement a Departmentwide      enforcement data base
(scheduled for completion in October 1992); (2) OASP is completing a handbook to assist
small businesses to understand the major statutes and regulations administered by the
Department;     (3) agency prosecution guides, designed to improve coordination with the
Department     of Justice, have been completed by two of the Department's       enforcement
agencies (three guides are currently being reviewed by the Office of the Solicitor); and (4)
the Department      is continuing to explore ways to utilize more effectively the criminal
investigations training available through the Federal Law Enforcement Training Center.

In FY-93, the OIG plans to audit the effectiveness of the agencies' criminal investigation
framework.   During this audit, the OIG will determine whether (1) all potential criminal

                                             65
violations are being identified and (2) the framework has resulted in improved prosecution
results.

The Effectiveness of the Directorate of Civil Rights
Report No. 17-92-006-07-770; issued September 25, 1992

The OIG performed a review of the effectiveness of the Department's Directorate of Civil
Rights (DCR) complaints and compliance systems.            The review identified potentially
significant deficiencies in the timeliness of processing complaints filed under Titles VI and
VII of the Civil Rights Act, record-keeping and tracking systems, timeliness of Solicitor
review, and performance of compliance reviews of entities receiving Department of Labor
funds. The review also identified backlogs of complaints and compliance review reports.
These potential deficiencies and weaknesses ccmstitute vulnerabilities that may jeopardize
the DCR's effectiveness in performing its basic mission. While some improvements were
made during the course of the review, the critical mission and responsibilities of the DCR
are such that the OIG will proceed with a full audit of Directorate of Civil Rights.

Weaknesses Identified in The Recertified Payment Process Need Immediate Attention
Report No. 19-92-010-07-710; issued August 18, 1992

The Department's      Office of Accounting is responsible for both replacing salary checks
reported lost, stolen, or mutilated; and collecting salary overpayments     after Treasury
identifies the original check was cashed.

The OIG examined Office of Accounting records which identified 1,152 replacement salary
checks for the period January 1989 to June 1991. Additionally, the OIG identified
practices used in the management,      documentation,   and reporting of the Recertified
Payment Process which the Department       uses to replace employee salary checks. The
audit found that the Office of Accounting:

       .      was not collecting all salary overpayments   (after Treasury identified       the
              original check was cashed and the replacement check not returned);

       o      lacked formal policies and procedures    to adequately   control the Recertified
              Payment Process; and

       •      employed an inadequate method       to track and certify historical replacement
              check request information.

The OIG alerted the Department's Comptroller to weaknesses identified in the Recertified
Payment Process and recommended      certain measures to correct these deficiencies.  The
Comptroller agreed to install measures to address each of these deficiencies.


                                             66
Health Insurance Premiums Remitted to HealthPlus of Maryland
Report No. 12-92-027-07-711; issued August 14, 1992
Report No. 12-92-028-04-431; issued August 14, 1992

HealthPlus     of Maryland (HealthPlus)  is a health plan participating in the Federal
Employees' Health Benefit Program (FEHBP). In December 1990, HealthPlus submitted
a $2.4 million claim to the Office of Personnel Management (OPM) (which administers
the FEHBP) for unpaid Federal health benefit premiums for the 3-year period ended
December 31, 1990. The Department        of Labor portion of the claim was $30,654 for
Federal     employees   and $23,754 for Federal     employees'   workers' compensation
beneficiaries.    At the request of OPM, the OIG reviewed the circumstances of DOL
remittances for these activities.

Based on a review of 91 sample items - selected from 12 sample periods - the OIG
identified net underpayments   of $3,635.27 for DOL employees.      The total projected
underpayment for the 12 sampled pay periods was $5,151.02. The OIG also reviewed the
remittances by OWCP for FECA beneficiaries.     Based on the review of 164 sample items
- selected from 12 sampled months - net underpayments of $7,819.12 were identified for
FECA beneficiaries.   The total projected underpayment for the 12 sampled months was
$16,189.92. OPM is responsible for resolving underpayments    and overpayments.

The OIG also identified several departmental      and OWCP weaknesses in the internal
control structure for health benefit processing.    For example, adequate reconciliation
between payroll records and health benefit reports was not performed, OWCP procedures
were inadequate to ensure that all enrollment changes were properly entered in the
benefit payment system, and individual payroll offices did not have adequate procedures
to ensure proper payment of premiums during periods of leave without pay.             The
Department noted that a new health benefit reporting and reconciliation system planned
for development and implementation would correct most of the problems noted. OWCP
also generally agreed with the OIG findings and stated that existing procedures will be
reemphasized to ensure the problems are corrected.


Cost Allocation Plans and Indirect Cost Rates

Indirect costs are those that have been incurred for common or joint objectives and
cannot be readily identified with a particular final cost objective. The OIG audits indirect
cost proposals   and rates of departmental       contractors   both at the request of the
Department and on its own initiative.




                                            67
Leo A. Daly Company Fiscal Year 1987 Indirect Costs
Report No. 18-92-027-03-370; issued September 10, 1992

For the period June 1983 to September 1989, the Leo A. Daly Company (Daly) received
two DOL contracts totalling $37.5 million to perform inspection and facilities surveys at
Job Corps centers. The OIG performed a special review of nine selected Daly indirect
cost accounts for FY-87 (March 1986 through February 1987) to determine whether
indirect costs charged to DOL by Daly were allowable, allocable, and reasonable in
accordance with Federal and departmental cost reimbursement regulations.

For FY-87, Daly proposed that DOL's pro rata share of all indirect costs charged to DOL
and non-DOL activities was $2.8 million. The OIG concluded, however, that this amount
was overstated by $210,695.     In addition, the OIG identified that, of the $3.3 million
reviewed, $1.1 million was inappropriately included in the total indirect costs to be
allocated by Daly. These included items such as social/country club memberships, personal
travel expenses, personal residence expenditures, liquor, entertainment, and luggage.

In response to the draft report, Daly agreed that $140,134 was improperly charged as an
indirect cost, but did not agree that the remaining $976,271 was inappropriately charged.
The OIG has concluded, however, that the costs in question do not meet the definition
of allowable, allocable, or reasonable charges.

National Conference of Black Mayors, Inc.
Report No. 18-92-024-07-735; issued June 22, 1992

The National Conference of Black Mayors, Inc. (NCBM) is a private, nonprofit
organization founded in 1972 for the purpose: of providing training, research, information,
and technical assistance to black mayors. The NCBM was awarded a JTPA Title IV grant
to provide a technical assistance and training program to assist primarily rural and small
urban governments in recognizing how they can best utilize the JTPA program in their
communities.

The OIG audited direct costs claimed for the grant years ended April 30, 1989, 1990, and
1991 and the final indirect cost rate proposed by NCBM for the Calendar Year that
ended December 31, 1989. However, because the audit of the direct costs claimed for the
3 grant years disclosed that, during this period, NCBM's financial management system did
not meet the requirements      of the applicable OMB circulars, the OIG questioned all
indirect costs charged to the Department for the 3 grant years ended April 30, 1991.

The audit resulted in a total of $194,850 in questioned costs, of which $58,854 were direct
costs (of $474,256 direct costs audited), and $4,958 represented unremitted interest due
the DOL. As mentioned, all of the indirect costs ($135,996) claimed for the 3-year grant
period were questioned.    Due primarily to these findings, the OIG stated NCBM's final

                                            68
indirect cost rate proposal for 1989 and the amended financial status reports for the
period May 1, 1988 through April 30, 1991 do not present fairly, in conformity with
applicable criteria, the costs associated with program operations.

NCBM did not agree with the OIG's conclusions regarding the seriousness of the
deficiencies in its financial management system. It did, however, agree that the system is
deficient in some areas and further stated that it is taking steps to bring it into compliance
with OMB Circulars A-110, A-122, and A-133.

National Governors' Association
Report No. 18-92-023-07-735; issued June 3, 1992 (Resolution)

In our semiannual report for the period ended March 31, 1991, the OIG reported (Report
No. 18-91-024-07-735) questioned costs of $646,002 related to operational costs for the
National Governors' Association (NGA) for Fiscal Years 1986-1988. The impact of these
questioned costs on DOL and other Federal agencies was $236,275. Subsequent to the
issuance of this report, the NGA submitted additional documentation      related to the
questioned indirect costs.

As a result of the OIG's review of this additional information, a new report has been
issued for which questioned indirect costs have been reduced to a revised total of
$483,961. The impact of these questioned costs on DOL and other Federal agencies is
$174,520. The current report will be used to assist the Department in establishing NGA's
final indirect cost rates for Fiscal Years 1986-1988.

National Council on the Aging, Inc.
Report No. 18-91-018-07-735; issued July 19, 1991 (Resolution)

The OIG audited the direct and indirect costs claimed for reimbursement by the National
Council on the Aging (NCOA) for the 2-year period ended December              1989. ETA
disallowed $342,545 of the $662,944 questioned by the OIG. Most of the disallowed
indirect costs resulted from improper salaries and fringe benefits charged to the indirect
cost pool and excessive allocation of nonpersonnel     costs. Excessive rental and other
unallowable costs were also charged directly to DOL grants.

In addition to the questioned costs, the OIG found that NCOA had not properly returned
to the Department    $364,672 that had accumulated from over-recovery of indirect costs
from the DOL and from subgrantee payments to NCOA related to audit disallowances.
NCOA has since returned these funds to the Department.




                                             69
                Section Ill




Federal Managers' Financial   Integrity   Act
                Activities




                    71
           FEDERAL        MANAGERS'  FINANCIAL              INTEGRITY        ACT
                                  ACTMTIES



The Federal Managers'         Financial Integrity Act (FMFIA) establishes management's
accountability for the efficient, effective use of resources to accomplish program objectives.
The FMFIA process provides a formal mechanism for the assessment and reporting of
management's internal control structure.

The OIG is fully involved in the FMFIA process for the Department of Labor. The OIG
reviews the Secretary's annual report and the reports of the Department's   component
agencies to determine that reports are accurate and complete.  The status of corrective
actions is monitored through ongoing audits.

In the FY-91 FMFIA report, material weaknesses are reported under Sections 2 and 4 of
the Act. Under Section 2 of the Act, which pertains to management controls, 14 material
weaknesses were reported.   Of the 14 material weaknesses reported, 4 were considered
high risk. They related to JTPA audit coverage, State JTPA grant operations, the
Employee Retirement Income Security Act (ERISA) audit process, and DOL equity in
SESA real property.

1)     JTPA Audit Coverage

       Audit coverage of the JTPA was inadequate because the Single Audit Act (SAA)
       does not have stipulations providing for adequate coverage of JTPA funds. The
       entities/organizations   which actually expend JTPA dollars at the local level are not
       subject to these audit requirements.      In addition, most entities that are subject to
       the SAA either pass through most of the JTPA funds that they receive or have a
       JTPA program which represents a relatively small percentage of their total Federal
       assistance funds.      The General Accounting Office, Office of Management           and
       Budget, and President's Council on Integrity and Efficiency are conducting reviews
       of the adequacy and effectiveness of the SAA.

2)     State JTPA Grant Operations

       This area encompasses several problems.        These include service delivery area
       procurement systems; oversight of State JTPA programs; on-the-job training; fixed
       unit price, performance-based   broker contracts; and other contracting practices.
       ETA has Conducted extensive reviews of procurement          practices and provided
       procurement training to State and local staff. A number of the recent amendments
       to JTPA are also designed to address these weaknesses.          The OIG is closely
       monitoring ETA's development of implementing regulations for the new JTPA
       amendments.

                                              73
3)     The ERISA Audit Process

       This is an important element of the oversight and enforcement          of pension and
       welfare benefit plans. While widespread fiduciary abuse has not been determined,
       limited scope audits are currently allowable under ERISA. Fraud and abuse may
       be going undetected because of the audit limitations currently permissible.       During
       this reporting period, the Administration     submitted a legislative proposal which
       would eliminate limited scope audits of pension plans and require peer reviews of
       independent public accountants who audit pension plans. Further, the Pension and
       Welfare Benefits Administration has increased its enforcement effort against plan
       administrators who fail to correct deficient audits. They also are pursuing sanctions
       against public accountants performing       substandard audits.     Unfortunately,    the
       legislative proposals did not progress in this Congress. The OIG is recommending
       that the Department     of Labor make this a top legislative priority in the coming
       year.

4)     DOL Equity in SESA Real Property

       DOL has equity in SESA real property that was purchased with Federal funds. An
       OIG audit found that some SESAs were not in compliance with DOL regulations
       governing acquisition, management, and disposition of property. Further, ETA did
       not account for the Department's equity of approximately $296 million in 472 State
       properties as of September 30, 1988. ETA's progress to correct this weakness has
       been slow. Because of ETA's work on procurement systems, limited staff resources
       have been devoted to property management         and accountability.   Based on the
       OIG's recommendations,     ETA has established an inventory of national property, but
       it was not current as of the OIG's la_est audit in May 1992. While a real estate
       specialist position has been established by ETA, directives outlining real property
       policies and requirements for the SESAs have not yet been issued. ETA plans to
       complete the reconciliation of ETA records with SESA records in 1993.

Section 4 of the FMFIA requires the reporting of financial system weaknesses. Under this
section, nine material weaknesses were reported.      Of these, five were combined into a
single high risk area - inadequate financial systems. The OIG's audit of the Department's
FY-91 consolidated financial statements found continued problems with the Department's
financial systems. Although the general ledger is fully operational, subsidiary systems and
processes continue to be weak. For a complete discussion, see page 13 in the Financial
Management section of this report.




                                              7,4
               Section III




Summary of Additional   OIG Activities   and Issues




                   75
                     OFFICE        OF LABOR       RACKETEERING



The mission of the Office of Labor Racketeering      (OLR) is "to identify and reduce labor
racketeering and corruption in employee benefit     plans, labor-management   relations, and
internal union affairs."

Labor racketeering is the use of union or benefit plan power for personal benefit. The
underlying concept of a union (or a benefit plan) is that it is organized for the benefit of
its members, not its leaders. When racketeers take over, that relationship is inverted with
the leadership reaping benefits by exploiting the members.

Organized   Crime

Organized crime has historically viewed labor racketeering as one of its primary sources
of money and power. Although weakened by successful prosecutions in various parts of
the country, organized crime still controls and exploits labor unions, most notably in the
Northeast.   The power to extort, using the union as a weapon, and the vast sums of
money contained in union pension and welfare plans continue to prove irresistible to
racketeers.

Several recent cases in which the OLR participated       demonstrate   organized crime's
continuing influence in the labor movement. A major New York case, worked jointly with
the Manhattan District Attorney's Office and the New York State Police, resulted in the
indictment of several members of the Bonnano crime family as well as numerous officers
of the Newspaper and Mail Deliverers Union. In Boston, a case worked jointly with the
FBI resulted in the indictment of a Patriarca organized crime family figure, two reputed
Patriarca family members, and a Teamsters Union member.

Emerging Criminal    Enterprises
                              i

Joining the traditional rackeCeers is a new breed of "second generation" racketeers --
lawyers, accountants, fund managers, and plan administrators -- who use the fountain pen
and the computer, rather than the baseball bat and gun as their weapons. Using inflated
appraisals, phony assets, self-dealing, and a myriad of sophisticatedschemes,       these
professional criminals ruthlessly loot pension and welfare funds -- union and non-union
alike.

Fraudulent Multiple Employer Welfare Arrangements

One specific species of fraud, which the OIG has reported on previously and continues to
pursue through criminal investigations, is the fraudulent Multiple Employer Welfare
Arrangement (MEWA).         Originally conceived as a method by which members of an

                                             77
association of employers could provide reasonably priced health coverage to their
employees, the MEWA has evolved into a commercial alternative to traditional insurance.
With the rising costs of health insurance and the reduced availability of coverage -- even
from the major insurance carriers -- many small employers have found that they are no
longer able to obtain health insurance for their employees at a cost they can afford.
MEWAs, organized by entrepreneurs,        have', stepped in to fill the market void for
affordable health insurance.    Small employers enter into these arrangements    under the
impression that the premiums they are paying provide bona-fide health insurance for
themselves and their employees.      Our investigations have found, however, that a few
unscrupulous operators ran their MEWAs like Ponzi schemes, paying small claims at the
early stage while diverting premium dollars to their own accounts. These operations have
inevitably gone bankrupt, leaving millions of ,dollars in unpaid claims.

As these arrangements began to falter and ceased paying claims, participants complained
to State insurance regulators. When the States attempted to investigate and regulate many
of these arrangements,    the MEWA operators claimed that ERISA preempted         any such
investigation or regulation.   The basis for such claims was that the MEWAs were plans
under ERISA and ERISA preempts States from regulating employee benefit plans. While
the courts and the Department of Labor have invariably found that such entrepreneurial
MEWAs are not employee benefit plans, these claims have hindered State MEWA
enforcement efforts.

OLR has investigated several dozen of these seams and has worked closely with both State
and Federal regulators to focus needed attention.     During this reporting period, a major
indictment in Seattle resulted from an investigation of a fraudulent MEWA operator.       In
this case alone, there were over $8 million in unpaid claims when the MEWA ceased
operation.   In addition to prosecutions, another result of this focused attention has been
proposed legislation to close a perceived gap in which many fraudulent MEWAs were able
to operate.

Bogus Labor Unions

A negative effect of the increased attention given to fraudulent MEWAs has been the
creation of the bogus labor union. As State regulatory and enforcement efforts against
fraudulent MEWAs have increased, operators have sought ways to avoid scrutiny. Like
an evolving virus, some MEWAS were turned into "labor unions." In this manner, the
operators have attempted to position themselves uncler the broad preemption aspect of
ERISA, thereby insulating themselves from State regulation.      This is a current issue in
which the OLR has recently initiated several criminal investigations.   Working with State
insurance authorities, OLR has succeeded in bringing several of these scams to a halt at
an early stage.




                                            78
While accurate figures on the amount of money and number of participants that are at
risk do not exist, the impact of the fraudulent MEWA problem can be inferred from those
few cases cited in this report.    The 3 MEWA cases reported in this semiannual report
represent 8,550 potential victims and $13.5 million in unpaid claims. Because of their
complex nature and geographic dispersal, MEWA cases are extremely expensive to
investigate.   0LR is attempting to address this real and immediate problem to the best
of its ability with the resources allocated to it.

MEWA Legislation

During this reporting period, the OIG was encouraged by the introduction, in both the
House and the Senate, of the Department's    bill (H.R. 5386 and S. 2843, respectively), as
well as the introduction of three additional bills addressing the issue of health insurance
fraud.

The intent of the Department's   bill is to enhance the soundness and stability of MEWAs
and to strengthen the ability of both the Federal and State Governments to ensure that
these arrangements are free from fraud and abuse. Specifically, the bill:

•      clarifies Federal   and State regulatory    authorities   with respect to MEWAs;

•     establishes a new exemption procedure to allow the Department     to grant a
      renewable 3-year exemption from State regulation to MEWAs that are employee
      welfare benefit plans under ERISA and are not fully insured;

•     would require MEWAs to register with the Department               annually and send copies
      to States in which they offer or provide benefits;

•      clarifies the definition of "collective bargaining agreement"    to prevent MEWAs from
       improperly claiming to be exempt from State laws;

•      allows States access to information on organizations claiming to be MEWAs to
       determine whether they are in fact MEWAs and whether they are legitimately
       exempted from State regulation by a DOL exemption;

•     contains changes in some definitions that are designed to allow certain MEWAs that
      cover both employees and a small number of nonCemployees to be eligible to seek
      a DOL exemption, and clarifies that certain types of arrangements are not MEWAs
      and, thus, are not subject to State regulation under section 514(b)(6) of ERISA;
      and

•     grants the Secretary of Labor the authority to obtain a court order forcing a
      MEWA to cease operations immediately when it is established that (1) it is not

                                                  79
       operating in accordance with departmental    exemption   or (2) it is not in compliance
       with State insurance laws.

The need for legislation of this nature is illustrated by a case recently investigated by OLR.
In this case, an association-based   MEWA, which had operated successfully for a number
of years, was taken over by an entrepreneur.      In short order, the MEWA multiplied in size
several times, became insolvent, and left millions of dollars in unpaid claims.           OLR
conducted an investigation into alleged criminal violations but found none. In declining
prosecution, the United States Attorney expressed the opinion that what had happened
was clearly wrong; unfortunately, it was not illegal. Had legislation been in effect, as that
which is currently being proposed, the operator of this MEWA would not have been able
to do business in the manner in which he dicl. In the words of the prosecutor, "This is
an area ripe for abuse in the absence of any existing effective State or Federal regulation."

Office of Labor Racketeering   Priorities

In order to ensure that the very limited resources available are directed to the areas at
the core of OLR's mission, management recently restated OLR's investigative priorities,
as follows:

       1.     Organized   Crime (OC) domination     of labor unions and/or employee benefit
              funds.

       2.     OC influence over or manipulation    of labor unions and/or employee     benefit
              funds.

       3.     Long-standing, abusive, and criminal domination    of labor unions and/or their
              funds by non-OC members.

       4.     Significant and orchestrated criminal abuse of non-union      employee   benefit
              funds, including MEWAs, by non-OC members.

A sharper focus on these priorities will allow OLR managers to ensure the efforts of their
agents are directed to those cases with the highest potential for impact.

With fewer agents in number than in previous years, OLR realized more indictments
during Fiscal Year 1992 than in any year in the organization's history.       In addition to
achieving 164 indictments and 128 convictions during: FY-92, OLR also generated $47.9
million in monetary accomplishments.     We are very proud of these accomplishments, but
must point out that the monetary accomplishments are skewed by an extraordinary item -
one case accounted for over $36 million in restitutions ordered. This is a singularly large
restitution. The value of OLR investigations is not typically monetary, the value lies in the
significance of the involvement of the defendants in organized criminal activities and the

                                             80
impact of our investigation on this crime problem.   OLR cases do not lend themselves    to
strict statistical measurement.

Another aspect of our efforts to ensure that limited resources are utilized to the maximum
involves placing investigators in areas with the richest potential     for carrying out our
mission. To this end, we have undertaken a preliminary review and are formulating plans
to establish a presence in several new areas and/or increase our presence in areas with
the highest racketeering potential.

Narratives   of our most significant cases follow.


EMPLOYEE       BENEFIT PLANS


Health Insurance Executive and Two Associates Indicted in Health Care Fraud Scheme

The president and two associates of Labor Management            Services, Inc. (LMSI), a
Washington State insurance consulting firm, were charged in Seattle with cheating
thousands of Americans out of about $8 million in health insurance claims between March
1988 and October 1989. The Federal indictment charged Edward B. Gallup, president of
LMSI, and associates Patrick W. Lyon and Thomas M. O'Brien with embezzlement from
employee benefit plans, mail fraud, wire fraud, and money laundering.

The indictment alleged that Gallup, with the assistance of Lyon and O'Brien, fraudulently
received and converted more than $1 million in health insurance premiums for their own
use, in one instance using premium money to buy three new Jaguars worth more than
$160,000. The defendants were also charged with embezzling almost $275,000 from the
employee welfare benefit plans of two companies in Modesto, California.        They were
further charged with interstate transportation   of money obtained by fraud relative to
obtaining more than $550,000 in premium dollars from third-party administrators          in
Massachusetts and Michigan.

According to the indictment, Gallup and his associates misrepresented           the plan to
employers, selling it as low-cost health insurance arranged with reputable companies when,
in fact, the represented insurance coverage did not exist. This investigation was conducted
jointly by the OIG, the U.S. Postal Inspection Service, the Internal Revenue Service, and
the U.S. Attorney's     Office in Seattle.     Substantial assistance was provided by the
Washington State Insurance Commissioner's Office in Olympia. U.S.v. Gallup et al. (W.D.
Washington)




                                              81
Remaining Defendants in CAP Staffing Case Sentenced

Robert Long, former president of CAP Programs, Inc., in Charlotte, North Carolina, was
sentenced to 6 years and 6 months in prison for mail fraud, interstate transportation of
money obtained by fraud, embezzlement       from an employee benefit plan, money
laundering, and conspiracy.

Also sentenced were Jerry M. Wolicki, former vice-president of CAP Programs, Inc., to
5 years and 6 months' imprisonment;        Ronald Harris., former secretary of CAP Staffing,
Inc., a related Charlotte-based    employee leasing company, to 2 years and 9 months'
imprisonment;   and, Victor S. Blackwell, former vice-president of CAP Programs, Inc., to
5 years' imprisonment.    For their participation in the continuation of the CAP Programs,
Inc. fraud scheme, Michael Spieles, former president of Universal Staffing Associates, a
related employee leasing company in Palm City, Florida, was sentenced to 3 years and 5
months' imprisonment,     and Michael A. Krebser, former officer of Universal Staffing
Associates, to 2 years and 3 months in prison.

The former CAP staffing officials were convicted in 1991 on charges they defrauded more
than 120 businesses and their employees by causing the employees to believe they were
covered by health insurance and other personal benefits when only minimal coverage was
provided. They also diverted approximately $500,000 in premium proceeds for other uses.
Currently, an amount in excess of $1.2 million in medical claims remains outstanding.

Plea agreements previously entered into by all defendants require forfeiture to the United
States of all rights, titles, and interest in the property involved in the facilitation of the
fraud scheme, including proceeds generated from the fraud scheme.               This includes
residences of the defendants, automobiles, bank accounts, office equipment, and mining
equipment.

This investigation was conducted jointly by the OIG, the U.S. Postal Inspection Service,
the Internal Revenue Service, and the Federal Bureau of Investigation.        The North
Carolina Department    of Insurance and the Florida Department  of Insurance assisted in
the investigation. U.S.v. Long et al. (W.D. North Carolina)

Massachusetts   Health Insurance Executives Sentenced in Fraud Scheme

Richard L. Rowe, the owner of the now defunct Harbor Medical Administrators, Inc., a
Boston company administering health care plans, was sentenced in Federal district court
in Boston to 6 years' imprisonment and ordered to make restitution in the amount of $1.9
million after pleading guilty to kickbacks, embezzlement, mail fraud, and related charges.
Philip W. Carpenter, the former executive vice-president of the firm, was sentenced to 46
months' imprisonment and ordered to make restitution of $1 million after pleading guilty
to receiving kickbacks, embezzlement,     conspiracy, and related charges.

                                             82
In pleading guilty, Rowe and Carpenter admitted that from 1985 to 1989 they induced
employers to pay premiums to the OMNI Trust, a self-insured group health care
arrangement    providing benefits to more than 600 employers and their employees and
dependents, by misrepresenting the trust as a Government-approved     health insurance plan
operating under Federal law. They also admitted to converting more than $2 million and
$1 million, respectively, in assets from the two trusts. Carpenter also received kickbacks
in the form of marketing override, life, and medical stop-loss commissions.       The fraud
scheme resulted in more than $4 million in unpaid medical claims and individual losses as
high as $250,000.

Anne B. Dunlop, former vice-president       and general manager of Harbor Medical,       is
awaiting sentencing after pleading guilty to embezzlement, mail fraud, and conspiracy.

This investigation was conducted jointly by the OIG, the DOL's Pension and Welfare
Benefits Administration,   and the U.S. Postal Inspection Service. U.S.v. Rowe and
Carpenter (D. Massachusetts)

Kentucky Third-Party Administrator    Indicted in Insurance Fraud Scheme

Raymond A. Huelefeld, the president of the now-defunct Benefit Administrators, Inc., a
Ft. Mitchell, Kentucky third-party administration company, was indicted in Cincinnati on
charges of benefit plan embezzlement, bank and mail fraud, and falsification of benefit
plan-related records. Huelefeld was charged in a scheme to inflate fraudulently the cost
of stop-loss insurance premiums for employee health plans of four Cincinnati area
businesses.

The indictment alleged that Huelefeld, between March 1987 and January 1990, used his
position as third-party administrator  for the four firms' self-funded insurance plans to
defraud the plans by overstating the cost of stop-loss insurance premiums.     Based upon
the misrepresentations,  the employer-sponsors   of the respective benefit plans provided
approximately $829,749 in excess funding to Benefit Administrators.    Huelefeld allegedly
remitted to the insurance company only the premiums actually due and converted the
amount overcharged to his personal use and benefit and to the use of others.           The
indictment charged that to cover up the scheme, Huelefeld forged or caused to be forged
the employer-sponsors'  acknowledgement    on documents which verified they knew the true
premium cost. This investigation was conducted jointly by the OIG and the U.S. Postal
Inspection Service. U.S.v. Huelefeld (S.D. Ohio)

Pittsburgh Accountant Indicted for Embezzling More than $1 Million from Pension and
Investment Accounts

Philip P. Quattrone, a self-employed accountant and owner of Quattrone Accountants, Inc.,
was indicted in Pittsburgh on charges of bank fraud, tax evasion, falsification of records,

                                            83
and embezzlement of more than $1 million iin pension funds and investments      belonging
to two Pittsburgh area doctors and their employees.

According to the indictment, Quattrone used his position as accountant and investment
advisor for the pension plans and investment accounts to embezzle more than $1 million
from April 1987 to May 1989. After gaining signature authority over the bank accounts
in which these funds were deposited, Quattrone withdrew the money, used it for his
personal and business purposes, and created false records to conceal the embezzlement.
Quattrone is also charged with evading taxes by failing to report the embezzled funds as
income.

This investigation was conducted jointly by the OIG, the Internal Revenue Service, and the
Federal Bureau of Investigation.   U.S.v. Quattrone (W.D. Pennsylvania)

Former Houston Teamster Official Convicted for Kiickbacks

Lynn McDon Wells, the former president and business manager of the International
Brotherhood of Teamsters Local 1111 in Houston, was convicted on charges of receiving
kickbacks from the Local's health plan administrator.

Wells was convicted of accepting approximately $2,100 in kickbacks from Melvin Ray
Gilmore, between May 1987 and December 1988. Gilmore was an insurance broker who
administered a group health plan for Local l lll's members. Gilmore testified at the trial
that he made payments to both Wells and Wells' predecessor        to obtain and assure
continued business with the union's health plan.

Wells retired from the Teamsters and resigned from Local 1111 in March 1992. This
investigation was conducted jointly by the OIG, the DOL's Office of Labor-Management
Standards, and the Federal Bureau of Investigation.  U.S.v. Wells (S.D. Texas)

New York Insurance Broker Charged in Bribery Scheme

Asher Schapiro, doing business as Investors Marketing Associates and Employee Benefit
Services, Inc., was charged in Detroit in a scheme to bribe a former official of American
Motors Corporation (AMC) and several co-conspirators to assure AMC's selection of an
optional life insurance program Schapiro offered. Schapiro was charged with conspiracy,
interstate transportation in aid of racketeering, and money laundering.

The indictment alleged that, between 1985 and 1987, Schapiro conspired to use and used
the mail and telephone to carry out the bribery scheme. Further, the indictment alleges
Schapiro made payments totaling approximately $98,000 to the former AMC official and
his co-conspirators. The former AMC official was responsible for administering employee
benefit programs and his influence was instrumental in the selection of the program for

                                           84
AMC employees. The indictment charged Schapiro with money laundering           for passing the
bribe payments through a shell corporation, created by his co-conspirators     to disguise the
true nature of the payments.

This investigation was conducted jointly by the       OIG    and   the   Federal   Bureau   of
Investigation.   U.S.v. Schapiro (E.D. Michigan)


LABOR-MANAGEMENT           RELATIONS



Labor Racketeering   Sting Nets Organized Crime Figures

Following a lengthy undercover probe, Francis P. Salemme,     Jr., and Thomas L. Hillary,
reputed Patriarca organized crime family members; Dennis     D. Lepore, a Patriarca family
figure; and William M. Winn, an International Brotherhood    of Teamsters (IBT) Local 25
member were indicted in Boston on charges of conspiracy to   bribe labor union officers and
interstate transportation in aid of racketeering.

The undercover   probe, titled "Dramex," involved FBI operation  of an undercover
production company, David Rudder Productions, which purported to be an independent
motion picture company with offices in Santa Monica, California.

According to the indictment, between March 1989 and June 1990, the defendants
conspired to bribe labor union officers in return for assurances that David Rudder
Productions could film movies in various cities without union personnel.   David Rudder
would thereby realize millions of dollars in savings from reduced payroll costs and incur
no expense for pension and medical insurance coverage of its employees.

Salemme, Jr. is the son of Frank     "Cadillac Frank" Salemme, Sr., reputed leader of the
Patriarca family. Winn is the IBT   Local 25 transportation captain/coordinator supervising
IBT members employed by movie       companies filming in New England. Lepore is currently
serving a 14-year prison sentence   for racketeering.

This aspect of the investigation was conducted jointly by the OIG and the Federal      Bureau
of Investigation.  U.S. v. Salemme et al. (D. Massachusetts).

St. Louis Attorney and Two Railroad Union Officials Charged in Fraud Scheme

Stephen Tillery, a Midwest attorney, and two prominent railroad union officials were
charged, in two separate but related indictments in Illinois, with fraudulent schemes
designed to steer business to Tillery.


                                             85
The first indictment charged Tiller),, an attorney practicing in Illinois and Missouri; his
investigator, James Wolf; and Martin Barton, a high ranking local official for the United
Transportation   Union (which represents     union members employed by the Terminal
Railroad Association of St. Louis) with conspiracy, mail fraud, and interstate travel in aid
of racketeering.  The indictment also charged Wolf with making a false declaration before
a grand jury.

The second indictment charged Tillery and Mark Waldemer, a licensed attorney and high
ranking local official for the Brotherhood of Lz_comotive Engineers (which represents union
members employed by the Union Pacific Railroad) with mail fraud and interstate travel
in aid of racketeering.       The indictment also charged Waldemer with making a false
declaration before a grand jury.

According to the indictments, Tillery paid union offMals money and other things of value
in order to provide legal representation  to injured union members. The indictments also
alleged that to carry out the schemes, the defendants used the mail and travelled in
interstate commerce.

This investigation was conducted by the OIG with assistance     of the U.S. Department   of
Justice, Criminal Division. U.S.v. Tillery et al. and U.S.v.    Tiller), and Waldemer (S.D.
Illinois)

Business Manager of Carpenters Local Union 17 Convicted of Bribery

Benedetto "Benny" Schepis, the business manager of Carpenters Local Union 17, was
convicted in the New York State Supreme Court of bribing a labor official, receiving
bribes, and engaging in a prohibited financial interest and transaction.

Schepis was found guilty of facilitating a $3,000 bribe to a business agent of another
Carpenters Local.     Testimony revealed that Schepis and Louis Moscatiello, a former
official of Plasterers Local Union 530 (who previously pled guilty to bribery and is
presently serving a 2 to 5-year jail sentence), allowed construction contractors to receive
favorable treatment and violate the Carpenters Union collective bargaining agreement.

This investigation was conducted jointly by the OIG, the New York State Organized Crime
Task Force, and the Manhattan District Attorney's Office. State of New York v. Schepis
(Supreme Court of the State of New York, County of New York)

New Jersey Union Official Pleads Guilty to Demanding Illegal Payments       from Employer

Edward D. Bigham, Sr., the business agent of the International Association of Machinist
and Aerospace Workers Union (IAM), Local 447, pled guilty to demanding illegal payoffs
from the Middlesex Metro Bus Company in East Brunswick, New Jersey.

                                            86
The June 1992 indictment charged that Bigham sought to represent and organize the
employees of Middlesex Metro.      On three occasions Bigham told a representative     of
Middlesex Metro that if payoffs were made, a sweetheart labor contract would be entered
into with Health Care Employees Union Amalgamated Local 747, Fords, New Jersey, in
lieu of requiring a more expensive contract with IAM Local 447.

All counts of the June 1992 indictment pertaining to Edward D. Bigham, Jr. (Bigham's son
and current president of Local 747), were dismissed.

This investigation was conducted   by the OIG with assistance from the Middlesex Count'.,,
New Jersey Prosecutor's Office.    U.S.v. Bigham (D. New Jersey)

Executive Secretary of the International Brotherhood       of Painters   and Allied Trades
(IBPAT) District Council Sentenced for Bribery

Arthur R. Colasanto, executive secretary of the International Brotherhood of Painters and
Allied Trades (IBPAT) District Council 20 in White Plains, New York, pled guilty plea to
receiving a bribe. He was sentenced to 5 years' probation and 250 hours of community
service, ordered to make $1,800 restitution, and barred from holding any union position
for life.

The indictment charged Colasanto with accepting four bribes totaling $1,900 from an
undercover police investigator posing as a corrupt painting contractor.      In exchange for
the money, Colasanto agreed to allow the undercover investigator to use non-union labor.
Additionally, the "contractor" was not required to enter into collective bargaining with the,
Painters District Council.

Colasanto is one of several corrupt IBPAT union officials who were targeted in a joint
Federal and New York State law enforcement probe into racketeering in the painting
industry. In 1991, former IBPAT International Vice-President James Wolford of Buffalo,
New York, and Richard Campigotto, business manager of IBPAT Local 65 in Niagara
Falls, New York, were indicted on racketeering charges in Buffalo.     Investigation of
additional union officials and painting contractors is continuing.

This investigation was conducted jointly by the OIG, the Special Investigations Unit of the
New York State Police, and the New York State Organized Crime Task Force. U.S.v.
Colasanto (SupremeCourt     of the State of New York, CountY of New York)




                                             87
INTERNAL UNION AFFAIRS



Bonnano Organized Crime Family Members and Newspaper Deliverers Union Members
Indicted for Enterprise Corruption

Twenty individuals were charged in New York County Supreme Court in related
indictments involving racketeering activities by members of the Newspaper and Mail
Deliverers Union (NMDU) in New York City and by members of the Bonnano organized
crime family.

The first phase resulted in the arrest of 13 individuals following their indictment in New
York County Supreme Court on enterprise corruption and related charges. A1 Embarrato,
a capo in the Bonnano organized crime family; Richard Cantarella, a reputed Bonnano
family soldier; and other defendants were charged 'with enterprise corruption and related
acts, including extortion, coercion, larceny, bribery, and falsification business records. The
indictment alleged that the defendants were mernbers of a criminal enterprise which
controlled the systematic theft and sale of New York Post papers and was involved in
organized crime-related activity. The criminal enterprise exercised its control by infiltrating
the NMDU and using its members to facilitate the enterprise's activities.

A second indictment involved four members of the NMDU, including a soldier in the
Bonnano family. This indictment charged the defendants with violation of the New York
State Organized Crime Control Act and related acts, including extortion, coercion, larceny,
criminal usury, and falsifying business records. In a related indictment, a former union
official of the NMDU and two others were charged with kidnapping, conspiracy, and
bribery charges. The indictment charged that a construction contractor representative was
kidnapped until the contractor agreed to pay the defendants' ransom for labor peace.

The defendants, known as the Galante Delivery Crew, used their affiliation with the union,
the Metropolitan   News Delivery Company, and the Bonnano organized crime family to
systematically control the theft and sale of newspapers and to operate a ghost employee
scheme.

This investigation was conducted jointly by the OIG, the Manhattan District Attorney's
office, the Organized   Crime Investigation    Division of the New York City Police
Department, and the New York State Police. State of New York v. Embarrato et al; State
of New York v. Galante et al., and State of New York v. Carraro et al. (Supreme Court of
the State of New York, County of New York)




                                              88
Former Los Angeles Teamsters      Official Indicted for Mail Fraud and Embezzlement

Former IBT Local 399 Secretary-Treasurer   and International Representative, Earl D. Bush,
was indicted in Los Angeles on charges of union embezzlement        and mail fraud. The
indictment charged Bush with embezzling approximately $63,740, between 1987 and 1989,
by double billing both Local 399 and the IBT for travel expenses, automobile allowance,
and social security taxes. Bush also billed the IBT for travel expenses he did not incur.
The indictment also alleged that Bush mailed requests for reimbursement            for the
fraudulently claimed expenses to the IBT International.

This investigation was conducted jointly by the        OIG   and    the   Federal   Bureau   of
Investigation.  U.S.v. Bush (C.D. California)

Washington D.C. Area Carpenters'     Local Officers Sentenced

The two principal officers of United Brotherhood of Carpenters and Joiners of America
Local 1110 in Forestville, MD, have been sentenced           in Baltimore for embezzling
approximately $800,000 from the Local. Michael Miller, the president and business agent
for the Local, was sentenced to 2 years in prison and 3 years' supervised release, and
ordered to pay $500,000 in restitution. Marshall D. Bradley, the Local's financial secretary,
was sentenced to 4 months in jail, 4 months' home detention, and 3 years' supervised
release; and ordered to make $15,700 in restitution.    Miller pled guilty to conspiracy to
embezzle approximately $800,000 from Local 1110, and Bradley pled guilty to embezzling
from the Local. The indictment charged that Miller conspired with Bradley and Linda
Goldsborough, the office secretary and a trustee of Local 1110, to embezzle an amount
in excess of $800,000 from the union and its related employee benefit plans.

The indictment further charged Miller with depositing checks payable to the union and
benefit plans into a secret unauthorized bank account and using the funds to pay his
personal expenses. Goldsborough has pled guilty to aiding and abetting the embezzlement
and is awaiting sentencing.

This investigation was conducted jointly by the OIG           and   the   Federal   Bureau   of
Investigation.  U.S.v. Miller and Bradley (D. Maryland)




                                             89
OFFICE       OF RESOURCE          1VIANAGEMENT         AND     LEGISLATIVE      ASSESSMENT



  The Office of Resource        Management    and Legislative Assessment    fulfills several
  responsibilities mandated by the Inspector General Act of 1978, including legislative and
  regulatory review, reporting to the Congress, and performing general management       and
  support activities to achieve the mission of the OIG.

  Section 4(a) of the Inspector General Act of 1978 requires the Inspector General to
  review existing or proposed legislation and regulations and to make recommendations    in
  the semiannual report concerning the impact on the economy and efficiency of the
  administration of the Department's    programs and on the prevention of fraud and abuse.

  The following represent several of the most important legislative and regulatory items of
  OIG concern. With the close of the 102nd Congress, however, many of these items either
  died in the legislative process or were never introduced. Consequently, the OIG urges the
  Department     and the Congress to revisit those issues still outstanding and to give them
  swift consideration early in the next Congress.




  LEGISLATION        AFFECTING       THE OPERATION         OF DEPARTMENT      PROGRAMS



  Job Training Partnership Act (JTPA): Amendments            and Regulation

  The OIG is encouraged by the recently-enacted    JTPA amendments (PL 102-367). This
  Act provides the means to alleviate some of the long-standing         problems that have
  diminished the success of the JTPA program in providing needed skills to the unemployed,
  underemployed,     and hard-to-employ.   Key to ensuring the effectiveness of the new
  amendments,     however, will be the development,       promulgation,    monitoring,  and
  enforcement of comprehensive regulations needed to implement the new amendments.
  For a complete discussion, see page 25 in the Employment and Training Administration
  section of this report.


  Criminal    Penalties   for Violations of Occupational   Safety and Health Rules

  The OIG continues to be concerned with the Department's minimal reliance on criminal
  enforcement of worker safety and health laws. Accordingly, during FY-92, the Inspector
  General testified before the Congress on the need for legislation which criminalizes willful

                                                  9O
violations of OSHA rules that result in death or serious bodily injury.         For more
information, see page 54 in the Occupational Safety and Health Administration   section of
this report.


Pension Plan Audit and Enforcement Enhancement        Amendments

Since 1984, through our semiannual reports and congressional testimony, the OIG has
raised its concerns that hundreds of billions of dollars in employee pension funds are not
being adequately audited to ensure that they are safeguarded.         Currently, under the
Employee Retirement         Income Security Act (ERISA) of 1974, funds that have been
invested in entities such as savings and loans, banks, and insurance companies (which are
regulated by Federal [or State] Governments) and are not required to be audited. While
the assumption is that these institutions receive adequate audit coverage from other
regulatory agencies, these audits are generally done every 2 years and are not primarily
designed to test for ERISA violations. As a result, this limited scope audit loophole is
putting at risk workers' pension funds, now amounting to more than $2 trillion. To reduce
these risks to employee pension funds and, secondarily, to the Government            which
guarantees the payment of pension benefits for defined benefit plans, the OIG has long
recommended      legislative changes to improve the quality of pension plan audits and to
strengthen disincentives for unlawful behavior.

Moreover, the Department, after reviewing a broad range of enforcement-related      issues
under ERISA, concluded that ERISA enforcement should be enhanced in several respects
and that statutory changes are required to implement these enforcement initiatives.

To improve the quality of pension plan audits, the OIG continues to recommend that (1)
the provision of ERISA which allows funds held in federally regulated entities to escape
scrutiny, be eliminated and (2) independent public accountants (IPAs) be required to
undergo a peer review for qualification (as outlined in S.2708 and H.R.5158).      In order
to enhance ERISA enforcement, the current law should be modified to (1) require that
material illegal acts detected by IPAs in the course of their pension plan audit work be
reported to senior plan management, the board of directors or its audit committee, and
to PWBA for enforcement action; (2)require      that the industry audit guide for the audit
of employee benefit plans, promulgated by the American Institute of Certified Public
Accountants, be used by all auditors as the minimum acceptable standard when performing
audits of pension plans under ERISA; and (3) require that parties separate from plan
management be established to oversee IPA audits on behalf of plan participants.

During this reporting period, the OIG was encouraged by the introduction, in both the
House and the Senate, of the Administration's  bill (H.R.5158 and S.2708, respectively)
which addresses some of our long-standing concerns. The OIG has consistently outlined
these concerns in its semiannual reports during the past several years.     While the

                                            91
Department has now agreed to most of our recommendations,     the OIG is concerned that
a more concerted effort was not made to ensure thalL the bills progressed further during
this Congress. We urge the Department to take the head and make this issue a legislative
priority in the coming year.


Employer-Sponsored Health Insurance Plan Fraud:
Multiple Employer Welfare Arrangements (MEWAs)

The OIG's Office of Labor Racketeering is currently conducting 43 criminal investigations
of fraudulent   MEWAs.      These investigations   continue to reveal extensive abuse
characterized by the use of bogus labor unions, associations, and memberships.

During this reporting period, the OIG was encouraged by the introduction, in both the
House and Senate, of the Administration's bill (H.R. 5:386 and S.2843, respectively), as well
as by the introduction of other bills by various members of Congress.        For a complete
discussion of this legislative issue, see page 79 in the Office of Labor Racketeering section
of this report.


Federal Employees' Compensation      Act (FECA)

The OIG has recommended       that the Department pursue legislative changes to give the
Government the ability -- not presently available under existing workers' compensation
statutes -- to terminate FECA payments following a conviction.      In addition, the OIG
continues to pursue a legislative change to elevate a violation of 18 USC §1920 (false
statement to obtain Federal employees' compensation) from a misdemeanor to a felony.
For a complete discussion on these legislative recommendations,      see page 48 in the
Employment Standards Administration section of this report.


Fair Labor Standards Act (FLSA)

The House Government Operations Committee held two hearings to review the Wage
and Hour Division's (WILD) enforcement of minimum wage and overtime provisions of
the FLSA. During that oversight review, the C'ommirtee referenced an OIG audit, issued
in September 1991, which focused on the effectiveness of the WHD's enforcement of the
FLSA.    In addition, the Inspector General testified before a Senate Appropriations
Subcommittee on the need for improvements in WHD's detection of FLSA violations and
management of its information system, as well as needed improvements to the FLSA itself.
For a complete discussion on the OIG's recomraendations,  see page 49 in the Employment
Standards Administration section of this report.



                                             92
LEGISLATION AFFECTING OIG OPERATIONS

Law Enforcement Authority for OIG Special Agents

The OIG continues to recommend legislation to provide law enforcement authority to the
Office of Labor Racketeering  (OLR) and Office of Investigations (OI) special agents.
Congressional hearings and accompanying reports from the Senate Labor and Human
Resources Committee and the Permanent Subcommittee on Investigations have supported
the need for law enforcement authority for OLR.

This authority would permit OIG special agents to perform all usual law enforcement
functions, including executing search warrants and making arrests. Currently, OIG special
agents are forced to rely on assistance from other Federal, State, and local law
enforcement agencies in order to carry-out the Department       of Labor's agency-specific
responsibilities.  This lack of basic law enforcement authority impedes the ability of the
OIG to discharge a number of critical aspects of our investigations and presents a real
problem of safety for our witnesses and agents.

Since 1987, the Department of Justice (DO J) has appointed all qualified OLR Special
Agents as Special Deputy U.S. Marshals annually. Such authority has added demonstrably
to the effectiveness and efficiency of OLR field operations.   OLR now is better able to
continue those enforcement       efforts that are potentially  hazardous   to agents and
cooperating third parties. While this temporary authority has proved beneficial, it has only
been a palliative remedy and does not adequately meet OLR's need for permanent law
enforcement powers necessary to ensure success and credibility.

Case-by-case deputation of OI special agents is not only inadequate, but the inherent
inadequacies have been exacerbated by a request and renewal process which has proved
to be a bureaucratic, administrative nightmare.    During the first 9 months of Calendar
Year 1992, the DOJ approved almost 500 individual deputations for OI agents. These
requests required an average of almost 45 days for DOJ to process, but individually ranged
as high as 85 days to be completed.

It is important to recognize that during the period that we are waiting for DOJ approval
of our deputation requests, cases may come to a virtual halt, opening up the possibility
of evidence and witnesses disappearing, records becoming lost, and memories fading.

While it is clear that statutory law enforcement authority for all OIG special agents would
provide for the most efficient operation of our criminal investigative program, at a
minimum, OI agents need to have annually-renewable        deputation in the interim. We are
continuing to hold discussions with DOJ officials and hope that we can reach a mutually
acceptable agreement.


                                            93
Exemption of Undercover OLR Operations       from Certain Laws

The OIG continues to work with the Department on the draft bill titled "The Department
of Labor Office of Inspector General Undercover Operations Amendment of 1991." The
bill would exempt the undercover operations of the OIG's Office of Labor Racketeering
(OLR) from certain laws and would permit the use of proceeds from undercover
operations to offset necessary and reasonable expenses.

During undercover operations, it is frequently necessary to set up a business lease office
space, open a checking account, etc., using a fictitious name.    It is essential that the
existence of the fictitious business and false name used by the undercover agent remain
secret to ensure the success of the undercover operations and to protect the safety of the
undercover agent.

Although the OIG engages in undercover ope,rations, it lacks the authority to carry out
some activities necessary to conduct them. The OIG seeks an exemption from certain laws
similar to that of the Federal Bureau of Investigation and the Department  of Treasury.


PRESIDENT'S     COUNCIL ON INTEGRITY            AND EFFICIENCY     ACTIVITIES

The President's Council on Integrity and Efficiency (PCIE) was established by Executive
Order to coordinate and enhance governmental efforts to promote integrity and efficiency
and to detect and prevent fraud, waste, and abuse in Federal programs.

The PCIE is chaired by the Deputy Director for Management               of the Office of
Management     and Budget, and its members include all of the Presidentially appointed
Inspectors General, the Controller of the Office of Federal Financial Management;      the
Associate Deputy Director for Investigations of the Federal Bureau of Investigation; the
Director of the Office of Government Ethics; tlhe Special Counsel of the Office of Special
Counsel; the Vice Chair of the Executive Council on Integrity and Efficiency; and the
Deputy Director of the Office of Personnel Management.

Labor Inspector General, Julian W. De La Rosa, was recently appointed to serve as PCIE
Vice Chair. In his capacity as Vice Chair, Mr. De La Rosa works closely with the Deputy
Director for Management of the Office of Management and Budget and with the Inspector
General community to carry out the functions of the Council. He also serves on many
interagency committees where he represents the interests of the Council.

During this reporting period, under Mr. De La Rosa's leadership, the DOL-OIG has been
leading a Governmentwide     review to determine whether Federal employing agencies are
efficiently and effectively managing their responsibilities under the Federal Employees'
Compensation Act (FECA).        Moreover, the DOL-OIG developed an audit guide to be

                                           94
used by Federal audit offices when reviewing their respective agencies' administration of
their FECA claims. The DOL-OIG has also led a team to develop an audit guide to be
used by other Federal Departments when reviewing their respective financial statements
for conformance with the Chief Financial Officers Act.




                                           95
                             OFFICE        OF INVESTIGATIONS



During this period, investigations of the Job Training Partnership Act (JTPA) and the
Federal Employees' Compensation Act (FECA i) programs, contract and procurement fraud,
and employee misconduct continued to be the Office of Investigations' (OI) national
priorities. An appreciable amount of effort was concurrently expended in unemployment
insurance     (UI) interstate   fictitious employer/employee    and third-party    false claims
investigations.   During this fiscal year, we reached a consistent level of effort in the JTPA
area, in which the OI continues to devote around 40 percent of its investigative time. The
OI attention afforded FECA investigations also remains constant, at about 25 percent of
OI's investigative time.      OI devoted almost 15 percent and about 10 percent of its
investigative time, respectively, to UI investigations and employee misconduct matters.

In addition to achieving 169 indictments and 162 convictions during FY-92, OI also
generated $9.9 million in monetary accomplishments.          Therefore, notwithstanding   the
significant deterrent benefits derived from these indictments and convictions, OI monetary
accomplishments      alone represent   a 15 percent return on the American         taxpayer's
investment over the $8.6 million that was appropriated for this activity in FY-92.


Inefficiencies   Still Plague Deputation    Request Process

In our last report, we set forth the inefficiencies associated with the administrative process
used by the Department of Justice (DO J) to review and act on requests for the deputation
of OI Special Agents as special deputy U.S. Marshals.           We noted that the Inspector
General, along with three other Inspectors General, was engaged in discussions with the
Attorney General and other DOJ officials on this issue. Of particular concern to the
Inspectors General were the delays associated with the DOJ's review and action on
deputation requests.

Despite the meetings with DOJ officials and tlheir agreement to handle these matters in
a more timely manner, we have experienced a significant increase in the length of time
required by DOJ to process these requests. For example, during Calendar Year 1991, the
DOJ required an average of over 30 days to process just over 240 individual deputations
for OI agents.   During the first 9 months of Calendar Year 1992, the DOJ approved
almost 500 individual deputations for OI agents. These requests required an average of
almost 45 days for DOJ to process but, individually ranged up to 85 days to be completed.

The delays associated with the DOJ review process are so significant that they have an
adverse impact on the effectiveness and efficiency of OI investigations.




                                                96
OIG FECA Study

We reported in the last semiannual report that to comply with a request from the
Congress, the OIG's OI, with assistance from the U.S. Postal Inspection Service, conducted
a survey to determine the effect of the two agencies' combined convictions for FECA
fraud in Fiscal Years 1990 and 1991 on the continued receipt of benefits by convicted
claimants. The study has been completed and the results have since been forwarded to
the appropriate congressional recipients.


The following cases, listed by major program area, are illustrative      of the array   of
investigations which came to fruition during this period.


JOB TRAINING      PARTNERSHIP      ACT (JTPA)

      An OI-directed JTPA investigation, resulting from findings by the OIG's Office of
      Audit and the Department's       ETA, revealed that employees of the National
      Association for the Advancement      of Colored People's Project Rebound were
      falsifying participant placement and retention records to fraudulently obtain JTPA
      program funds. The New York City-based Project Rebound had served as a major
      JTPA on-the-job training (OJT) broker for many years, receiving multi-million-
      dollar JTPA contracts to identify and place individuals in OJT positions in the New
      York City area.

      The investigation of the activities of Project Rebound and major sub-contractors,
      who were to actually supply the OJT, disclosed that some $632,000 in fraudulent
      JTPA payments were received from 1987 through 1991. The fraudulently-obtained
      payments were made for training allegedly provided to participants who had never
      worked for, or who were already working for the subcontractors, or who had been
      terminated from employment prior to completion of the required work and training
      period.

      To date, four former Project Rebound account executives and/or placement
      counselors have pled guilty to charges of having embezzled Federal funds and have
      been sentenced.    They are: William Raynor who was sentenced to 18 months'
      imprisonment;    Emmanuel     Sledge who was ordered       to serve 10 months'
      imprisonment concurrently with a State prison term for grand larceny; and Johnnie
      Jones who was sentenced to 6 months' electronically monitored house arrest. Each
      of the defendants was ordered to serve 3 years' probation after incarceration. The
      fourth defendant in this category, Barbara Parsons, was sentenced to 2 years'
      probation.


                                            97
    Additionally, three other subcontractors and/or their employees have also pled guilty
    to mail fraud charges and have been sentenced for their roles in the scheme. They
    are: Dennis Glennen, the former director of personnel for The Riese Organization
    (a fast food and real estate holding corporation) and his assistant, Lana Johnson,
    who were sentenced to 6 months' electronically monitored house arrest. Glennen
    was placed on 5 years' probation while Johnson's sentence included 3 years'
    probation.    To satisfy any liability against it, The Riese Organization agreed to
    repay $70,000 to the Government for any fraudulently induced JTPA funds it may
    have received.

    The third defendant     in this group, Sarah Bolden, the owner/operator   of the
    Hairstyling Palace and an OJT subcontractor,        was sentenced  to 3 months'
    electronically monitored house arrest and 5 years' probation, and ordered to pay
    $7,556 restitution.  U.S.v. Raynor et al. (S.D. New York)

    On July 2, 1992, ETA rendered an initial[ determination letter to the mayor of Gary,
    Indiana, advising that as a result of the joint OIG and Internal Revenue Service
    investigation   of Gary     Manpower     .Administration  (GMA),      Comprehensive
    Employment and Training Act (CETA) costs in the amount of $1,304,500 were
    being disallowed. This was the result of a collaborative OIG and ETA followup to
    a 5-year investigation into fraud and corruption at GMA.

    This investigation previously resulted :in the conviction of the former top two
    officials of GMA on charges of racketeering, racketeering conspiracy, bribery, and
    conspiracy to defraud the DOL. The investigation was followed by the conviction
    of 10 other former GMA employees and/or job training contractors on various fraud
    charges. As a City of Gary entity, GMA administered approximately $95 million
    in CETA funds during its 1974 to 1984 existence.          U.S.v.   Gary Manpower
    Administration (N.D. Indiana)

-   Joseph J. Santopietro, the former mayor of Waterbury, Connecticut, was sentenced
    on June 12, 1992, to 9 years' incarceration, fined $25,000, assessed a mandatory
    $900, and ordered to make restitution (1:o be determined at a later date) for JTPA
    funds embezzlement.      Santopietro and six others exploited their political party's
    control to gain favorable action on certain City of Waterbury projects. Santopietro
    had been found guilty of, among other things, using JTPA money to defray personal
    travel expenses.

    For his part in the scheme, John Bolinsld, forn_ter fiscal officer for the Department
    of Employment, Education and Grants Admini,;tration (DEEGA) - the agency that
    administered JTPA funds in Waterbury' - was sentenced on May 13, 1992, to 30
    days' imprisonment,    ordered to perforrn 150 hours of community service, fined
    $1,500, and ordered to pay $1,500 in restitution.  On May 14, 1992, Joseph Carrah,

                                          98
    former administrator of DEEGA, was sentenced to 4 months' in jail and 3 years'
    probation, and ordered to perform 500 hours of community service and to pay
    $20,000 restitution. U.S. v. Santopietro et al. (D. Connecticut)

    Subsequent     to our last report, Bobby Lee Hill, a former State of Georgia
    Representative,     was sentenced on May 28, 1992, to 12 months' incarceration
    followed by 3 years' supervised probation, and ordered to pay $3,973 restitution and
    a $1,700 fine. Charles Key, a former City of Savannah revenue officer and JTPA
    participant, was also sentenced the same day to 5 months' imprisonment, followed
    by 5 months' home detention, 3 years' supervised probation, and ordered to pay
    $5,036 restitution.   Both defendants were also required to enter a substance abuse
    program. Hill was released on bond pending an appeal. Key's incarceration began
    on June 29, 1992. U.S.v. Hill and Key (S.D. Georgia)

    As a followup to our preceding report, defendant Ezra Bolds was sentenced on
    June 9, 1992, to 15 months' imprisonment and ordered to pay $15,000 restitution
    and a special assessment. Co-defendant Ronald Bible was sentenced to 18 months'
    imprisonment and ordered to pay a $250 special assessment. As on-the-job training
    (OJT) employers, doing business as K & K Sight and Sound, Balloon Surprises, and
    Amusement       Vendors, the pair devised a scheme which defrauded the JTPA
    program       of $140,000 which was intended          for eligible OJT participant
    reimbursements.     Over 50 individuals were recruited by the defendants to pose as
    participants.    The OIG's investigative findings resulted in an April 16, 1992, cost
    disallowance by ETA of over $300,000. U.S.v. Bolds and Bible (C.D. California)

    From a case detailed in our previous semiannual report, on August 7, 1992, Gary
    R. Stewart, the former City of Ocala, Florida director of public works, was
    sentenced to 3 years' probation, 250 hours of community service, and fined $4,000.
    The sentence follows Stewart's guilty plea to filing a false claim against the
    Government.

    On July 14, 1992, defendant Sylvester Smith pled guilty to making false claims and
    aiding and abetting. Smith was instrumental in assisting Shelton Eugene Wood, a
    prominent Florida JTPA training and placement contractor (and third defendant
    in this case), and Stewart in obtaining over $180,000 in JTPA funds by filing false
    JTPA claims. In the process, Smith prepared 14 sets of bogus counsellor notes to
    support false JTPA claims pertaining to a contract between the State of Florida and
    Wood. Wood previously pled guilty to two counts of making false JTPA claims
    and, along with Smith, is awaiting sentencing.   U.S.v. Wood (M.D. Florida)

-   Harriet   Herndon   and   Velma   Molina   the former   owners   of Seven   to Seven
    Answering Service; Oliver Glover, owner of L & D Coiffures; and D. L. Stevens,
    owner of Classic Car Care, who had pled guilty to criminal informations charging

                                          99
    them with theft of JTPA funds, were sentenced during this reporting period as
    follows: Herndon and Molina were each sentenced to 3 years' probation; Glover
    was sentenced to 1 year imprisonment (suspended), 150 hours of community service,
    and 3 years' probation; and Stevens was sentenced to 5 years' probation and 300
    hours of community service.

    Jerry Curvey, owner of Grey Street Automotive, withdrew his previous guilty plea.
    Subsequently,  he was tried and found guilty on September      16, 1992. He is
    scheduled to be sentenced in November. These. sub-contractors of a Houston JTPA
    program conspired with Job Developer Gha'is Lateef to defraud the JTPA program
    of over $65,000, as reported in our last semiannual report. False and fraudulent
    time sheets were prepared by the subcontractors         and certified by Lateef for
    submission to the Houston Job Training Partnership Council. Participants who were
    enrolled in the JTPA program did not receive the reported training. Instead, the
    JTPA reimbursements were divided between Lateef and the subcontractors.      Lateef,
    who pied guilty on July 31, 1992, was placed on 5 years' probation; and ordered to
    pay restitution of $1,196, a fine of $6,816, and a special assessment of $100. U.S.
    v. Gha'is Lateef Service (S.D. Texas)


UNEMPLOYMENT      INSURANCE      (UI) PROGRAM

-   On June 4, 1992, James Arthur Wilson and his wife Nancella Marcella Wilson were
    indicted on 142 counts of various Federal violations. The Wilsons were involved
    in an eight-State unemployment       insurance (UI) fraud scheme.       Their arrests
    resulted in the seizure of a quantity of marijuana plants, false identifications, and
    semiautomatic handguns.

    The Wilsons used false social security numbers, birth certificates, and other forms
    of identification to set up unemployment insurance accounts with assorted State
    Employment Security Agencies. False applications were then used to apply for UI
    benefits. The couple used as many as eight aliases to request fraudulent UI claims
    in Georgia, Michigan, Minnesota, Missouri, New York, Oregon, Washington, and
    Wisconsin.

    On June 29, 1992, James A. Wilson pied guilty to five counts of the indictment
    which included conspiracy, mail fraud, social security fraud, firearms, and drug
    charges.   He faces a maximum sente, nce of 40 years' imprisonment,     17 years'
    probation, and fines totalling $1.5 million.

    Nancella M. Wilson pied guilty to a criminal information (which superceded her
    indictment) on September 22, 1992. She faces a maximum sentence of 25 years'


                                         100
    imprisonment and a $750,000 fine. The Wilsons are scheduled to be sentenced       on
    November 3, 1992. U.S.v. Wilson and Wilson (N.D. Georgia)

    As reported in our last semiannual report, Paul Louie and two accomplices,
    Coriolano Romero and Jimmy Leon, breached the Massachusetts Department of
    Employment     and Training's    computer system and generated          unemployment
    insurance (UI) benefits checks payable to other conspirators.       The loss exceeded
    $100,000 in both extended and regular UI benefits. Louie and Leon pied guilty (on
    August 5 and May 19, 1992, respectively) to four counts of the indictment including
    conspiracy, offering a bribe, theft, and use of a false social security number. They
    are scheduled to be sentenced on October 8, 1992. Romero, aware of the possible
    indictment, fled to Venezuela where he remains a fugitive. U.S.v. Louie et al. (D.
    Massachusetts)

    As a followup to our last report, Ronald Sieber and Sharon Brewer each pied guilty
    to one count of making false statements.     They were sentenced on July 31, 1992,
    to time served and 5 years' probation and ordered to make restitution of $3,692 and
    $3,818, respectively.  Their pleas and sentencing stem from an indictment which
    alleged that they filed false claims for UI benefits using the identities of deceased
    Colorado residents and false social security numbers. Through this scheme, Sieber
    and Brewer obtained over $87,000 in UI benefits. U.S.v. Sieber and Brewer (D.
    Colorado)


FEDERAL EMPLOYEES' COMPENSATION                ACT (FECA) PROGRAM

    Sampson Wolfchief was convicted on July 9, 1992, of practicing physical therapy
    without a license. An OIG investigation disclosed that he defrauded the OWCP
    of about $20,000 by falsely billing the DOL for treating a FECA claimant.
    Wolfchief was sentenced to 8 months' imprisonment and 3 years' probation, and
    fined $360. Arizona v. Wolfchief (Arizona)

    On August 5, 1992, Daniel C. Burleigh, a former U.S. Postal Service clerk, was
    indicted on six felony counts of making false statements to OWCP. Following a
    1972 work-related injury, Burleigh was found "temporarily disabled" and received
    approximately $193,000 in FECA benefits. The indictment alleges that Burleigh
    failed to notify OWCP that, since 1985, he has been self-employed as a principal
    operator of a dog and cat kennel. This was a joint investigation with the Postal
    Inspection Service. U.S.v. Burleigh (D. New Hampshire)

    On September 18, 1992, Kenneth W. Furbush pled guilty to four counts of a six-
    count indictment charging him with mail fraud and making false statements.   He
    is scheduled to be sentenced in November.   The indictment and plea stem from a

                                         101
     1985 claim by Furbush that he injured his back while employed as a Naval shipyard
    welder. He received some $150,000 in FECA benefits while failing to notify OWCP
    that he was a joint owner and operator of an excavation business. This was a joint
    investigation with the Naval Investigative Service.     U.S.v. Furbush (D. New
    Hampshire)

-   John R. Salvagno was charged on May 28, 1992, by a Federal grand jury, with four
    counts of mail fraud and three counts of filing false statements. Salvagno, a former
    laborer at the Davisville Naval Base in North Kingston, Rhode Island, claimed that
    in 1986, while lifting an ice machine, he suffered a strained neck. Since then, he
    has received in excess of $90,000 in FECA benefits. The indictment alleges that
    Salvagno failed to notify OWCP that he was the owner, operator, and manager of
    a pest-control business. This was a joint investigation with the Naval Investigative
    Service. U.S.v. Salvagno (D. Rhode Island)

-   Dr. Andrew E. Brandon was convicted on September 2, 1992, of 130 counts of a
    136-count indictment.     Following his conviction, Brandon was debarred by the
    OWCP.      As reported in our last semiannual report, Brandon, an audiologist and
    hearing aide specialist, was charged with mail fraud and making false statements
    by billing both OWCP and Medicare for the same services, as well as submitting
    claims for audiological tests that were not performed. This was a joint investigation
    with the OIG, Department       of Health and Human Services. U.S.v. Brandon (D.
    New Hampshire)

    As a followup to our last semiannual report, on April 20, 1992, Ronald B. Ballard,
     a former Tennessee Valley Authority employee, pled guilty to mail fraud. He was
    sentenced to make restitution in the amount of $84,733, serve 6 months' home
     detention and 5 years' probation.   Ballard had claimed disability from an on-the-
    job injury and was paid over $84,000 in OWCP benefits while he was concurrently
    self-employed as a farrier in western Kentucky. U.S.v. Ballard (W.D. Kentucky)

    Following his guilty plea, Harlin E. Welch, a former U.S. Postal Service employee,
    was sentenced on April 23, 1992, to 36 months' probation and ordered to make
    $79,356 restitution   for submitting  a false statement    to fraudulently  obtain
    approximately $120,000 in FECA benefits from the OWCP. As reported in our last
    semiannual report, Welch had been employed as a rural mail carrier when he
    sustained an elbow injury in 1979. Welch received FECA benefits, from 1979
    through 1991, while operating his used automobile business, without reporting his
    self-employment to OWCP. This investigation was conducted jointly with the Postal
    Inspection Service. U.S.v. Welch (W.D. VirgJinia)

-   Linda K. Richardson, a former Bureau of Alcohol, Tobacco, and Firearms Special
    Agent, was sentenced on July 20, 1992, to 5 months' imprisonment and 5 years'

                                         102
    supervised probation following incarceration.  She was ordered to pay $23,893 in
    restitution. Richardson was found guilty by a Federal jury of failing to report her
    income from a family business, Executive Safeguard Corporation, to OWCP and
    making false statements    to collect approximately $58,000 in FECA disability
    benefits, as reported in our September 30, 1991, semiannual report.          U.S.v.
    Richardson (C.D. California)


BLACK LUNG (BL) PROGRAM

-   As a followup to our last semiannual report, John C. Lish was sentenced on
    September 21, 1992, to 37 months' imprisonment and 2 years' probation.        The
    sentence followed a guilty plea by Lish on April 29, 1992, to charges that he
    conspired with others to commit mail fraud by presenting false claims for payment
    to the DOL's black lung program and to the Department       of Health and Human
    Services' (HHS) Medicare Program. Lish was president of Penn Medical Services,
    Inc. (Penn), a provider of durable medical equipment and oxygen used by black
    lung patients. As previously reported, David A. Polvinale, the former manager of
    Penn, and Steve M. Crowe, a former Penn employee, pled guilty to one count each
    of criminal conspiracy and making a false claim to the DOL. Lish, Polvinale, and
    Crowe will be sentenced at a later date. They each face a maximum sentence of
    5 years' imprisonment and fines of $1.6 million. This is an ongoing investigation
    being conducted jointly by the OIG, the HHS-OIG, the Postal Inspection Service,
    and the Pennsylvania State Medicaid Fraud Unit. U.S.v. Polvinale et al. (W.D.
    Pennsylvania)

-   Carl David Pack was sentenced on July 10, 1992, to 4 months' imprisonment, to be
    followed by 5 years' probation, and ordered to pay over $17,000 in restitution and
    interest, after pleading guilty to one count of making false claims.      Pack had
    operated United Medical Inc., in Huntington, West Virginia, which provided durable
    medical equipment to black lung patients.    He falsified reimbursement  claims for
    oxygen equipment that was either not supplied or was unnecessary.         After his
    indictment on May 23, 1989, Pack kidnapped his daughter from her mother who
    had legal custody, fled from the area, and failed to appear for arraignment.

    Acting on a request from the American legal attache in Guadalajara,         Mexico,
    authorities apprehended Pack on December 4, 1991, and deported him the following
    day on immigration charges related to his failure to inform authorities that he was
    a fugitive on State and Federal charges in the United States. Pack was arrested
    by the FBI upon arriving at Fort Worth, Texas. He waived preliminary proceedings
    and was returned to West Virginia. U.S.v. Pack (S.D. West Virginia)




                                        103
WAGE AND HOUR DMS[ON

    On August 18, 1992, Charles Thomas, doing business as Thomas Construction
    Company, pled guilty to mail fraud and making false statements.         In his plea
    agreement, Thomas admitted that he falsified certified payroll records he submitted
    to the Department of Housing and Urban Development.          He acknowledged that
    he had underpaid his employees $100,000 in wages and benefits. This investigation
    was conducted jointly by the OIG and the Postal Inspection Service, with the
    assistance of the DOL Wage and Hour Division. U.S.v. Thomas (N.D. Illinois)




                                        104
                          Complaint   Analysis   Office Activities
                                April 1 - September 30, 1992




Breakdown of Allegation Reports by Source:

        Walk-in                                                        0
        IG Hotline                                                    12
        Letters from the Congress                                      7
        Letters from individuals or organizations                    146
        Letters from DOL agencies                                      0
        Letters from Non-DOL agencies                                  0
        Incident Reports from DOL agencies                             2
        Reports by Special Agents and Auditors                         3
        Referrals from GAO                                             1
Total                                                                171



Breakdown of Allegation Reports         by Referral:

        Referred   to Office of Audit                                 4
        Referred to Office of Labor Racketeering                       3
        Referred to Office of Investigations Regional   Offices       38
        Referred to DOL program management                            83
        Referred to other agencies                                    20
        No further action required                                     1
        Pending action at end of period                               22
Total                                                                171




                                                 105
                                                  APPENDIX
                                            Office of Investigations
                                          Financial Accomplishments

CATEGORIES 1                                                                                        AMOUNT

Recoveries:                                                                                         $3,057,688
                   (Expenditures to be recovered and/or reprogramme&    This includes
                   the dollar amount of management's commitment to seek recoveries
                   and adjustments. This is a quantification of an agency's action in
                   response to the Inspector General's recommendation to recover
                   funds and/or to make adjustments.)

Cost Efficiencies:                                                                                  $ 889,230
                 (The    one-time      and/or  per    annum    dollar  amount/value      or
                 management's       commitment      to utilize    more   efficiently    the
                 Government's     resources.     This category is a quantification        of
                 management's      action in response      to the Inspector      General's
                 recommendation      to prevent improper obligations or expenditures of
                 agency funds or to improve agency systems and operations, thereby
                 avoiding further unnecessary expenditures.)

Restitutions:                                                                                       $   754,154
                   (The dollar amount/value          of restitution ordered. This category
                   reflects restitutions      ordered as a result of Inspector    General
                   investigative activities.)

Fines/Penalties:                                                                                    $    69,935
                   (The dollar amount/value    of fines and penalties assessed.      This
                   category reflects fines and penalties assessed as a result of criminal
                   and civil action instituted as a result of the Inspector General's
                   investigations.)

Civil Monetary:                                                                                     $ 277,603
                   (The dollar amount/value      of settlements   and judgments   rendered   as
                   a result of civil actions.)

Forfeiture/Court     Costs:                                                                         $   126,291
                   (The dollar amount/value of forfeiture and court costs assessed as a
                   result of criminal and civil action instituted as a result of the
                   Inspector General's investigations.)

Total                                                                                               $5_174_901




    1 Source of these definitions (except "Civil Monetary" and "Forfeiture/Court        Costs"): "Investigative
Case Tracking Systems, Agents' Instruction Manual", dated October 1985.

                                                       106
                                  OFFICE     OF AUDIT



Durlng this reporting period, 246 audits of program activities, grants, and contracts were
issued. A list of these audit reports is contained in the Audit and Schedules section of this
report.   Of these, 44 were performed by OIG auditors, 31 by CPA auditors under OIG
contract, 2 by Defense Contract Audit Agency auditors, 23 by state and local government
auditors for DOL grantees and subrecipients, and 146 by CPA firms hired by DOL grantees
or subrecipients.

Our audit priorities for this period included the Job Training Partnership Act and the
Department's Financial and Information Resources Management.    Audit-related narratives
are detailed in the ETA, ESA, OSHA, MSHA, SOL, Financial Management,                  and
Departmental  Management sections of this report.


SPECIAL INITIATIVES       FOR FISCAL YEAR 1993

To establish its audit priorities, the Office of Audit has considered those factors required
by OMB Circular A-73. Consistent with this, the Office of Audit has outlined broad areas
of priority for FY-93 (as listed in the Annual Audit Workplan for Fiscal Year 1993).
Evolving from the priorities are areas of special initiatives.   These are areas of activity
broader than a specific audit project and which involve the investment of considerable audit
resources.  The following are the Office of Audit's major special initiatives for FY-93:

Financial Management

Strong financial management is critical to effective overall management and accountability.
Because of this, the Department's     financial management    activities have been, and will
continue to be, an important focus of the OIG's audit workplan.

Implementation     of the Chief Financial Officers (CFO) Act served as a catalyst for
improvements in the Department's     financial management during FY-92. Two changes are
especially noteworthy. First, departmental management, rather than the OIG, compiled and
prepared the FY-91 consolidated financial statements of the Department.      Second, the
Department included program performance measures along with financial information for
each program agency. These are significant first-time events.

These actions have set the stage for planned OIG efforts for FY-93. The OIG plans to
audit the financial statements of the Department at the combining, or agency, level (rather
than the consolidated level) through audits of the Department's major agencies, trust funds,
and Working Capital Fund. The OIG also plans to audit several functional areas including
payroll, grant, and contract management systems, as well as the FMFIA process. The OIG



                                             107
will also begin a review of the Department's     development      of program   agency measures       of
performance.

Program Agency Measures of Performance

The CFO Act requires that program agency financial management                 systems provide
meaningful measures of performance.       While the development of performance measures is
the responsibility of several departmental agencies, linking these performance measures with
financial data, especially audited financial statements, may provide reliable information to
enable management to make fully informed decisions related to the quality and costs of
program delivery.

During Fiscal Year 1993, the OIG will begin the evaluation of the                     Department's
performance measurement systems to determine if they provide adequate:

        •      identification of performance measures,
        -      collection of performance-related     data,
        •      measurement and analysis of results,
        •      evaluation and interpretation    of results, and
        •      internal and external reporting of results.

The review will also include an evaluation     of the Department's      development     process   for
performance measures.

Information   Resources Management

The need for enhanced information resources technology continues to increase while
Department     officials are faced with meeting the increased demand with diminishing
budgetary resources.     This has required that tile Department and agency managers create
a workable IRM strategy that provides the vision and framework for meeting future needs.
Only an effective IRM program can provide more efficient service to the public and
achieve effective administration and management of scarce information resources.

To assist in meeting these needs, the OIG has developed a strategic plan for auditing IRM
in the Department   over the next few years. A summary of this plan is found on page 63.

Job Training Partnership Act Amendments

The OIG played a significant role in the process that produced the JTPA amendments.
These amendments address many of the program's weaknesses previously identified by the
OIG. The OIG will provide the technical assistance requested by ETA as it develops the
regulations implementing the amendments.   The OIG will also monitor program activities
under the new regulations to determine the extent of increased program accountability.



                                               108
See page 25 for a more detailed        explanation     of the most important     elements   of the JTPA
amendments.

Trade Adjustment Assistance

The Trade Adjustment Assistance (TAA) program is scheduled for reauthorization         by the
Congress in FY-93. The OIG has begun a review of the effectiveness of this program. See
page 40 for the results of OIG audit activity for this special initiative which was completed
as of September 30, 1992.

The OIG will continue       this audit     work      into FY-93.     The objectives     will include   an
evaluation of whether:

•      program   participants     covered      by     certified    TAA   petitions    obtained   suitable
       employment,

•      program   training assisted participants        in finding suitable employment,

•      workers were appropriately         notified of their entitlement      to approved    training and
       weekly allowance, and

•      program   reports   submitted     by the States are accurate.

Because initial indications are that information on certain program outcomes is lacking, the
audit will also provide data for program managers and the Congress on these program
outcomes.

ERISA Pension Plan Terminations

The OIG recently conducted preliminary          audit work in the area of pension plan
terminations covered by the Employee Retirement Income Security Act (ERISA).          The
purpose of this work was to determine if PWBA's level of involvement in the pension plan
termination process affords an adequate level of protection to plan participants against
illegal acts by fiduciaries and others. The OIG also sought to determine if coordination
and cooperation among the three Federal agencies charged with implementing ERISA
(PWBA, the Pension Benefit Guaranty Corporation, and the Internal Revenue Service) are
effective in protecting plan participants during the termination process.

Initial indications are that problems exist in each of the above areas. In FY-93, the OIG
plans to conduct a full audit of ERISA pension plan terminations which will include a
statistically valid sample of plan terminations large enough to project results to the universe
of ERISA plan terminations.




                                                     109
         Section   IV




Audit Schedules    and Tables




             111
113
                      Summary   of Audit Activity of' DOL Programs
                          April 1, 1992 - September    30, 1992



                       Reports       Grant/Contract                      Questioned Costs
Agency                  Issued      Amount Audited t            Unsupported               Other z

OSEC                           1      $                   0      $              0        $                0

VETS                          3                 252,774                         0                         0

ETA                         170      117,124,814,479                 9,547,061                  647,440

ESA                           9       12,068,794,321                            0                14,555

MSHA                          4             156,542,020                         0                         0

OASAM                        13       71,217,518,664                  325,994                41,810,479

OIG                           1                           0                     0                         0

OSHA                          7             265,030,713                 14,364                  309,486

BLS                           1                   71,593                        0                      0

PWBA                          1                           0                    0                       0

Multi-Agency                 32           2,140,739,323            11,868,981                   561,102

OT AGY                        4                           0                    0                       0

Totals                     246     $202,973,763,887              $21,756,400             $43,343,062

_Grant/ContractAmountAuditedareoverstatedbecause,in somecases,expenditureswere auditedat morethanone
level as funds werepassed down from Departmentto programagencyto program office to grantee/contractorto
subrecipient.

2OtherQuestionedCostsinclude$42,091,305in Funds Recommendedfor BetterUse as reportedin AuditReports
18-92-017-03-365,RuralAlabamaDevCorp- WeaknessesCashMgmt,$280,826;12-92-029-07-711,AcctsPayable,
Undelivered Orders & Disbursements,$41,187,720; and 12-92-02;0-07-710,Working Capital Fund Financial
Statements,$622,759.




                                                   114
          Summary     of Audit Activity       of ETA Programs
              April    1, 1992 - September       30, 1992


          Reports      Grant/Contract                      Questioned Costs
Program    Issued     Amount Audited              Unsupported               Other


ADMIN           2     $116,621,944,000              $            0    $          0

UIS             2             1,120,742                          0               0

USES            3           100,079,138                          0               0

OTAA            1                         0                      0               0

JTPA           26            59,984,009              6,414,866             353,667

CETA            4               285,934                  285,934                 0

DINAP          81            30,382,430                  306,134                 0

DOWP            9          221,937,454                     17,079                0

DSFP           25            33,594,855                  755,005          280,826

OJC            12            54,020,062                 1,387,675           12,947

OSPPD           5             1,465,855                  380,368                 0

Totals        170     $117,124,814,479              $9,547,061            $647,440




                                   115
               Summary         of Audits        Performed       Under        the Single     Audit      Act
                                 April    1, 1992 - September                30, 1992




                                                                    DOL
                 Entities          Reports           Grant/Contract                     Questioned Costs
Agency           Audited            Issued          Amount Audited               Unsupported            Other

VETS                      0                 3        $          252,774           $                0         $        0

ETA                     59               126             411,891,075                     742,902                      0

MSHA                      0                 1                    121,020                           0                  0

OSHA                      2                 4               1,659,854                              0                  0

BLS                       1                 1                     71,593                           0                  0

Multi-Agency            15                32          2,140,739,323                   11,868,981                 38,060

OT AGY                   2                  2                            0                      0                     0

Totals                  79               169         $2,554,735,639               $12,611,883                $38,060



Note: DOL has cognizant responsibility for specific entities    under the Single Audit Act. More than one audit report
may have been transmitted or issued for an entity during this   time period. Reports are transmitted or issued based on
the type of funding and the agency/program responsible for      resolution. During this period, DOL issued reports on
79 entities for which DOL was cognizant; in addition, DOL       issued 70 reports which included direct DOL funds for
which DOL was not cognizant.




                                                         116
              Summary         of Audits Performed Under the Single Audit Act
                                 Multi-Agency Program Reports
                                April 1, 1992-September 30, 1992




                                Number of                           Questioned        Costs
  Program                    Recommendations              Unsupported                    Other


ETA:
  UIS                                      7             $        18,508           $523,042
  SESA                                     4                       3,148                       0
  JTPA                                    13                 11,847,325               38,060

Totals                                    24             $11,868,981               $561,102


Note: Multi-Agency Program Reports relate to Single Audit reports. The report may be on a statewide audit where
DOL has accepted "lead" cognizancy or it may be on a single entity under the direct responsibility of DOL. If multiple
DOL programs were audited, the multi-agency designation was used. Individual recommendations within the report
designate which agency/program is responsible for resolution. Twenty-four recommendations are contained within
the 26 multi-agency reports issued this period.




                                                        117
118
119
120
         _1       _1              _   o

         _,_1                     _   _
         _i            o   ooo_       ,..,




     _                                _      o

'_




_                 _ o _oo_ _                 @




                                             o




              _                              N




                   i                         "




                                                 121
                                   Unresolved    Audits Over 6 Months
                                  April 1, 1992 - September         30, 1992

                                Audit                                             No of    Questioned
Agency        Program       Report Number       Name of Audit/Auditee              Rec           Costs

Under Litigation:

ETA          JTPA           04-92-014-03-340    DENNIS: AND ASSOCIATES - SC           4    $ 2,774,604
ETA          JTPA           05-91-012-03-340    SEATTLE KING CO OJT BROKER            2          29,221
ETA          JTPA           05-91-046-03-340    LOS ANGELES OJT PLACEMENTS            4         884,778
MULTI        ALLDOL         03-89-083-50-598    COMMONWEALTH OF PA                    1          78,270
MULTI        ALLDOL         03-91-012-50-598    COMMONWEALTH     OF PA                1          29,539

Awaiting Resolution:

ETA          .ITPA          05-91-054-03-330    SEL ELEM OF TAA ADMIN BY MESC 1      12        394,825
ETA          JTPA           04-92-020-03-340    SAVANNAH/CHATHAM       FUP 2          6       287,051
ETA          JTPA           04-92-021-03-340    FL UNRESTRICTED FND BAL/COMP 3        4     4,742,947
ETA          JTPA           05-92-003-03-340    JTPA PROG - JVS - CLEVELAND 2         2         64,437
ETA          JTPA           05-92-007:03-340    CLEVELAND - CLASSROOM TRNG 2          2         10,409
ETA          JTPA           05-92-009-03-340    INDIANAPOLIS NET CLSRM TRNG 2         2          8,449
ETA          JTPA           06-91-003-03-340    ADEQUACY ETA FIN RPTING 4             7       577,565
ETA          JTPA           06-91-013-03-340    NATIONAL ALLIANCE OF BUSINESS s       1               0
ETA          JTPA           06-91-019-03-340    DENVER SDA 5                    2             572,409
ETA          OJC            03-92-002-03-370    REG REV & PLACEMENT REV F/NY _ 3                4,067
OASAM        ADMIN          12-91-009-07-001    FY 90 CONSOLIDATED FIN STMTS 7 15                    0
OASAM        OPS            12-92-015-07-754    MERIDrAN   RESEARCH,    INC 8       21        492,097

Pending Indirect    Cost Negotiations:

OASAM        OPGM           05-90-049-07-735    ILLINOIS CMS, BCCS 9                  1     7,917,169
OASAM        OPGM           18-91-007-07-735    TAG - INDIRECT   COSTS 9             4         43,738
OASAM        OPGM           18-91-024-07-735    NATL GOVERNORS ASSOCIATION 9         3        646,002
OASAM        OPGM           18-91-035-07-735    OIC OF AMERICA DIRECT & IND 9       13        481,785
OASAM        OPGM           18-91-042-07-735    HOME BUILDERS INSTITUTE 9           13        285,112
OASAM        OPGM           18-92-002-07-735    JOHNSON, BASSIN & SHAW 9             2         83,812
OASAM        OPGM           18-92-013-07-735    HTB, INC - DMJM/HTB JOINT VEN 9      1        213,905
OASAM        OPGM           18-92-016-07-735    NTL ASSOC OF COUNTIES 9              3        694,785



TOTAL    AUDIT EXCEPTIONS:                                                         129    $21,316,967

Notes are located on the following page.




                                                    122
Notes to "Unresolved Audits Over 6 Months Precluded From Resolution"


1ETA issued a formal notice to the Michigan Employment Security Commission on March 20, 1992 in accordance
with the TAA regulations at 20 CFR 617.52(c). OIG is reviewing ETA's action to determine whether it is
sufficient to resolve the report.

2The States have 180 days to issue a Final Management Decision.     Program Agencies and OIG have an additional
180 days to accept the State-level decision.

3 Revised Initial Management Decision was issued and resolution is expected within 90 days.


4The OIG and ETA are in disagreement on ETA's use of the "First-In, First-Out" (FIFO) accounting method.
The OIG will request an opinion from the Comptroller General. The report will remain unresolved until a
decision is rendered.


s See the JTPA Section of this report for write-up on resolution.

6Management decision has been issued and resolution is expected in October 1992.


7Audit findings that are still unresolved from the FY 1990 consolidated audit report will not be resolved until we
obtain results of the FY 1992 audit. Audit tindings were carried forward to the FY 1991 audit which indicated
problems addressed in the findings still exist.

8The Final Management Decision of the Contracting Officer has been forwarded to the contractor allowing most
of the cost OIG questioned. We find the decision unacceptable and continue to request a legal opinion from the
Solicitor's representative to OASAM.

9OMB Circular A-50 does not require resolution within 180 days.




                                                        123
124
                 o ooo_o_o_ _,
                         _n     -

             $

         ._
         -_-_=   o   oooooooo       o

             Z



'"   _

•"   _




             ii
                                              i




                                        125
                                  Final Audit Reports Issued
                             April 1, 1992 - September 30, 1992
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


02-92-234-02-210     VETS     VETSPM   20-MAY-92    City of Hartford, Conn. - SA

02-92-249-03-315    ETA       UIS      21-MAY-92    The Virgin Islands U.I. Automation Grant

02-92-244-03-340    ETA       JTPA     24-APR-92    Hempstead/Longbeach       Consortium
02-92-258-03-340    ETA       JTPA     22-JUN-92    New York City SDA

02-92-222-03-345    ETA       CETA     14-SEP-92    City   of   Newark, New Jersey - SA
02-92-259-03-345    ETA       CETA     24-AUG-92    City   of   Elizabeth - SA
02-92-260-03-345    ETA       CETA     24-AUG-92    City   of   Elizabeth - SA
02-92-261-03-345    ETA       CETA     24-AUG-92    City   of   Elizabeth - SA

02-92-210-03-355"   ETA       DINAP    27-MAY-92    American Indian Community House, Inc - SA
02-92-211-03-355"   ETA       DINAP    26-MAY-92    American Indian Community House, Inc - SA
02-92-236-03-355*   ETA       DINAP    24-AUG-92    Native Amer Comm Svces of Erie & Niagara Co. - SA
02-92-241-03-355"   ETA       DINAP    04-MAY-92    Abenaki Self-Help Association, Inc - SA
02-92-252-03-355    ETA       DINAP    03-JUN-92    Indian Township Tribal Government - SA
02-92-263-03-355*   ETA       DINAP    16-SEP-92    Mashpee Wampanoag Indian Tribal Council, Inc - SA

02-92-235-03-380    ETA       SPPD     24-AUG-92    City of Syracuse - SA
02-92-250-03-380    ETA       SPPD     20-JUL-92    City of Waterbury - SA
02-92-256-03-380    ETA       SPPD     22-JUN-92    City of Waterbury, Dept Educ & Grants Mgmt - SA

02-92-239-50-598*   MULTI     AL/DOL   21-APR-92    State of New Hampshire - SA
02-92-242-50-598*   MULTI     AL/DOL   07-MAY-92    Training and Development Corp - SA
02-92-245-50-598    MULTI     AL/DOL   21-MAY-92    State of Vermont - SA
02-92-246-50-598*   MULTI     AL/DOL   10-JUN-92    Training and Development Corp - SA
02-92-251-50-598    MULTI     AL/DOL   10-IUN-92    State of Maine- SA
02-92-257-50-598    MULTI     AL/DOL   ll-SEP-92    Conmlonwealth of Massachusetts - SA

03-92-037-03-340    ETA      JTPA      28-SEP-92    PA Program Results and Auditors Compilation
03-92-044-03-340    ETA      JTPA      23-APR-92    OJT Training in West Virginia
03-92-054-03-340    ETA      JTPA      01-JUL-92    PIC of West Virginia
03-92-057-03-340*   ETA      JTPA      23-SEP-92    Mattaponi-Pamunkey Monacan Inc. - SA

03-92-036-03-360*   ETA      DOWP      11-SEP-92    National Council of Senoir Citizens, Inc. - SA
03-92-059-03-360*   ETA      DOWP      29-SEP-92    Green Thumb, Inc. - SA
03-92-063-03-360*   ETA      DOWP      30-SEP-92    American Association of Retired Persons - SA

03-92-006-03-370    ETA      OJC       06-APR-92    Los Angeles JCC AUP Report & Related Info PY 88
03-92-007-03-370    ETA      OJC       06-APR-92    Los Angeles JCC AUP Report & Related Info PY 89
03-92-010-03-370    ETA      OJC       10-APR-92    Los Angeles JCC Program Results Stmts PY 88 & 89




                                              126
                                 Final Audit Reports ]issued
                             April 1, 1992 - September 30, 1992
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


03-92-034-03-380*   ETA       SPPD     09-SEP-92     National Assoc of Rehabilitation Facilities, Inc - SA
03-92-039-03-380*   ETA       SPPD     11-SEP-92     Goodwill Industries - SA

03-92-052-04-001    ESA       ADMIN    30-JUN-92     FY 91 ESA Financial Statements

03-92-046-04-431    ESA       FECA     17-JUL-92     FECA AUP Seattle District Office FY 91
03-92-047-04-431    ESA       FECA     10-SEP-92     Disbursements for Div. of Fed Employees' Comp
03-92-048-04-431    ESA       FECA     17-JUL-92     FECA AUP Boston District Office FY91
03-92-049-04-431    ESA       FECA     17-JUL-92     FECA AUP Dallas District Office FY 91
03-92-050-04-431    ESA       FECA     17-JUL-92     FECA AUP New York District Office FY 91
03-92-051-04-431    ESA       FECA     29-JUL-92     FECA AUP Washington District Office FY 91               -

03-92-053-04-433    ESA       CMWC     30-JUN-92     FY 91 Black Lung Fin Stmts and Auditors Rpt

03-92-042-06-610    MSHA      CMSH     30-SEP-92     Imprvmnts Can Be Made in Spcl Investigations    Prog

03-92-055-50-598*   MULTI     AL/DOL   20-JUL-92     State of West Virginia - SA
03-92-062-50-598    MULTI     AL/DOL   22-SEP-92     State of Delaware - SA

04-92-040-02-210    VETS      VETSPM   16-JUN-92     City of Jacksonville - SA

04-92-043-03-320    ETA       USES     30-SEP-92     Survey of TJTC in Tennessee
04-92-056-03-320*   ETA       USES     30-SEP-92     South Carolina Employ Security Commission - SA
04-92-057-03-320*   ETA       USES     30-SEP-92     South Carolina Employ Security Commission - SA

04-92-030-03-340    ETA       JTPA     01-SEP-92     Dennis and Associates, Inc.
04-92-035-03-340    ETA       JTPA     16-APR-92     Mobile Consortium
04-92-037-03-340*   ETA       JTPA     28-MAY-92     Kentucky Domestic Violence Association,    Inc. - SA
04-92-039-03-340    ETA       JTPA     22-JUN-92     Gulf Coast Business Services Corp.
04-92-045-03-340    ETA       JTPA     29-SEP-92     Kentucky Literacy Commission
04-92-046-03-340    ETA       JTPA     29-SEP-92     Kentucky Counseling Contracts

04-92-036-03-355*   ETA       DINAP    20-MAY-92     Lumbee Regional Development Association - SA

04-92-041-03-365"   ETA       DSFP     17-JUN-92     MS Delta Council for    Farmworkers Opp Inc - SA
04-92-042-03-365*   ETA       DSFP     07-JUL-92     Homes in Partnership    - SA
04-92-052-03-365*   ETA       DSFP     03-SEP-92     LEE County Housing      Authority - SA
04-92-053-03-365*   ETA       DSFP     03-SEP-92     LEE County Housing      Authority - SA

04-92-050-10-101     OSHA     OSHAG    30-SEP-92     Special Examination of North Carolina OSHA Grants
04-92-054-10-101"    OSHA     OSHAG    14-SEP-92     Georgia Institute of Technology - SA




                                               127
                                 Final Audit Reports Issued
                             April 1, 1992 - September 30, 1992
                                          Date Sent
Audit                                     to Program
Report Number       Agency   Program      Agency        Name of Audit/Auditee


04-92-034-10-103"    OSHA     H/S    ST   20-APR-92     Greater Orlando Chamber of Commerce - SA

04-92-048-50-598    MULTI     AL/DOL      30-JUL-92     State of South Carolina - SA
04-92-055-50-598    MULTI     AL/DOL      28-SEP-92     Commonwealth of Kentucky - SA

04-92-044-98-599*    OT AGY NO/DOL        14-JUL-92     City of Louisville - SA
04-92-047-98-599*    OT AGY NO/DOL        27-AUG-92     Brevard County - SA
05-92-214-02-201     VETS   CONTR         09-JUL-92     Milwaukee County - SA

05-92-016-03-330    ETA       OTAA        28-SEP-92     Trade Adjustment Assistance Prog - WI DILHR

05-92-011-03-340    ETA       JTPA        20-MAY-92     Washington, D.C. JTPA Classroom Trng
05-92-012-03-340    ETA       JTPA        30-SEP-92     Baltimore - JTPA Classroom Trng

05-92-108-03-355"   ETA       DINAP       30-APR-92     Indian Center, Inc. - SA
05-92-112-03-355"   ETA       DINAP       07-JUL-92     MI Indian Employment & Training Services - SA
05-92-113-03-355"   ETA       DINAP       10-SEP-92     Nebraska Indian Inter-Tribal Development Corp - SA
05-92-114-03-355"   ETA       D/NAP       11-JUN-92     Wisconsin Indian Consortium - SA
05-92-210-03-355    ETA       DINAP       11-JUN-92     Bois Forte Reservation Business Committee - SA
05-92-211-03-355    ETA       DINAP       11-JUN-92     Fond Du Lac Reservation Business Committe - SA
05-92-212-03-355    ETA       D/NAP       17-JUN-92     Bois Forte Reservation Business Committee - SA
05-92-215-03-355    ETA       DINAP       10-JUL-92     Stockbridge-Munsee Community - SA
05-92-218-03-355    ETA       DINAP       21-JUL-92     Fond Du Lac Resrevation - SA
05-92-220-03-355    ETA       DINAP       23-JUL-92     Lac Courte Oreilles Band of Lake Superior - SA
05-92-221-03-355    ETA       DINAP       24-JUL-92     Sac and Fox Tribe of the Mississippi in Iowa - SA
05-92-222-03-355    ETA       DINAP       30-JUL-92     Red Lake Band of Chippewa Indians - SA
05-92-223-03-355    ETA       DINAP       30-JUL-92     Oneida Tribe of Indians of Wisconsin - SA
05-92-224-03-355    ETA       DINAP       30-JUL-92     Grand Traverse Band of Ottawa & Chippewa Ind - SA
05-92-225-03-355    ETA       DINAP       31-JUL-92     Inter-Tribal Council of Michigan, Inc - SA
05-92-226-03-355    ETA       DINAP       3I-JUL-92     Inter-Tribal Council of Michigan, Inc - SA

05-92-213-03-360    ETA       DOWP        17-JUN-92     Indiana Department of Human Services - SA

05-92-109-03-365"   ETA       DSFP        18-MAY-92     Rural Missouri, Inc - SA
05-92-111-03-365"   ETA       DSFP        17-JUN-92     Proteus Employment Opportunities,   Inc - SA

05-92-013-03-370    ETA       OJC         28-SEP-92     Detroit Job Corps Center

05-92-014-10-001    OSHA      ADMIN       29-SEP-92     FY 91 OSHA Financial Statements

05-92-209-10-101    OSHA      OSHAG       11-JUN-92     Ozark Foothills Regional Planning Commission - SA




                                                  128
                                 Final Audit Reports Issued
                             April 1, 1992 - September 30, 1992
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


05-92-110-50-598"    MULTI    AL/DOL   20-MAY-92     Indiana Department of Labor - SA
05-92-216-50-598     MULTI    AL/DOL   10-JUL-92     Kansas, State of- SA
05-92-217-50-598     MULTI    AL/DOL   15-JUL-92     Iowa, State of- SA
05-92-219-50-598     MULTI    AL/DOL   22-JUL-92     Wisconsin, State of- SA

06-92-003-03-340    ETA       JTPA     17-JUL-92     Servicios De La Raza
06-92-005-03-340    ETA       JTPA     06-APR-92     Office of Rural Job Training
06-92-006-03-340    ETA       JTPA     22-JUN-92     Cameron County PIC
06-92-007-03-340    ETA       JTPA     22-JUN-92     East Texas Council of Governments
06-92-008-03-340    ETA       JTPA     12-JUN-92     Office of Rural Job Training
06-92-010-03-340    ETA       JTPA     25-SEP-92     East Texas Council of Governments
06-92-119-03-340"   ETA       JTPA     04-JUN-92     Job Training Administration - SA

06-92-117-03-355"    ETA      DINAP    27-MAY-92     American Indian Center of Arkansas, Inc - SA
06-92-118-03-355"    ETA      DINAP    28-MAY-92     Montana United Indian Association- SA
06-92-122-03-355"    ETA      DINAP    24-JUN-92     Four Tribes Consortium - SA
06-92-129-03-355"    ETA      DINAP    21-SEP-92     Oklahoma Tribal Assistance Program, Inc - SA
06-92-227-03-355     ETA      DINAP    20-APR-92     Standing Rock Sioux Tribe - SA
06-92-228-03-355     ETA      DINAP    20-APR-92     Flandreau Santee Sioux Tribe - SA
06-92-229-03-355     ETA      DINAP    20-APR-92     Oglala Sioux Tribe - SA
06-92-230-03-355     ETA      DINAP    30-APR-92     All Indian Pueblo Council, Inc - SA
06-92-233-03-355     ETA      DINAP    26-MAY-92     Lower Brule Sioux Tribe - SA
06-92-234-03-355     ETA      DINAP    26-MAY-92     Ponca Tribe- SA
06-92-239-03-355    ETA       DINAP    01-JUL-92     Alamo Navajo School Board, Inc - SA
06-92-240-03-355    ETA       DINAP    08-JUL-92     United Sioux Tribe of SD Dev Corp - SA
06-92-241-03-355    ETA       D/NAP    12-JUL-92     Santa Clara Pueblo - SA
06-92-243-03-355    ETA       DINAP    29-JUL-92     Sisseton-Wahpeton Sioux Tribe - SA
06-92-244-03-355    ETA       DINAP    05-AUG-92     Southern Ute Indian Tribe - SA
06-92-245-03-355    ETA       DINAP    17-AUG-92     Citizens Band of Potawatomi Indians - SA
06-92-246-03-355    ETA       DINAP    19-AUG-92     Lower Brule Sioux Tribe - SA
06-92-247-03-355    ETA       DINAP    19-AUG-92     Conferderated Salish & Kootenai Tribes - SA
06-92-248-03-355    ETA       DINAP    20-AUG-92     Fort Belknap Indian Community - SA
06-92-249-03-355    ETA       D/NAP    20-AUG-92     Ute Mountain Ute Tribe - SA
06-92-250-03-355    ETA       DINAP    28-AUG-92     Rarnah Navajo School Board, Inc - SA
06-92-252-03-355    ETA       DINAP    16-SEP-92     Assiniboine & Sioux Tribes - SA
06-92-254-03-355    ETA       DINAP    16-SEP-92     Inter-Tribal Council, Inc - SA
06-92-255-03-355    ETA       DINAP    18-SEP-92     Cherokee Nation - SA
06-92-256-03-355    ETA       DINAP    21-SEP-92     Caddo Indian Tribe - SA
06-92-257-03-355    ETA       DINAP    22-SEP-92     Mescalero Apache Tribe - SA
06-92-258-03-355    ETA       DINAP    22-SEP-92     United Tribes Technical College - SA

06-92-231-03-360    ETA       DOWP     01-MAY-92     New Mexico State Agency on Aging - SA



                                               129
                                  Final Audit Reports Issued
                             April 1, 1992 - September 30, 1992
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


06-92-236-03-360    ETA       DOWP     02-JUN-92     Arkansas Dept of Human Services - SA
06-92-242-03-360    ETA       DOWP     13-JUL-92     Dept of Health & Social Service - SA

06-92-108-03-365"   ETA       DSFP     14-APR-92     Colorado Rural Housing Development Corp - SA
06-92-110-03-365"   ETA       DSFP     14-APR-92     Tierra Del :Sol Housing Corp - SA
06-92-111-03-365"   ETA       DSFP     16-APR-92     Oro Development Corp - SA
06-92-112-03-365"   ETA       DSFP     16-APR-92     Rock), Mountain SER/Jobs for Progress, Inc - SA
06-92-113-03-365"   ETA       DSFP     24-APR-92     Colorado Rural Housing Development Corp - SA
06-92-114-03-365"   ETA       DSFP     20-APR-92     Colorado Rural Housing Development Corp - SA
06-92-120-03-365"   ETA       DSFP     04-JUN-92     Home Education Livelihood Program, Inc - SA
06-92-121-03-365"   ETA       DSFP     24-JUN-92     San Patricio County Comm on Youth Education - SA
06-92-123-03-365"   ETA       DSFP     08-SEP-92     Motivation Education & Training, Inc - SA

06-92-238-06-601    MSHA      GRTEES    18-JUN-92    Energy, Minerals & Natural Resources Dept - SA

06-92-253-10-101    OSHA      OSHAG     16-SEP-92    Health & Environment Dept - SA

06-92-116-11-111"   BLS       BLSG     14-MAY-92     Arkansas Workers' Compensation Commission - SA

06-92-109-50-598"   MULTI     AL/DOL   13-APR-92     Arkansas Employment Security Division - SA
06-92-115-50-598"   MULTI     AL/DOL   28-APR--92    Job Service North Dakota - SA
06-92-125-50-598"   MULTI     AL/DOL   11-SEP-92     New Mexico Dept of Labor - SA
06-92-126-50-598"   MULTI     AL/DOL   15-SEP-92     Dept of Employment - SA
06-92-127-50-598"   MULTI     AL/DOL   1I-SEP-92     New Mexico Dept of Labor - SA
06-92-128-50-598"   MULTI     AL/DOL   17-SEP-92     Wyoming Employment Security Commission - SA
06-92-226-50-598    MULTI     AL/DOL   03-APR-92     Utah, State of- SA
06-92-232-50-598    MULTI     AL/DOL   14-MAY-92     South Dakota, State of- SA
06-92-235-50-598    MULTI     AL/DOL   26-MAY-92     Louisiana, State of- SA
06-92-237-50-598    MULTI     AL/DOL   18-JUN-92     Colorado, State of- SA
06-92-251-50-598    MULTI     AL/DOL   14-SEP-92     Texas, State of- SA

09-92-001-03-315    ETA       UIS      25-AUG-92     UCX Verification and Payment Process CAEDD

09-92-200-03-340    ETA       JTPA     12-JUN-92     Fresno PIC
09-92-540-03-340*   ETA       JTPA     15-APR-92     San Diego Consortium & PIC - SA

09-92-544-03-355*   ETA       DINAP    06-APR-92     Maniilaq Manpower - SA
09-92-546-03-355"   ETA       DINAP    08-APR-92     Organization of the Forgotten American - SA
09-92-547-03-355*   ETA       DINAP    20-APR-92     Southern California Indian Center - SA
09-92-548-03-355*   ETA       DINAP    30-SEP-92     American Indian Center of Santa Clara Valley - SA
09-92-549-03-355*   ETA       DINAP    20-APR-92     American Indian Assoc of Tucson, Inc - SA
09-92-550-03-355*   ETA       DINAP    20-APR-92     Indian Human Resource Center, Inc - SA



                                               130
                                 Final Audit Reports Issued
                             April 1, 1992 - September 30, 1992
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


09-92-554-03-355     ETA      DINAP    18-MAY-92     Pascua Yaqui Tribe - SA
09-92-556-03-355     ETA      DINAP    03-JUN-92     Confederated Tribes of Siletz Indians - SA
09-92-557-03-355     ETA      DINAP    03-JUN-92     Confederated Tribes of Siletz Indians - SA
09-92-559-03-355*    ETA      DINAP    26-JUN-92     Candelaria American Indian Council - SA
09-92-560-03-355     ETA      DINAP    27-MAY-92     Gila River Indian Community - SA
09-92-561-03-355     ETA      DINAP    27-MAY-92     Confederated Tribes of the Warm Springs Res - SA
09-92-563-03-355     ETA      D/NAP    26-JUN-92     Nez Perce Tribe - SA
09-92-564-03-355     ETA      DINAP    14-JUL-92     Kenaitze Indian Tribe - SA
09-92-565-03-355*    ETA      DINAP    10-AUG-92     Las Vegas Indian Center - SA
09-92-566-03-355*    ETA      DINAP    10-AUG-92     Las Vegas Indian Center - SA
09-92-567-03-355*    ETA      DINAP    10-AUG-92     Kawerak, Inc - SA
09-92-568-03-355     ETA      DINAP    29-JUL-92     Ya-Ka-Ama Indian Ed & Dev - SA
09-92-570-03-355     ETA      DINAP    29-JUL-92     Colorado Indian Tribes - SA
09-92-571-03-355     ETA      DINAP    29-JUL-92     Cook Inlet Tribal Council - SA
09-92-572-03-355     ETA      DINAP    31-JUL-92     Hoopa Valley Tribe - SA
09-92-573-03-355     ETA.     DINAP    04-AUG-92     Hoopa Valley Tribe - SA
09-92-574-03-355     ETA      DINAP    03-AUG-92     Aleutian/Pribilof Islands Assoc - SA
09-92-578-03-355     ETA      DINAP    10-SEP-92     Hopi Tribe - SA
09-92-580-03-355*    ETA      DINAP    16-SEP-92     Northern California Indian Dev Council - SA
09-92-582-03-355     ETA      DINAP    14-SEP-92     White Mountain Apache - SA
09-92-585-03-355     ETA      DINAP    14-SEP-92     Lummi Business Council - SA
09-92-586-03-355     ETA      DINAP    22-SEP-92     Tule River Tribal Council - SA

09-92-581-03-360"    ETA      DOWP     17-SEP-92     National Assoc for Hispanic Elderly - SA

09-92-545-03-365*   ETA       DSFP     15-APR-92     Central Valley Opportunity Center - SA
09-92-552-03-365*   ETA       DSFP     18-MAY-92     Idaho Migrant Council - SA
09-92-558-03-365*   ETA       DSFP     26-JUN-92     Self-Help Enterprises - SA
09-92-562-03-365*   ETA       DSFP     17-SEP-92     PPEP - SA
09-92-569-03-365    ETA       DSFP     29-JUL-92     Rural Community Assistance Corp - SA
09-92-575-03-365*   ETA       DSFP     11-SEP-92     California Human Development Corp - SA
09-92-584-03-365*   ETA       DSFP     14-SEP-92     Proteus - SA
09-92-587-03-365    ETA       DSFP     22-SEP-92     County of Kern - SA

09-92-576-03-370*    ETA      OJC      10-SEP-92     Young Women's Christian Assoc LA - SA
09-92-577-03-370*    ETA      OJC      10-SEP-92     Young Women's Christian Assoc LA - SA

09-92-002-12-121    PWBA      ENFORC   26-JUN-92     PWBA Terminations    Statement of Fact

09-92-523-50-598    MULTI     AL/DOL   26-JUN-92     Government of Guam - SA
09-92-538-50-598*   MULTI     AL/DOL   03-APR-92     Arizona, State of- SA
09-92-551-50-598"   MULTI     AL/DOL   20-APR-92     Idaho Department of Employment-        SA



                                               131
                                 Final Audit Reports ]issued
                             April 1, 1992 - September 30, 1992
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


09-92-553-50-598*   MULTI     AL/DOL   27-MAY-92    Arizona DES - SA
09-92-555-50-598    MULTI     AL/DOL   27-MAY-92    Alaska, State of- SA
09-92-579-50-598    MULTI     AL/DOL   14-SEP-92    Commonwealth of Northern Mariana IS - SA
09-92-588-50-598*   MULTI     AL/DOL   22-SEP-92    Hawaii Dept of Labor & Ind Relations - SA

12-92-021-03-001    ETA       ADMIN    25-AUG-92    Unemployment Trust Fund FY 91
12-92-022-03-001    ETA       ADMIN    25-AUG-92    FY 91 ETA Financial Statements

12-92-007-03-370    ETA       OJC      09-JUN-92    Women in Community Service

12-92-028-04-431    ESA       FECA     14-AUG-92    Premiums Remitted to Healthplus of Maryland

12-92-001-06-001    MSHA      ADMIN    30-JUN-92    FY 91 MSHA Financial Statements
12-92-031-06-001    MSHA      ADMIN    27-MAY-92    MSHA Management Letter

12-92-002-07-001    OASAM     ADMIN    28-AUG-92    FY 91 Financial Statements and Related Reports

12-92-030-07-710    OASAM     COMP     19-AUG-92    Worldng Capital Fund Financial Statements

12-92-027-07-711    OASAM     OA       14-AUG-92    Premiums Remitted to Healthplus of Maryland
12-92-029-07-711    OASAM     OA       01-SEP-92    Accts Payable, Undelivered Orders & Disbursements

12-92-019-07-735    OASAM     OPGM     28-MAY-92    ITT Federal Services Corp Compensation Review




12-92-033-07-735    OASAM    OPGM      03-SEP-92    Mathematica - DCAA Indirect

12-92-018-98-599    OT AGY NO/DOL      24-APR-92    DOL Child Development Center, Inc
12-92-026-98-599    OT AGY NO/DOL      12-MAY-92    Healthplus of Maryland

17-91-006-03-370    ETA      OJC       01-APR-92    Gainseville AUP/Related   Financial


17-92-006-07-770    OASAM    DCR       25-SEP-92    Effectiveness of DCR Complaint & Compliance Sys

18-92-022-01-001    OSEC     ADMIN     31-JUL-92    PCEPD - Status Report as of May 15, 1992

18-92-018-03-340    ETA      JTPA      01-JUN-92    Association of Retarded Citizens
18-92-025-03-340    ETA      JTPA      25-JUN-92    SER.-Jobs for Progress, Inc
18-92-028-03-340    ETA      JTPA      02-AUG-92    OIC of America - AUP



                                              132
l




                                         Final Audit Reports Issued
                                     April 1, 1992 - September 30, 1992
                                                    Date Sent
    Audit                                           to Program
    Report Number          Agency     Program       Agency          Name of Audit/Auditee


    18-92-019-03-355        ETA        DINAP        01-JUN-92       American Indian Bus Assoc of Chicago & Midwest
    18-92-020-03-355        ETA        DINAP        01-JUN-92       Indian Development District of AZ, Inc
    18-92-029-03-355        ETA        D/NAP        13-AUG-92       Grand Rapids Inter-Tribal Council

    18-92-031-03-360        ETA        DOWP         17-AUG-92       Natl Pacific/Asian Resource Ctr on Aging

    18-92-017-03-365        ETA        DSFP         09-APR-92       Rural Alabama Dev Corp - Weaknesses Cash Mgmt
    18-92-030-03-365        ETA        DSFP         20-AUG-92       Rural Alabama Dev Corp Fin & Perf 7/89-12/91

    18-92-027-03-370       ETA         OJC          10-SEP-92       Leo    A. Daly -    FY 87 Indirect Costs
    18-92-032-03-370       ETA         OJC          29-SEP-92       Natl   Plastering    Ind Jt Apprenticeship   Fund
    18-92-033-03-370       ETA         OJC          29-SEP-92       Natl   Plastering    Ind Jt Apprenticeship   Fund
    18-92-034-03-370       ETA         OJC          04-SEP-92       Natl   Maritime     Union

    18-92-023-07-735        OASAM      OPGM         03-JUN-92       Natl Governor's       Association AUP
    18-92-024-07-735        OASAM      OPGM         22-JUN-92       Natl Conference of Black Mayors
    18-92-026-07-735        OASAM      OPGM         24-AUG-92       Technical Assistance Group

    18-92-021-10-101        OSHA       OSHAG        01-JUN-92       John Gray Institute 9/90-7/91

    19-92-010-07-710        OASAM      COMP         18-AUG-92       Weaknesses Identified in the Recert Pay Process

    19-92-007-07-720        OASAM     DIRM          17-JUN-92       Computer Viruses in DOL
    19-92-011-07-720        OASAM     DIRM          30-SEP-92       Host Computer Resources Utilization

    19-92-009-09-001        OIG       ADMIN         14-AUG-92       Computer Viruses in OIG

    *DOL has cognizant responsibility for specific entities under the Single Audit Act. Reports listed and asterisked above
    indicate those entities for which DOL has cognizance. More than one audit report may have been issued or transmitted
    for an entity during this time period. Reports are issued or transmitted based on the type of funding and the agency/
    program responsible for resolution.




                                                             133
               ABBREVIATIONS               USED IN THIS REPORT


ADMIN    Agency Administration
AICPA    American Institute of Certified Public Accountants
AL/DOL   All DOL agencies involved in the audit
ASAM     Assistant Secretary for Administration and Management
BAT      Bureau of Apprenticeship Training (ETA)
BL       Black Lung Benefits Program (ESA)
BLDTF    Black Lung Disability Trust Fund (ESA)
BLS      Bureau of Labor Statistics
CETA     Comprehensive Employment and Training Act (ETA)
CMWC     Coal Mine Workers' Compensation (ESA)
COMP     Comptroller
DBRA     Davis Bacon and Related Acts
DFEC     Division of Federal Employees' Compensation (ESA)
DINAP    Division of Indian and Native American Programs (ETA)
DIRM     Directorate of Information Resources Management (OASAM)
DOJ      Department of Justice
DOL      Department of Labor
DOLAR$   Department of Labor Accounting and Related Systems (OASAM)
DOWP     Division of Older Workers Program (ETA)
DSFP     Division of Seasonal Farmworker Programs (ETA)
DVOP     Disabled Veterans Outreach Program (VETS)
ECN      Executive Computer Network
EEOC     Equal Employment Opportunity Commission
ERISA    Employee Retirement Income Security Act
ESA      Employment Standards Administration
ETA      Employment and Training Administration
FECA     Federal Employees' Compensation Act
FMFIA    Federal Managers' Financial Integrity Act
FLC      Foreign Labor Certification
FY       Fiscal Year
GAO      Government Accounting Office
GAAP     Generally Accepted Accounting Principles
GRTEES   Grantees
ILO      International Labor Organization
ILAB     Bureau of International Labor Affairs
ILGWU    International Ladies Garment Workers,' Union
JFMIP    Joint Financial Management Improvement     Program
JTPA     Job Training Partnership Act (ETA)
LAN      Local Area Network
LMRDA    Labor Management Reporting and Disclosure Act
MEWA     Multiple Employer Welfare Arrangement
MSHA     Mine Safety and Health Administration
MSHAG    Mine Safety and Health Administration Grantees
MSPB     Merit Systems Protection Board
NCOA     National Council on the Aging
NO/DOL   No DOL funds involved in the audit
OASAM    Office of Assistant Secretary for Administration and Management
OI       Office of Investigations (OIG)
OIC/A    Opportunities Industrial Centers of America, Inc.
OIG      Office of Inspector General

                                              134
!




    OJC      Office of Job Corps
    OJT      On-the-Job Training
    OLMS     Office of Labor-Management    Standards
    OLR      Office of Labor Racketeering (OIG)
    OMB      Office of Management and Budget
    OPGM     Office of Procurement and Grant Management (OASAM)
    ORMLA    Office of Resource Management and Legislative Assessment   (OIG)
    OSEC     Office of the Secretary
    OSHA     Occupational Safety and Health Administration
    OSHAG    Occupational Safety and Health Administration Grantees
    OT AGY   Agency other than DOL
    OWCP     Office of Workers' Compensation Frograms (ESA)
    PFCRA    Program Fraud Civil Remedies Act of 1986
    PIC      Private Industry Council
    PWBA     Pension and Welfare Benefits Admhaistration
    SESA     State Employment Security Agency
    SDA      Service Delivery Area
    SOL      Solicitor of Labor
    SPPD     Strategic Planning and Policy Development Office (ETA)
    TAA      Trade Adjustment Act
    UIS      Unemployment Insurance Service (ESA)
    VETS     Veterans' Employment and Trainin,_; Services




                                                135
         Copies of this report may be obtained
         from the LI.S. Department of Labor,
         Office of Inspector General,
         Room S-5508
         200 Constitution Ave., N.W.
         Washington, D.C. 20210




                DEPARTMENT OF LABOR
                    OIG HOTLINE

             202-219-5227    (Washington    Dialing Area)

    1-800-347-3756 (Toll Free--outside     Washington Area)

     The OIG Hotline is open 24 hours a day, 7 days a
     week to receive allegations of fraud, waste, and
     abuse. An operator is normally on duty on work-
     days between 8:15 AM and 4:45 PM, Eastern Time.
     An answering machine handles calls at other times.
     Federal employees may reach the Hotline through
     FTS. The toll-free number is available for those
     residing outside the Washington Dialing Area who
     wish to report these allegations. Written com-
     plaints may be sent to:

                 OIG Hotline
                 U.S. Department of Labor
                 Room S-5512 FPB
                 200 Constitution Avenue, N.W.
                 Washington, D.C. 20210




Federal RecyclingProgram _     _l_j   Printedon RecycledPaper
                        _lBqlp'
